<html>
<title> - NOMINATIONS TO THE FEDERAL AVIATION MANAGEMENT ADVISORY COUNCIL</title>
<body><pre>[Senate Hearing 106-1111]
[From the U.S. Government Printing Office]


                                                       S. Hrg. 106-1111
 
    NOMINATIONS TO THE FEDERAL AVIATION MANAGEMENT ADVISORY COUNCIL
=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 4, 2000

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation







                          U.S. GOVERNMENT PRINTING OFFICE
80-849                             WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
SLADE GORTON, Washington             JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
OLYMPIA J. SNOWE, Maine              JOHN B. BREAUX, Louisiana
JOHN ASHCROFT, Missouri              RICHARD H. BRYAN, Nevada
BILL FRIST, Tennessee                BYRON L. DORGAN, North Dakota
SPENCER ABRAHAM, Michigan            RON WYDEN, Oregon
SAM BROWNBACK, Kansas                MAX CLELAND, Georgia
                  Mark Buse, Republican Staff Director
            Martha P. Allbright, Republican General Counsel
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel







                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 4, 2000......................................     1
Statement of Senator Hollings....................................     3
    Prepared statement...........................................     3
Statement of Senator Hutchison...................................    12
Statement of Senator McCain......................................     1
    Prepared statement...........................................     2
Statement of Senator Rockefeller.................................     4
    Prepared statement...........................................     4

                               Witnesses

Babbitt, Capt. J. Randolph, Principal, Babbitt and Associates, 
  Oakton, VA.....................................................     5
    Prepared statement...........................................     6
    Biographical information.....................................     6
Baker, Robert W., Vice Chairman, American Airlines, Inc., Fort 
  Worth, TX......................................................    13
    Prepared statement...........................................    13
    Biographical information.....................................    14
Bolen, Edward M., President, General Aviation Manufacturers 
  Association, Washington, DC....................................    19
    Prepared statement...........................................    20
    Biographical information.....................................    20
Boyer, Philip B., President, Aircraft Owners and Pilots 
  Association, Frederick, MD.....................................    25
    Prepared statement...........................................    26
    Biographical information.....................................    27
Branson, Deborah Dudley, Attorney, Law Offices of Frank L. 
  Branson, P.C., Dallas, TX......................................    33
    Prepared statement...........................................    34
    Biographical information.....................................    34
Crowley, Geoffrey T., Chairman, President and CEO, Air Wisconsin 
  Airlines, Appleton, WI.........................................    39
    Prepared statement...........................................    40
    Biographical information.....................................    40
Davis, Robert A., Retired Corporate Vice President of 
  Engineering, The Boeing Company, Seattle, WA...................    45
    Prepared statement...........................................    45
    Biographical information.....................................    46
Wilson, Kendall W., President, First Financial Management 
  Services, Washington, DC.......................................    51
    Prepared statement...........................................    52
    Biographical information.....................................    53

                                Appendix

Response to written questions submitted by Hon. John McCain to:
    Deborah Branson..............................................    78
    Phil Boyer...................................................    63


    NOMINATIONS TO THE FEDERAL AVIATION MANAGEMENT ADVISORY COUNCIL

                              ----------                              


                         THURSDAY, MAY 4, 2000

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.
    Staff members assigned to this hearing: Virginia Pounds, 
Republican Professional Staff; and Jonathan Oakman, Democratic 
Staff Assistant.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Today's hearing is on eight of the 
President's nominations to the Federal Aviation Management 
Advisory Council. The candidates before the Committee are 
intended to represent a broad cross-section of the aviation 
industry. If confirmed by the Senate, they will constitute an 
advisory board for the FAA Administrator.
    I want to thank our witnesses for their time today. The 
Federal Aviation Management Advisory Council was authorized by 
Congress in the 1996 FAA reauthorization bill. The legislation 
required the President to appoint 11 aviation experts to the 
Management Advisory Council to serve alongside a Department of 
Transportation official and a Department of Defense official.
    The recently enacted Aviation Investment and Reform Act for 
the 21st Century added five additional members to the Council, 
who will focus exclusively on the FAA's management and 
modernization of the air traffic control system. The 
Subcommittee members will have no ties to any particular 
segment of the aviation industry. The main purpose of the 
Management Advisory Council is to formulate and to support and 
oversee the FAA's goals and strategies.
    Like a corporate board of directors, the Council is 
expected to hold the FAA Administrator accountable for meeting 
goals on time and living within budgetary guidelines. Using 
their collective management expertise the members of the 
Management Advisory Council can and should help the 
Administrator respond to repeated calls to operate the FAA more 
like a service business.
    I should underscore the fact that the FAA Administrator 
retains the final authority on all matters within the FAA's 
jurisdiction, since aviation safety has been and must be the 
paramount mission of this agency. As such, the direct powers of 
the Management Advisory Council are intentionally limited. The 
substantive issues the nominees face are challenging. The FAA 
needs to do a better job of managing labor and air traffic 
control modernization costs during a time of enormous growth in 
aviation.
    The Congress has provided the FAA with a nearly 
unprecedented boost in funding to provide the infrastructure 
necessary to accommodate increased air traffic, yet even today 
nonsafety-related delays severely hamper an already 
overburdened system. The FAA must take the lead in returning 
air travel to a predictable and convenient mode of 
transportation that our economy has come to depend on.
    The Committee recognizes that the task at hand is daunting. 
Even so, the members of the Council should not underestimate 
the power of the bully pulpit. The Administrator is required by 
law to justify publicly, in writing, his or her decisions that 
break from the recommendations of the Management Advisory 
Council. I am convinced that bright sunlight is one of the 
strongest motivators of sound public policy.
    In closing, I sincerely hope that the Administration's 
delay in sending up your nominations does not reflect on how 
well it will receive the scrutiny of the Management Advisory 
Council. It took more than 3 years for even the first 
nominations to come to the Committee. I hope and expect this 
timing issue is water under the bridge.
    I want the nominees to know that the Management Advisory 
Council has my full support in its endeavors. For your work to 
make a contribution will require an enormous amount of your 
time and patience. I thank you wholeheartedly for your 
willingness to serve. Please feel free to introduce any family 
members here before you give your remarks, but first I would 
like to turn to Senator Hollings for any remarks he may want to 
make.
    [The prepared statement of Senator McCain follows:]

   Prepared Statement of Hon. John McCain, U.S. Senator from Arizona
    Today's hearing is on eight of the President's nominations to the 
Federal Aviation Management Advisory Council. The candidates before the 
Committee are intended to represent a broad cross-section of the 
aviation industry. If confirmed by the Senate, they will constitute an 
Advisory Board for the FAA Administrator. I want to thank our witnesses 
for their time today.
    The Federal Aviation Management Advisory Council was authorized by 
Congress in the 1996 FAA reauthorization bill. The legislation required 
the President to appoint 11 aviation experts to the Management Advisory 
Council, to serve alongside a Department of Transportation official and 
a Department of Defense official. The recently-enacted Wendell H. Ford 
Aviation Investment and Reform Act for the 21st Century added five 
additional members to the Council, who will focus exclusively on the 
FAA's management and modernization of the air traffic control system. 
The Subcommittee members will have no ties to any particular segment of 
the aviation industry.
    The main purpose of the Management Advisory Council is to help 
formulate, and to support and oversee the FAA's goals and strategies. 
Like a corporate Board of Directors, the Council is expected to hold 
the FAA Administrator accountable for meeting goals on time and living 
within budgetary guidelines. Using their collective management 
expertise, the members of the Management Advisory Council can and 
should help the Administrator respond to repeated calls to operate the 
FAA more like a service business.
    I should underscore the fact that the FAA Administrator retains the 
final authority on all matters within the FAA's jurisdiction, since 
aviation safety has been and must be the paramount mission of the 
Agency. As such, the direct powers of the Management Advisory Council 
are intentionally limited.
    The substantive issues the nominees' will face are challenging. The 
FAA needs to do a better job of managing labor and air traffic control 
modernization costs during a time of enormous growth in aviation. 
Congress has provided the FAA with a nearly unprecedented boost in 
funding to provide the infrastructure necessary to accommodate 
increased air traffic. Yet even today, non safety-related delays 
severely hamper an already overburdened system. The FAA must take the 
lead in returning air travel to a predictable and convenient mode of 
transportation that our economy has come to depend on.
    The Committee recognizes that the task at hand is daunting. Even 
so, the members of the Council should not underestimate the power of 
the bully pulpit. The Administrator is required by law to justify 
publicly, in writing, his or decisions that break from the 
recommendations of the Management Advisory Council. I am convinced that 
bright sunlight is one of the strongest motivators of sound public 
policy.
    In closing, I sincerely hope that the Administration's delay in 
sending up your nominations does not reflect on how well it will 
receive the scrutiny of the Management Advisory Council. It took more 
than three years for even the first nominations to come to the 
Committee.
    I hope and expect that this timing issue is water under the bridge. 
I want the nominees to know that the Management Advisory Council has my 
full support in its endeavors. For your work to make a contribution 
will require an enormous amount of your time and patience. I thank you 
wholeheartedly for your willingness to serve. Please feel free to 
introduce any family members here, before you give your remarks.

             STATEMENT OF HON. ERNEST F. HOLLINGS, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Hollings. Thank you, Mr. Chairman. I am just fine.
    [The prepared statement of Senator Hollings follows:]

            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator from South Carolina
    There is an old song, that has a line in it--``it's been a long 
time coming.'' We have been waiting for each of you for about 3 years. 
Far too long for you, and far too long for us to wait. However, we are 
glad you are here, and wish you well.
    In 1996, this Committee negotiated with the Administration on a set 
of reforms for the FAA. Months of talks went on, and in the end, it was 
agreed, by everyone in the room, including staff from the White House, 
Department of Transportation, Federal Aviation Administration, General 
Accounting Office, and staff from this Committee, that the FAA would 
have a Management Advisory Council, or MAC. The members were to be 
appointed within 3 months of enactment of the 1996 bill.
    The negotiations followed a period in the Senate where we had 
engaged in a fairly contentious battle, not within the Committee, but 
with the Administration, over what to do with the FAA. The 
Administration had proposed to ``corporatize'' or privatize the FAA. 
Many Members, and various parts of the industry, vehemently disagreed 
with that proposal. Instead, following a hearing in August 1995, an 
agreement was reached to put aside the Administration's proposal and 
come up with a set of workable reforms. Out of that negotiation came 
unprecedented authority for the FAA to develop its own personnel and 
procurement systems. The precise language that was crafted ultimately 
became part of the FY 1996 Transportation Appropriations legislation.
    We also set up the Management Advisory Council as part of the deal. 
What is interesting is that the Administration, having failed to 
appoint any members to the MAC for years, claimed just last year, and 
even this year, that the FAA had to be reformed. Yet, until this point, 
they had not carried through on their end of the deal. When we exercise 
our Congressional oversight role, and when we reach an agreement with 
all of the affected parties, that deal should be carried out. This is 
not a reflection on the nominees today, but they should understand the 
circumstances that have brought them to this point.
    With no nominees forthcoming for several years, we changed the 
makeup of the MAC as part of the Wendell Ford Aviation Investment and 
Reform Act for the 21st Century (FAIR 21), eliminating two of the 
Senate confirmed positions, and creating a separate, 5 member 
subcommittee to focus on air traffic control. The 8 of you today are 
here to represent aviation interests, and looking at your resumes, you 
come from diverse backgrounds.
    The FAA is a unique world. It has an enormous responsibility, is 
constantly criticized, and has had a difficult time modernizing the air 
traffic control system. FAIR 21 should provide the necessary resources 
for new equipment and more airport infrastructure--we know that all of 
the monies in the Airport and Airways Trust Fund will be spent on 
aviation. We will need more than that to run the agency, but your job 
will be to help guide the decision making process on how best to 
allocate those resources. Look at the certification process, look at 
security, look at capacity, and always focus on safety.
    I anticipate that you will be in constant contact with the 
Committee as you see issues and problems that need our attention. I 
look forward to your testimony.

    The Chairman. Senator Rockefeller, do you have any opening 
comments?

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. I will submit my statement.
    [The prepared statement of Senator Rockefeller follows:]

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    Mr. Chairman, I appreciate your willingness to hold this hearing 
for us to consider the nominations of these 8 individuals so quickly, 
particularly given how long it has taken for the Administration to 
submit these names.
    I know that we share a desire to ensure that the FAA continues to 
provide the safest air traffic control system possible. We will debate 
over the coming years, what the structure of the agency should be, and 
how to make improvements in the delivery of services. Today, before us 
are 8 individuals willing to help the FAA, Congress and the public, in 
ensuring that we do have the best system possible. These 8 come from 
diverse backgrounds, some of whom are well known to this Committee and 
aviation, and others who will give us an ``uncluttered'' view of the 
FAA. On a personal note, I have had an opportunity to work directly 
with Ed Bolen and Bob Baker, and met a number of times with Phil Boyer. 
Each of them has helped me over the last year and a half in formulating 
aviation policy, and I know that they will bring their knowledge and 
expertise to these new positions.
    I also want to add that the 8 nominees today should be followed by 
3 additional nominees to the MAC. The Administration then must name 5 
individuals to a separate subcommittee to oversee the air traffic 
control functions of the FAA, as required by the recently enacted FAA 
bill. I hope the Administration will not wait for more than 2 years, 
like they have done for the 8 people before us today, to name the other 
nominees. Congress has set a course, and we have worked with the 
Administration, to provide outside oversight of the FAA. The 
Administration should not delay nominating folks to these critical 
positions--there is too much at stake. It would be a disservice to the 
traveling public and to the legislative process.
    Each of you has a difficult job ahead of you. All of us know of 
challenges facing the FAA--from safety to efficiency. You will have an 
opportunity to see how the agency functions, see the challenges of 
budgeting and decision making, and view internal processes. You should 
question what you are told--if the FAA says it will take 3 years to 
develop and install new systems, ask why. Demand to know is there a 
better way. In the end, you will have the ability to push the agency to 
make real changes, and have the knowledge to guide us on where further 
changes may be needed to the charter of the FAA.
    The Administrator, Jane Garvey, has now been at the FAA for about 2 
and a half years. We have seen many changes, but perhaps most 
fundamental is a communication change. Things that seem deceptively 
simple, like agreeing on how to handle bad weather, have been worked 
out by the Administrator. I am certain that much more needs to be done 
and you will be in a position to foster new ways of communicating.
    The MAC has a special responsibility that was mandated as part of 
the 1996 FAA Reauthorization Act. You were specifically given the 
responsibility of providing your comments, recommendations and 
dissenting views to the Administrator on the management, spending, 
funding and regulatory matters. The Administrator will then have to 
react to those views, and make them known to the public and to 
Congress. Effectively, we have opened up the books of the FAA to you so 
that you can be our eyes and ears.
    You will also be asked for your input on the needs of the FAA, 
particularly the personnel side. As part of the Wendell H. Ford 
Aviation Investment and Reform Act for the 21st Century (FAIR 21), 
Congress effectively makes sure that the capital needs of the FAA will 
be met. Congress left open the question of how much is needed for 
operations, and that is something that we all, including all of you, 
must work together on--first to be able to justify the need, and then 
to make sure that we work with the Appropriations Committee, and many 
Members of this Committee also serve as Appropriators, to get the 
money.
    You are expected to bring additional credibility to the debate, 
with candor and vigor. If you see problems, let Jane know and let us 
know. I look forward to working with all of you.

    The Chairman. Then we would proceed with the opening.
    Captain Babbitt, we will start with you.

STATEMENT OF CAPT. J. RANDOLPH BABBITT, PRINCIPAL, BABBITT AND 
                     ASSOCIATES, OAKTON, VA

    Captain Babbitt: Thank you, Mr. Chairman. Good morning to 
all of the panel this morning. I would like to thank you for 
providing us a little bit of time to introduce ourselves for 
consideration for our confirmation. I am Randolph Babbitt. I 
recently retired as president of the Airline Pilots Association 
International. That was a position I held for 8 years.
    I was ALPA's chief executive and administrative officer, 
and ALPA, of course, is the largest labor union and 
professional organization of airline pilots in the world. I 
would proudly note here that the Association is also widely 
recognized as one of this industry's leading air safety 
advocates.
    While president, I put forth a strategy to address the 
impact of globalization within the airline industry 
specifically on the pilot work force, and that program was 
ALPA's Global Pilot Strategy which I introduced to ALPA's board 
back in 1994. Also during my tenure I championed an internal 
initiative internal to ALPA, which was known to us as ``One 
Level Of Safety,'' whose goal was to bring the safety standards 
of all carriers, specifically 135 carriers, up to the standards 
of 121. That program came to fruition in 1995, when then-
Secretary of Transportation Pena announced that ``One Level Of 
Safety'' was going to be a national mandate.
    Additionally, while I was president of ALPA, if I can flip 
a sheet here, I also served as vice president of the AFL-CIO 
and was a member of their Executive Council. I was also a vice 
president on the Transportation Trades Committee as well as 
Chairman of the Railway Labor Act Committee. President Clinton 
appointed me in 1993 to the National Commission to Ensure a 
Strong Competitive Airline Industry, where I was a voting 
member. That committee put forth a number of recommendations. 
It was chaired, I think you will recall, by then Governor 
Baliles, and a number of those items that we put forth have 
since been adopted, I think to further the cause of keeping our 
industry strong.
    My personal background also includes being an active 
airline pilot for Eastern Airlines for almost 25 years. I 
retired there as a DC 9 captain. I was also ALPA's executive 
administrator for 6 years prior to being elected as president, 
and I provided direct liaison between the president and working 
pilot groups.
    I am honored to have been nominated for this commission by 
the President, and also to appear before this Committee for 
your consideration. I certainly hope that you will find my 
credentials and background suitable for this advisory council, 
and I would be happy to answer any questions that you, Mr. 
Chairman, or the other members might have.
    Thank you.
    [The prepared statement and biographical information of 
Captain Babbitt follow:]

      Prepared Statement of Capt. J. Randolph Babbitt, Principal, 
                   Babbitt and Associates, Oakton, VA
    Good morning Mr. Chairman, and members of the Committee. Thank you 
for providing a little time for us to introduce ourselves for 
consideration of our confirmation.
    I am Randolph Babbitt, and I recently retired as President of the 
Air Line Pilots Association, International, a position I held for eight 
years. I was the Chief Executive and Administrative Officer for ALPA, 
the largest labor union and professional organization of airline pilots 
in the world. I would proudly note that the Association is also widely 
recognized as one of the industry's leading air safety advocates. While 
president, I put forth a strategy to address the impact of 
globalization within the airline industry on the pilot workforce. That 
program is ALPA's Global Pilot Strategy, which I introduced to ALPA's 
Board of Directors in 1994. Also, during my tenure, I championed our 
internal initiative known as ``One Level of Safety,'' whose goal was to 
bring safety standards for Part 135 air carriers up to those of Part 
121. That program came to fruition in December of 1995 when 
Transportation Secretary Pena announced ``One Level of Safety'' as a 
national mandate. Additionally, while President of ALPA, I served as a 
Vice President of the AFL-CIO and was a member of their Executive 
Council. I was also a Vice President on the Transportation Trades 
Committee as well as Chairman of the Railway Labor Act Committee
    President Clinton appointed me in 1993 to the National Commission 
to Ensure a Strong Competitive Airline Industry, where I was a voting 
member. That commission put forth a number of recommendations, the 
majority of which have been adopted by the appropriate agencies.
    My background also includes being an active line pilot for Eastern 
Air Lines for almost 25 years before retiring as a DC-9 captain. I was 
also the Executive Administrator for the Air Line Pilots Association 
for six years providing direct assistance to the Association president 
and the liaison between the national office and pilot representatives 
and committees.
    I am honored to have been nominated by the President and to appear 
before this Committee for consideration. I certainly hope you find my 
background and credentials suitable for membership on the Management 
Advisory Council for the Federal Aviation Administration. I would be 
happy to answer any questions that the Chair or any members may wish to 
ask.
    Thank you.
                      a. biographical information
    1. Name: (Include any former names or nick names used.) Jerome 
Randolph Babbitt.
    2. Position to which nominated: Member--FAA MAC.
    3. Date of nomination: March 30, 2000.
    4. Address: (List current place of residence and office addresses.) 
2600 Geneva Hill CT, Oakton, VA 22124-1534.
    5. Date and place of birth: June 9, 1946, in Miami Beach, FL.
    6. Marital status: (Include maiden name of wife or husband's name.) 
Married, Katherine Hepfner Babbitt.
    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.) Daughter, Tiffany Babbitt Shuster, age 30 
(08/26/68); Daughter, Heather Babbitt Warstler, age 27 (04/30/71).
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received and date degree granted.) Coral Gables 
High School (1961-1964); University of Georgia (1964-1965); University 
of Miami (1965-1967).
    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.) See Resume Attachment #1.
                                                      Attachment #1

1965-1966                 Flight Instructor, Burnside-Ott
1966-1991                 Pilot, Eastern Airlines
1985-1990                 Executive Administrator, Air Line Pilot
                           Association
1991-1998                 President, Air Line Pilot Association
1999-Present              Principal, Babbitt & Associates
 


    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.) Presidential 
appointment, National Commission to Ensure a Strong Competitive Airline 
Industry (voting member).
    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.)

  <bullet> Director, Access National Bank, Chantilly, VA
  <bullet> Board Member, Boy Scouts of America, National Capitol Area 
        Council
  <bullet> Partner, Edge City LLC, McLean, Virginia
  <bullet> Principal, Babbitt & Associates, Consulting Firm, 
        Washington, DC
    Current clients:
    --Airbus Industries, North America--Labor & Aviation issues
    --GKMG--ESOP & Labor issues
    --Asociacion Argentina de Aeronavegantes, a labor union in 
            Argentina representing the Flight attendants--ESOP & Labor 
            issues

    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.)

  <bullet> President Emeritus & member of the Air Line Pilots 
        Association
  <bullet> AFL-CIO, Executive Vice president emeritus
  <bullet> Member of the Executive Board of the Boy Scouts of America, 
        National Capital Area Council
  <bullet> Alumni member Kappa Sigma fraternity
  <bullet> Member St. Mark's Church in Oakton
  <bullet> Member of the Lake Anna Civic Association

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate. None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years. None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. None.
    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.) 
Aviation Week & Space Technology recipient of the 1998 Laurels Award 
for outstanding achievement in the field of Commercial Air Transport; 
President Emeritus of the Air Line Pilots Association; AFL-CIO, 
Executive Vice president emeritus.
    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.) Monthly editorials for eight (8) years in the Air Line Pilot 
magazine while President of the Air Line Pilots Association; Periodic 
articles in the Air Line Pilot magazine over last 20 years (See 
Attachment #2).*
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files.
---------------------------------------------------------------------------
    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated. List of requested speeches (See Attachment #3)* Speech--
Taking off for the 21st Century given at the FAA Aviation Forecast 
Conference in March of 1995 (See Attachment #4).*
    17. Selection:
    (a) Do you know why you were chosen for this nomination by the 
President? My working knowledge of the ``user side'' of the FAA. My 35 
plus years in aviation as a pilot and my 15 years as a safety advocate 
for the majority of airline pilots in the U.S. My Global aviation and 
safety experience gained over the years through being ALPA's chief 
delegate for and representing the majority of the members of the 
International Federation of Air Line Pilot Associations (IFALPA).
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment? Over 
twenty years experience as a line pilot for a major U.S. Airline and 
almost forty years of experience as pilot, remaining current to date. 
Fifteen years representing ALPA and it's member's interests regarding 
aviation safety before the FAA and the U.S. congress.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? No.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. Only to the extent of my 
consulting business, which is primarily focused on labor relations 
issues.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? My full term.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers. Consulting business (Babbitt & Associates); I 
provide consulting services to Airbus Industries, North America.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated? None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. I represented 
ALPA and its member's interests regarding aviation safety before the 
FAA and the U.S. congress. I was the Chairman of the ALPA PAC for the 
years 1991 through 1998.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.) Please 
refer to the Deputy General Counsel's opinion letter.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a compliant to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. No.
    2. Have you ever beer investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details? As President of 
ALPA, various lawsuits are summarized in the attachment titled 
``Legal'' and noted as Attachment #5, primarily dealing with member 
fairness of representation issues. No other litigation on a personal or 
business basis.
                                                      Attachment #5
List of Lawsuits in which J. Randolph Babbitt is/was a named defendant:
Dunn, et al. v. ALPA, et al., No. 91-2679-CIV-DAVIS (M.D. Fla.)
          Suit by former Eastern pilots alleging defamation and breach 
        of the duty of fair representation in connection with the 
        publication and distribution of a blacklist designating 
        plaintiffs as scabs.
          On July 28, 1997, the district court granted summary judgment 
        in favor of all defendants. An appeal is currently pending in 
        the 11th Circuit.
Orzeck, et at. v. Babbitt, et al. No. 95-1736-CIV-T-24C (M.D. Fla.)
          Suit alleging defendants violated their fiduciary obligations 
        to ALPA under Sec. 501 of the Landrum Griffin Act in connection 
        with the Goldstein ESOP fee and a Letter of Agreement relating 
        to seniority rights.
          On May 6, 1996, Babbitt, Hall and Goldstein were dismissed 
        for lack of personal jurisdiction.
Dubinsky & Hall v. United Airlines MEC, et al., No. 95112013 (Cir. Ct., 
        Cook Cty., IL)
          Suit alleging that the defendants made and/or republished 
        libelous and slanderous remarks against the plaintiffs and 
        further asserts false-light invasion-of-privacy claims based on 
        these alleged remarks and republication. The suit does not 
        allege that Captain Babbitt made any specific defamatory 
        remarks; rather, it alleges that he wrongly caused the 
        republication of such remarks.
          On July 19, 1996, the trial court dismissed all counts 
        against Capt. Babbitt; that ruling, and others, currently are 
        on appeal (Nos. 96-3215, 96-3813 (Ill. App. Ct.)).
Nellis, et at. v. ALPA, et al., No. 92-771 (E.D. Va.)
          Suit by former Eastern pilots alleging breach of the duty of 
        fair representation for failure to properly implement ALPA's 
        fragmentation policy.
          On March 3, 1992, ALPA's summary judgment motion was granted. 
        The 4th Circuit (No. 93-1310) affirmed the district court's 
        decision on January 24, 1994 and the plaintiffs' petition for 
        certiorari to the Supreme Court was denied.
Spellacy, et al. v. ALPA, et al., No. CV 93-0853 (E.D.N.Y.)
          Suit alleging breach of the duty of fair representation in 
        connection with the transfer of Pan Am pilots to Delta as a 
        result of Delta's purchase of Pan Am's assets and routes. 
        Defendants' motion for judgment as a matter of law granted on 
        April 21, 1997; dismissal affirmed by the Second Circuit (No. 
        97-7666) in August 1998.
          Petition for certiorari before the United States Supreme 
        Court (No. 98-1113) was denied on March 22, 1999.
Duke, et at. v. ALPA, et al., No. CV 93-0853 (E.D.N.Y.)
          Suit alleging breach of the duty of fair representation in 
        connection with the transfer of Pan Am pilots to Delta 
        employment as a result of Delta's purchase of Pan Am's assets 
        and routes.
          After jury trial the parties reached a settlement agreement.

    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. I believe I have provided all 
information, both favorable and unfavorable, to the best of my 
knowledge and ability.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines set by Congressional Committees for information? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted Committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. Please describe how your previous professional experience and 
education qualifies you for the position for which you have been 
nominated. My personal background as President of ALPA for eight years 
kept me in the mainstream of air safety advocacy as well as monitoring 
the modernization FAA's Air Traffic Control System. As both a former 
airline pilot and current general aviation pilot I have or do maintain 
direct contact with many facets of the nation's air transportation 
system. As ALPA's CEO, I was responsible for an annual budget of more 
than $80 million dollars. I take the fiscal responsibility most 
seriously and ALPA reduced dues 22% during my tenure and operated in 
the black under all of my budgets.
    2. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills? Using the definition of a skill as a 
``developed proficiency; trade or craft'' I believe my tenure in the 
industry has pretty well developed my necessary skill for the MAC. 
However, our nation's transportation system is an enormously complex 
environment, which will require the ongoing assimilation of data to 
stay up to date. I plan to utilize as many sources as possible to stay 
abreast of the ongoing issues.
    3. Why do you wish to serve in the position for which you have been 
nominated? I believe and strongly supported the idea that the FAA 
should have both the support and oversight that any well-run U.S. 
corporation has, in the form of a ``Board of Directors''. In my view, 
the MAC will provide depth to the FAA's development of goals and 
strategies as well as overall accountability. A good management uses 
its board, with outside directors, to test its ideas, structural 
changes as well as the corporate mission statement. Being such an 
advocate of the idea, I would like an opportunity to insure the MAC 
gets off to a good start.
    4. What goals have you established for your first two years in this 
position, if confirmed? To be a constructive member of the MAC. To 
learn more in the areas of ATC modernizations than I know today. To 
have the MAC and its relationship with the FAA be the model for other 
areas of our and other governments to follow in the future. To help 
insure that the FAA maximizes efficiency with their funds so that every 
dollar is effectively utilized.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when should society's 
problems be left to the private sector, and what standards should be 
used to determine when a government program is no longer necessary. My 
belief is that our federal government, in exercising its political 
authority, should be fairly limited. Any influence of the private 
sector should be limited to protecting the rights of those being 
governed. With a fairness doctrine in mind, things like preventing 
economic abuses such as monopolies in the marketplace and protecting 
individual rights clearly fall under the jurisdiction of our 
government. To decide what ``society's problems'' are, is both 
arbitrary and judgmental, neither being areas I would want to see 
undertaken by our government. I would consider myself a fiscal 
conservative. So, with regard to ``when a government program is no 
longer necessary'', I believe that every program or project should have 
a goal and a timeframe. Using the analogy of me taking a taxi ride, I 
always ask the driver before we get underway; ``How long with this take 
and how much will it cost?'' I believe government programs should 
operate under the same premise.
    6. In your own words, please describe the agency's current 
missions, major programs, and major operational objectives.

  <bullet> Current missions:
    --Safety is the cornerstone of the FAA. Insuring that all aspects 
            of our nations transportation system operate safely, 
            efficiently and provide the most modern infrastructure 
            available.
    --Maintain quality employee relations
    --Continue to reduce aircraft accidents and incidents.
    --Insure global harmonization of regulatory requirements to the 
            highest safety levels.
  <bullet> Major programs:
    --Modernization of the Air Traffic Control System.
    --Quality assurance of maintenance and flight operations
    --Provide one level of safety nationwide
  <bullet> Major operational objectives
    --Achieve goals at or under budget
    --Achieve goals and programs on or ahead of schedule

    7. In reference to question number six, what forces are likely to 
result in changes to the mission of this agency over the coming five 
years. Advancements in technology will continue and that always brings 
influence to an ongoing project with the concern of modifying existing 
parameters and goals. You must weigh the advantage of the new 
technological capability against the disadvantage of delay while the 
project is redesigned.
    8. In further reference to question number six, what are the likely 
outside forces which may prevent the agency from accomplishing its 
mission? What do you believe to be the top three challenges facing the 
board/commission and why?

  <bullet> The parochial interests of influential parties have the 
        possibility of modifying the mission.
  <bullet> The major challenges would be:
    --To maintain credibility, key to having input and ideas as well a 
            constructive criticism accepted
    --To stay abreast of the technology being utilized, with the speed 
            of newly developing technology and computing power, this 
            becomes a daunting task in this day and age.
    --To find consensus within the MAC will be key to its 
            effectiveness. Failing to do so will badly weaken the MAC 
            and any synergy with the FAA will be lost.

    9. In further reference to question number six, what factors in 
your opinion have kept the board/commission from achieving its missions 
over the past several years? Not applicable.
    10. Who are the stakeholders in the work of this agency? The 
traveling public, the airport operators, the airlines, the pilots, the 
manufacturers, the employees of the FAA, U.S. business in general, the 
Postal service, the cargo operators and the tourism industry.
    11. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question number ten. A 
fiduciary of the stakeholders, with both fiscal and safety obligations.
    12. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? In my fourteen years 
at ALPA, we had excellent employee relations and no complaint was ever 
brought against me personally or the organization. I believe in 
empowering employees to the maximum extent possible. Supervisors are 
the link between the management's goals and the achievement, production 
and output of those goals.
    13. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with Committees of 
Congress? If yes, please describe. As President of ALPA, I spent 
fourteen years representing ALPA and its member's interests regarding 
aviation safety before the FAA and the U.S. congress. I was a voting 
member National Commission to Ensure a Strong Competitive Airline 
Industry, established by congress in 1992.
    14. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your board/commission 
comply with the spirit of the laws passed by Congress. I plan to accept 
input for consideration from all sources for evaluation. With a 
constructive attitude, I believe we can help insure that the FAA 
maximizes operation and regulatory efficiency.
    15. In the areas under the board/commission jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views. Safety is the top priority. Seeing that the 
desired level of safety is achieved with the minimum of cost and 
regulatory restraint would be my top priority.
    16. Please discuss your views on the appropriate relationship 
between a voting member of an independent board or commission and the 
wishes of a particular president. Any board member should always 
exercise their free will and good judgment. Safety should never become 
a political issue. The word ``independent'' should be accepted with its 
full meaning.

    The Chairman. Thank you very much, Captain Babbitt. You and 
I have worked on a variety of issues, not always in agreement, 
for a long period of time and I have always respected very much 
the outstanding work that you did in representing the airline 
pilots of America. Thank you.
    Captain Babbitt: Thank you, sir.
    The Chairman. Mr. Baker, welcome, and I think Senator 
Hutchison would like to make a comment about Mr. Baker before 
we hear from him. Is that right, Kay?

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Mr. Chairman, I am very pleased to be 
able to introduce two Texans for these important posts. This is 
a Council that I hope will provide a wide range of input and 
technical expertise to the FAA. That is why it was formed, and 
we have two members from Texas who I think can contribute, and 
I wanted to say I appreciate very much you, the Chairman and 
the Ranking Member, Senator Hollings' commitment to aviation 
safety and the integrity of the FAA in making sure that the 
flying public has the highest level of safety that can be 
attained.
    I would like to introduce first Robert Baker, who is known 
to many because of his long service at American Airlines. 
Earlier this year he was named Vice Chairman of American 
Airlines. He has expertise in virtually all aspects of the 
airline business, currently representing American externally on 
technical, and operational issues before the FAA. Before this 
year, Mr. Baker served American as Executive Vice President for 
Operations, and he has also been the go-to person on issues of 
maintenance, engineering flight operations, corporate security, 
corporate real estate, cargo, and safety. He is recognized as 
an industry leader in many technical fields and has been at 
American Airlines as a vice president for more than 20 years. I 
think he will add much technical expertise that will be very 
valuable on this Council.
    The other Texan is Debbie Branson. Ms. Branson has been 
nominated for this position. She is originally a native of 
Arkansas, practicing law in 1980 at the offices of Arnold, 
Lavender, Rochelle, Barnette, & Franks. Currently she is a 
trial attorney at the offices of Frank Branson in Dallas, 
Texas, where she has practiced since 1983. She currently serves 
as President of the Texas Trial Lawyers Association, and is 
Vice Chair of the Board of Trustees for the Securities Investor 
Protection Corporation.
    In 1994, she chaired the Select Committee on Rate and 
Policy Forum Regulation, and in 1992 was appointed to the Texas 
Judicial Council, where she served until 1997.
    She received her undergraduate degree from Arkansas State 
University, her J.D. from the University of Arkansas, and a 
master of science from the University of Texas at Dallas.
    I am very pleased to recommend the two Texans, and I think 
they will add a great deal of expertise on this important 
Committee, and as a member of the Aviation Committee myself and 
a former vice chairman of the National Transportation Safety 
Board, this is an area in which I have a great interest, and I 
hope you will give the advice to the FAA that will improve an 
already good record in aviation safety and also airport 
security, where the Chairman and I have been very active in 
trying to beef up the safety precautions that would be taken at 
our Nation's airports.
    I think we are making some great strides in airport 
security as well as aviation security, so thank you, Mr. 
Chairman.
    The Chairman. Thank you.
    Mr. Baker and I have also had the pleasure of knowing each 
other. It is good to have you back before the Committee.

STATEMENT OF ROBERT W. BAKER, VICE CHAIRMAN, AMERICAN AIRLINES, 
                      INC., FORT WORTH, TX

    Mr. Baker. Thank you very much, Senator. Good morning, 
Senator Hutchison. Thank you very much for your gracious 
introduction. Chairman McCain, Senator Hollings, Senator 
Rockefeller, and other members of the Committee, it is, indeed, 
an honor for me to come before you today as a nominee to the 
Federal Aviation Administration Management Advisory Council, or 
as it has come to be known, the MAC. I appreciate the years of 
effort that this Committee has devoted to bringing a more 
sensible business-like approach to running the FAA. The 
creation of the MAC will go a long way toward this goal, and I 
am privileged to be considered to be a part of it.
    As you know, since the airlines were deregulated in 
November 1978, passenger demand for air transport has grown at 
an average annual rate of 4 percent from about 275 million 
passengers in 1978, to over 600 million today, and according to 
the FAA in the next 8 years an additional 2,500 aircraft will 
be needed to transport an estimated 42 percent increase in the 
number of passengers.
    While I am delighted that this impressive number reflects 
the public's confidence in the safest, most efficient, and 
cost-effective mode of transportation, it is also to me a 
warning sign that our system must be able to handle the demands 
of this increase. As an industry, we have a responsibility not 
only to meet the call for service but also to assure as much 
economic discipline as possible.
    Mr. Chairman, today's FAA does an excellent job of working 
with the industry to give Americans the safest system in the 
world, but we cannot remain comfortable for long, maintaining 
the same perspective on a 20-year-old organization.
    The advisory role of the MAC is an excellent way for us to 
begin looking a little bit differently at the day-to-day 
operations of the FAA and, if confirmed, I certainly look 
forward to working with my colleagues on this Committee to 
address a variety of factors that have challenged the FAA over 
the past several years, and which may continue to represent 
major challenges to the agency as we move forward.
    With your confidence, I will serve with other members of 
the MAC in an advisory role rather than a line authority 
regarding the FAA activities. As a member of the MAC, I believe 
that together we can provide an effective sounding board for 
the FAA as they address many of the aforementioned concerns.
    Thank you again, Mr. Chairman, for the opportunity to come 
before you today, and I would be happy to address any of your 
questions.
    [The prepared statement and biographical information of Mr. 
Baker follow:]

         Prepared Statement of Robert W. Baker, Vice Chairman, 
                American Airlines, Inc., Fort Worth, TX
    Chairman McCain, Senator Hollings, and members of the Committee, it 
is an honor for me to come before you today as a nominee to the Federal 
Aviation Administration Management Advisory Council (MAC). I appreciate 
the years of effort this Committee has devoted to bringing a more 
sensible, business-like approach to running the FAA. The creation of 
the MAC will go a long way towards this goal, and I am privileged to be 
considered to be a part of it.
    As you know, since the airlines were deregulated in 1978, passenger 
demand for air transport has grown at an average annual rate of 4 
percent, from about 275 million passengers in 1978, to over 600 million 
today. According to the FAA, in the next eight years an additional 
2,500 aircraft will be needed to transport an estimated 42 percent 
increase in the number of passengers. While I am delighted that this 
impressive number reflects the public's confidence in the safest, most 
efficient and cost effective mode of transportation, it is also a 
warning sign that our system must be able to handle the demands of this 
increase. As an industry, we have a responsibility not only to meet the 
call for service, but also to assure as much economic discipline as 
possible.
    Mr. Chairman, today's FAA does an excellent job of working with the 
industry to give Americans the safest system in the world. But we can't 
remain comfortable for long maintaining the same perspective on a 20-
year-old organization. The advisory role of the MAC is an excellent way 
for us to begin looking a little differently at the day to day 
operations of the FAA. If confirmed, I look forward to working with my 
colleagues on the Commission to address a variety of factors that have 
challenged the FAA over the past several years and which may continue 
to represent major challenges to the agency as it moves forward.
    Specifically, the FAA has experienced difficulties with a number of 
its major modernization programs, particularly where there have been 
significant software challenges and human factors issues involved. One 
of the factors that has sometimes constrained the agency's ability to 
move forward with air traffic modernization in a steady fashion has 
been the absence of stable, predictable funding for capital programs. 
The Congress, in the recently enacted FAA reauthorization, has now 
addressed that problem. The tremendous growth in air traffic, which is 
projected to continue, has also posed difficulties for the agency in 
accommodating that air traffic without corresponding delays. While 
progress has been made on a number of fronts in air traffic 
modernization, significant concerns remain about the overall 
modernization program. Timely air traffic modernization and completion 
of corresponding airport improvements are critical if we are to achieve 
the necessary capacity improvements that are desperately needed to 
avoid gridlock in our air transportation system. There is also cause 
for concern about the FAA's ability (and that of government 
institutions generally) to keep up with and adjust to the rapid changes 
in technology that we see in virtually all facets of our society. For 
example, recruiting, training, and retaining personnel with up-to-date 
technological skills and knowledge is critical to such an effort, as is 
the development of an improved means of implementing well conceived and 
timely regulations and certification procedures that enable the early 
introduction of new technology offering advances in safety and system 
efficiency.
    With your confidence, I will serve with other members of the MAC in 
an advisory role rather than line authority regarding FAA activities. 
As a member of the MAC, I believe that together we can provide an 
effective sounding board for the FAA as they address many of the 
aforementioned concerns.
    Thank you again, Mr. Chairman for the opportunity to come before 
you today, and I would be happy to address any of your questions.
                      a. biographical information
    1. Name: Robert Woodward Baker.
    2. Position to which nominated: Member--FAA Management Advisory 
Council.
    3. Date of nomination: Unknown.
    4. Address: (List current place of residence and office addresses.) 
Residence: 17 Ashton Court, Dallas, TX 75203. Office: 4333 Amon Carter 
Boulevard, Fort Worth, TX 76155.
    5. Date and place of birth: September 3, 1944, Bronxville, NY.
    6. Marital status: (Include maiden name of wife or husband's name.) 
Married, Martha Jane Hauschild.
    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.) Richard W. Baker II, Age 32; Robert W. Baker 
Jr., Age 30; William G. Baker, Age 28; Suzanne Baker Yager, Age 25.
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received and date degree granted.) Trinity 
College, Hartford CT 1962-66, BA Economics, June, 1966; Wharton School, 
University of Pennsylvania 1966-68, MBA, May, 1968.
    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.) All employment with American Airlines, see 
attached A-9.

                                                     Attachment A-9
                            Robert W. Baker
                   Vice Chairman--Office of Chairman
                        American Airlines, Inc.
    Robert W. Baker was named Vice Chairman of American Airlines in 
January 2000. Baker is involved in all aspects of the airline business 
and represents American externally on technical and operational issues 
before the FAA, the NTSB and other governmental agencies and industry 
groups.
    Previously Baker had served as executive vice president, and before 
that, senior vice president, for operations. Since 1985 he was the 
senior executive responsible for maintenance and engineering, flight, 
operations planning and performance, corporate security, corporate real 
estate, cargo and safety. He is recognized as one of the airline 
industry's leaders in many of the technical aspects of the business.
    Baker has served in a variety of senior positions at American, 
including senior vice president-information systems and as a vice 
president in various areas over a period of more than 20 years.
    Baker joined American Airlines in 1968 as a marketing management 
associate in New York. Subsequently, he held passenger and freight 
management positions in New York, Cleveland and Chicago.
    He was elected vice president in charge of American's southern 
division in October 1977. He then was appointed vice president-freight 
marketing in 1979, was named vice president-passenger sales and 
advertising in 1980 and became vice president-marketing automation 
systems in 1982.
    A native of Bronxville, N.Y., Baker earned a degree in economics at 
Trinity College, Hartford, Conn., and a master's degree in business at 
the Wharton School of the University of Pennsylvania.
    He and his wife, Martha, live in Dallas. They have four children.

    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.) Co-Chair, Free 
Flight Implementation Committee; FAA Research and Development 
Committee.
    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.) Trustee, Embry-
Riddle Aeronautical University; Board Member, Zale Lipshy Hospital; 
Board Member, American Lung Association of Texas.
    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.) Member, Civil Reserve Airlift Fleet Committee; 
Member, Conquistadores del Cielo; Member, Wings Club of New York.
    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate. None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years. None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Bush Exploratory 
Committee, $500, 3/31/99; Lipinski for Congress, $1,000, 11/20/97; 
McCain for Senate, $1,000, 5/19/97; Friends of Bob Graham, $1,000, 6/
10/97; Friends of Larry Pressler, $500, 6/13/95; Lipinski for Congress, 
$1,000, 2/27/92; See attached (A-13c) * of contributions to the 
American Airlines Political Action Committee.
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files.
---------------------------------------------------------------------------
    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.) 
None.
    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.) None.
    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated. See attached A-16.*
    17. Selection:
    (a) Do you know why you were chosen for this nomination by the 
President? No.
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment? In-depth 
aviation experience.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? No.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. I plan to continue working in my 
current capacity with AMR.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? I plan to continue working in my current capacity with 
AMR.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? I plan to continue working 
in my current capacity with AMR.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers. American Airlines deferred income to be paid past 
retirement from American Airlines. The funds are invested in various 
publicly available financial vehicles. Value of the deferred income 
account as of 12/31/99: $476,140.06.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated? None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. None.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.) Not 
Applicable.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a compliant to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. None.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines set by Congressional Committees for information? Not 
applicable.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Not applicable.
    3. Will you cooperate in providing the Committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the Committee? Not 
applicable.
    4. Are you willing to appear and testify before any duly 
constituted Committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. Please describe how your previous professional experience and 
education qualifies you for the position for which you have been 
nominated. Virtually my entire professional career has been involved 
with aviation. Working with aviation safety and operational issues has 
given me significant exposure to the types of critical work performed 
by the FAA. In addition to the technical knowledge I have obtained in 
aviation, I will also bring to the MAC both a business background and 
detailed knowledge of the airline industry, which I believe will 
contribute positively to the performance of the MACs work.
    2. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills? I believe I have the necessary skills, if 
confirmed, to successfully carry out my responsibilities on the MAC. I 
recognize, though, that it will be necessary to develop a more detailed 
knowledge of the internal processes of the FAA and some of the 
intricacies of the Federal budgeting process. Actual service on the MAC 
will provide the necessary exposure to develop this additional 
knowledge.
    3. Why do you wish to serve in the position for which you have been 
nominated? Our nations air transportation system is an essential 
ingredient of the economic fabric of our society. It is critical that 
commerce and people continue to move safely and efficiently by air. The 
FAA plays an important role in seeing that this is accomplished. With 
my experience in aviation, I believe I can help the FAA perform this 
vital work even more effectively and efficiently.
    4. What goals have you established for your first two years in this 
position, if confirmed? I anticipate that much of the work undertaken 
by the MAC will be developed through consensus among the MAC members or 
at the request of the FAA Administrator. Although any safety work 
undertaken by the MAC must receive the highest priority, I believe a 
high priority should also be placed on assisting the FAA in performing 
its functions in a business-like manner (e.g., through the completion 
and implementation of a cost accounting system). Resources will always 
be finite, and, to the extent that the MAC can help the agency perform 
its work in a more business-like and efficient manner, greater benefits 
for the traveling public can be achieved for the same investment.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when should society's 
problems be left to the private sector, and what standards should be 
used to determine when a government program is no longer necessary. My 
philosophical views of the role of government are principally related 
to my experience in the aviation arena. Areas such as safety regulation 
and certification are clearly government functions. Purely business-
like production of services and products are best left to the private 
sector. It is the gray area in between, such as the operation of air 
traffic control, which raise important questions for both Congress and 
industry to resolve. At minimum, the government should administer its 
service functions in the most efficient and businesslike way, 
consistent with safety. It is time to reconsider whether the air 
traffic control functions of the FAA should be operated by a different 
entity or in a different way.
    6. In your own words, please describe the agency's current 
missions, major programs, and major operational objectives. In simplest 
terms, the FAA is responsible (in partnership with the aviation 
industry) for the safe and efficient movement of people and goods by 
air. To accomplish this work, the FAA is engaged in a full gamut of 
regulatory, oversight, and operational activities, such as civil 
aviation security, aircraft and airman certification, airline 
operational rules, air traffic regulations, operation and modernization 
of the air traffic control system, airport grants, and aircraft-related 
environmental issues. The FAA has also assumed responsibility in recent 
times for the promotion and licensing of commercial space activities.
    7. In reference to question number six, what forces are likely to 
result in changes to the mission of this agency over the coming five 
years. In light of the inherently governmental nature of the FAA's 
safety responsibilities, my sense is that the aspect of FAA's current 
mission most likely to experience significant change would be in 
operating the air traffic control system. Increased air traffic delays, 
capacity concerns, and difficulties that have been experienced in 
system modernization are forces that could contribute to further air 
traffic control reform.
    8. In further reference to question number six, what are the likely 
outside forces which may prevent the agency from accomplishing its 
mission? What do you believe to be the top three challenges facing the 
board/commission and why? The principal force to prevent change is 
inertia. The complexity of the agency and the issues with which it 
deals makes the task formidable. I believe that the top challenges to 
the Council are to help the agency cope with its short-term problems of 
running the system while at the same time trying to find and build 
census for longer-term solutions.
    9. In further reference to question number six, what factors in 
your opinion have kept the board/commission from achieving its missions 
over the past several years? Overall, I think the FAA has done and 
continues to do a good job in most aspects of its mission. There are a 
variety of factors, though, that have challenged the FAA over the past 
several years, which may continue to represent major challenges to the 
agency as it moves forward. Specifically, the FAA has experienced 
difficulties with a number of its major modernization programs, 
particularly where there have been major software challenges and human 
factors issues involved. One of the factors that has sometimes 
constrained the agency's ability to move forward with air traffic 
modernization in a steady fashion has been the absence of steady, 
predictable funding for capital programs. That has now been addressed 
by the Congress in the recently-enacted FAA reauthorization. The 
tremendous growth in air traffic, which is projected to continue, has 
also posed difficulties for the agency in accommodating that air 
traffic without corresponding delays. While progress has been made on a 
number of fronts in air traffic modernization, significant concerns 
remain about the overall modernization program. Timely air traffic 
modernization and completion of corresponding airport improvements are 
critical if we are to achieve the necessary capacity improvements that 
are desperately needed to avoid gridlock in our air transportation 
system. There is also cause for concern about the FAA's ability (and 
that of government institutions generally) to keep up with and adjust 
to the rapid changes in technology that we see in virtually all facets 
of our society. For example, recruiting, training, and retaining 
personnel with up-to-date technological skills and knowledge is 
critical to such an effort, as is the development of an improved means 
of implementing well conceived and timely regulations and certification 
procedures that enable the early introduction of new technology that 
offers advances in safety and system efficiency.
    10. Who are the stakeholders in the work of this agency? The FAA's 
primary stakeholder is the American traveling public. Other 
stakeholders include the many segments of the aviation community that 
rely upon the FAA's services or are subject to its regulatory 
authority, including such diverse groups as pilots, mechanics, flight 
attendants, air carriers, and aircraft and engine manufacturers. I also 
view the Congress as an important stakeholder, given the importance of 
aviation to the American people.
    11. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question number ten. If 
confirmed, I will serve as one of a number of members of the MAC, with 
an advisory role rather than line authority regarding FAA activities. 
As a member of the MAC, I believe that a proper relationship with 
agency stakeholders would be to serve as a sounding board for concerns 
or information they may wish to share with the MAC.
    12. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? Not applicable.
    13. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with Committees of 
Congress? If yes, please describe. As a senior official with a major 
domestic airline, I have been called upon on a number of occasions to 
testify before Congressional Committees on various aviation matters. I 
have been pleased to have the opportunity to do so as a means of 
helping to shape the future of our nation's air transportation system.
    14. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your board/commission 
comply with the spirit of the laws passed by Congress. Not applicable.
    15. In the areas under the board/commission jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views. I believe that it would be appropriate for 
Congress to weigh whether additional air traffic control legislative 
reforms are warranted.
    16. Please discuss your views on the appropriate relationship 
between a voting member of an independent board or commission and the 
wishes of a particular president. Not applicable.

    The Chairman. Thank you very much, Mr. Baker. I want to 
thank Senator Hutchison for taking time from her busy schedule 
to introduce both you and Ms. Branson.
    Mr. Bolen.

   STATEMENT OF EDWARD M. BOLEN, PRESIDENT, GENERAL AVIATION 
           MANUFACTURERS ASSOCIATION, WASHINGTON, DC

    Mr. Bolen. Thank you, Mr. Chairman. Thank you for having me 
here today. I have some prepared remarks but before I launch 
into those, if you do not mind I would like to take just a 
moment to introduce both my wife, Beth, and my mother-in-law, 
Mary Hantzees, who are with me today. I am very proud to have 
them here.
    The Chairman. Welcome, and we are glad you could join us on 
this day. Thank you for being here.
    Mr. Bolen. Mr. Chairman, aviation is the key transportation 
technology of the 21st Century and, as Bob Baker just 
indicated, today we are seeing more people than ever utilizing 
aviation, both general aviation and commercial aviation to get 
to more places than ever before. People are also expecting more 
goods and services to be delivered to them than at any point in 
the Nation's history.
    And as Bob Baker said, the projections are this growth 
trend is only going to accelerate in the years ahead. Because 
of this growth, the Federal Aviation Administration faces an 
awesome challenge in continuing to meet the public's demand for 
safe, secure, and efficient air transportation system.
    Since its inception in 1958, the FAA has widely and, I 
believe, accurately been recognized as the world's leading 
civil aviation authority. However, the FAA is not perfect, and 
there is a general consensus that the agency must change the 
way it operates if it is to remain the premier aviation 
authority in the world.
    In 1996, Congress passed legislation creating the 
Management Advisory Council to provide management expertise to 
the FAA as the agency attempts to modernize the air 
transportation system for the 21st Century. If confirmed, I 
hope to bring to the MAC the management experience that I have 
gained in nearly 5 years as the president and CEO of a leading 
aviation trade association. I also hope to bring with me the 
lessons I have learned from working on a daily basis with the 
CEOs of our Nation's leading general aviation companies.
    As members of this Committee know, the United States is a 
world leader in all aspects of general aviation, but nowhere is 
that leadership more profound than in the area of 
manufacturing. Last year, approximately 85 percent of the 
general aviation aircraft sold throughout the world were 
produced in the United States. I believe we are a segment of 
the industry that has a great deal to contribute.
    Mr. Chairman, as I said at the beginning of my remarks, it 
is a real honor to be here today and, if confirmed, I hope to 
do all I can to make our Nation's air transportation system as 
safe and secure and as efficient as possible.
    Thank you.
    [The prepared statement and biographical information of Mr. 
Bolen follow:]

  Prepared Statement of Edward M. Bolen, President, General Aviation 
               Manufacturers Association, Washington, DC
    Mr. Chairman, Senator Hollings, and members of the Committee, my 
name is Edward M. Bolen and I am the President and CEO of the General 
Aviation Manufacturers Association (GAMA). GAMA represents 
approximately 50 manufacturers of general aviation aircraft, engines, 
avionics and components parts located throughout the United States.
    I would like to thank you for scheduling this confirmation hearing 
today. It is truly an honor to appear before the Committee.
    Mr. Chairman, aviation is the key transportation technology of the 
21st Century. Today, we are seeing more people utilizing aviation, both 
commercial and general aviation, to get to more places than ever 
before. Citizens are also relying on aviation to bring them a wider 
variety of goods and services than at any point in history.
    Projections show that the current growth trend in aviation will 
only accelerate in the years and decades ahead.
    Because of that growth, the Federal Aviation Administration (FAA) 
faces an awesome challenge in continuing to meet the public's demand 
for a safe, secure and efficient air transportation system.
    Since its inception in 1958, the FAA has widely, and I believe 
accurately, been considered the finest civil aviation authority in the 
world. However, the agency is not perfect, and there is a general 
consensus that the agency must change the way it operates if it is to 
remain the premier aviation authority in the world.
    In 1996, Congress passed legislation creating the Management 
Advisory Council (MAC) to provide management expertise to the FAA as 
the agency attempts to modernize the nation's air transportation system 
and improve safety and efficiency.
    If confirmed, I hope to bring to the MAC the management skills that 
I have learned as President and CEO of a significant trade association. 
I also hope to bring with me the lessons I have learned from working on 
a daily basis with the CEOs of our nation's leading general aviation 
companies.
    As the members of this Committee know, the United States is the 
world leader in all aspects of general aviation. No where is that world 
leadership more profound than in the area of general aviation 
manufacturing. Last year, approximately 85 percent of all of the new 
general aviation aircraft sold throughout the world were produced in 
the United States. I believe this is a segment of the industry that has 
a great deal to contribute to the MAC.
    Mr. Chairman, as I said at the beginning of my remarks, it is an 
honor to be nominated for this important position, and I hope to be 
given the opportunity to serve. I look forward to answering any 
questions that you or other members of the Committee may have.
    Thank you.
                      a. biographical information
    1. Name: (Include any former names or nick names used.) Edward 
Michael Bolen.
    2. Position to which nominated: FAA Management Advisory Council.
    3. Date of nomination: March 30, 2000.
    4. Addresses: (List current place of residence and office 
addresses.) Home: 5208 Portsmouth Road, Bethesda, Maryland 20816. 
Office: 1400 K Street, NW, Suite 801 Washington, DC 20005.
    5. Date and place of birth: February 11, 1960, Salina, Kansas.
    6. Marital status: (Include maiden name of wife or husband's name.) 
Married to Elizabeth Hantzes Bolen (formerly Elizabeth Hantzes 
Averett).
    7. Names and ages of children: John Patrick Bolen, Age 4, Date of 
Birth 3/15/96; Robert Edward Bolen, Age 2, Date of Birth 8/24/97.
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received and date degree granted.)


Salina High School Central             1973 to 1978    H.S. Diploma
University of Kansas                   1978 to 1983    B.A. (Economics)
University of Mississippi School of    1983 to 1984    attended
 Law
Tulane University School of Law        1984 to 1986    J.D.
Georgetown University Law Center       1986 to 1987    LL.M. (Taxation)
Harvard University (Kennedy School of  1994            Certificate
 Government, Program for Senior
 Managers in Government)
 


    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.)


Job:                         Tennis instructor
Employer:                    Carriage Club
City:                        Kansas City, Missouri
Dates of Employment:         Summer 1983 and part of summer of 1984
 
Job:                         Law Clerk
Employer:                    Gordon, Arata, McCollam & Duplantis
City:                        New Orleans, Louisiana
Dates of Employment:         January to April 1986
 
Job:                         Marketing Principal/Attorney
Employer:                    Trammell Crow Company
City:                        Washington, DC and Columbia, Maryland
Dates of Employment:         1987 to 1990
 
Job:                         Legislative Assistant and Legislative
                              Director
Employer:                    U.S. Senator Nancy Landon Kassebaum
City:                        Washington, DC
Dates of Employment:         1990 to 1994
 
Job:                         Majority General Counsel
Employer:                    Senate Committee on Labor & Human Resources
City:                        Washington, DC
Dates of Employment:         1994 to 1995
 
Job:                         Senior Vice President and General Counsel
Employer:                    General Aviation Manufacturers Association
City:                        Washington, DC
Dates of Employment:         1995 to 1996
 
Job:                         President and CEO
Employer:                    General Aviation Manufacturers Association
City:                        Washington, DC
Dates of Employment:         1996 to Present
 

    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.) None.
    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.) President and 
CEO, General Aviation Manufacturers Assn.; Member of Policy Board, 
RTCA, Inc. (A Non-Profit Org.); Member of Board of Directors, National 
Aeronautic Association; Member of Aviation Advisory Board, Mitre/CAASD 
(A Non-Profit Org.).
    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.) Kansas Bar Association, District of Columbia Bar 
Association, Sovereign Military Order of Malta, Aero Club of 
Washington, DC, American Bar Association, Kansas State Society of 
Washington, DC, National Aeronautics Association, National Society of 
the Sons of the American Revolution, Kansas University Alumni 
Association, Kansas University K-Club, Metropolitan Club of Washington, 
DC, Edgemoor Club.
    13. Political affiliations and activities:
    (a) List all offices with a political party, which you have held, 
or any public office for which you have been a candidate. None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years. None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Friends of Byron Dorgan, 
$500, 3/17/97.
    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognition for outstanding service or achievements.) 
Eastman Kodak Scholarship to Harvard University, Kennedy School of 
Government, Senior Managers in Government Program (1994).
    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials, which you have 
written.) See Attachment A*--Annual Industry Review & Outlook Briefings 
published by the General Aviation Manufacturers Association.
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files.
---------------------------------------------------------------------------
    16. Speeches: (Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated.) See Attachment B.*
    17. Selection:
    (a) Do you know why you were chosen for this nomination by the 
President? I am not certain. However, several members of Congress from 
both parties wrote letters to the President asking that I be considered 
for nomination. In addition, I have had the opportunity to work with 
Secretary Slater and Administrator Garvey to provide insights into two 
important elements of the aviation industry: general aviation and 
manufacturing. I believe the Administration wanted a knowledgeable 
source on these two elements on the MAC.
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment? I have 
significant management experience, legal experience and political 
experience--all of which I believe will help me make a positive 
contribution to the MAC.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? No. The MAC is an unpaid position. As a 
result, I understand that resignation of my current job is unnecessary.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. I will continue in my current 
capacity as President and CEO of the General Aviation Manufacturers 
Association.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? I plan to continue in my current capacity as President 
and CEO of the General Aviation Manufacturers Association both during 
and after my government service.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next presidential election, whichever is applicable? Yes.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealing with business associated, 
clients or customers. The General Aviation Manufacturers Association 
provides me a salary and benefits including a defined benefits pension 
plan and a 401(k).
    2. Indicate any investments, obligations, liabilities, or other 
relationships, which could involve potential conflicts of interest in 
the position to which you have been nominated. I am not aware of any.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated? I am not aware of any.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. During my 
employment at the General Aviation Manufacturers Association, I have 
been a registered lobbyist. In that capacity I have worked on virtually 
every House and Senate bill related to aviation. My work includes 
testifying before Congressional Committees, meeting personally with 
members of Congress and facilitating meetings or correspondence between 
members of the General Aviation Manufacturers Association and their 
elected representatives.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.) I will 
seek guidance from the designated agency ethics officer and the Office 
of Government Ethics and follow whatever recommendations they may have.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a compliant to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any businesses of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. None.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines set by Congressional Committees for information? Yes, to the 
fullest extent of my authority.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes, to the fullest extent of my 
authority.
    3. Will you cooperate in providing the Committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the Committee? Yes, to 
the fullest extent of my authority.
    4. Are you willing to appear and testify before any duly 
constituted Committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. Please describe how your previous professional experience and 
education qualifies you for the position for which you have been 
nominated. A significant portion of my educational experience is 
related to the fields of business, economics and law--all areas that I 
believe will be relevant to my position on the MAC. My professional 
experience includes coalition building and public advocacy which I 
believe will be important skills as this diverse council seeks to work 
together to improve the management of the FAA.
    2. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills? At this point, I am unaware of any skills 
that I may be lacking. However, if I find I am deficient in some area I 
will seek to build that skill in the most reasonable and practical 
manner possible.
    3. Why do you wish to serve in the position for which you have been 
nominated? I have a deep belief in voluntary public service. I also 
recognize the importance of strong and efficient FAA to our nation and 
its economy. I believe this is an opportunity for me to contribute 
positively to the public good.
    4. What goals have you established for your first two years in this 
position, if confirmed? My goal is to do all I can to help keep the FAA 
the best civil aviation authority in the world.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when should society's 
problems be left to the private sector, and what standards should be 
used to determine when a government program is no longer necessary. In 
general, I believe government works best when it is closest to the 
people. As a result, I believe in a rather limited role for the federal 
government. However, there are a number of areas in which the federal 
government should be involved. The military is one such area. 
Transportation is another.
    Because transportation is intrinsically interstate in nature and 
has a tremendous impact on our national economy, I believe the federal 
government has an important role to play in facilitating safe and 
efficient transportation.
    With regard to the private sector, I believe government should 
generally tread lightly. However, the government does have a role to 
play among other things, protecting public health and safety, insuring 
confidence in the integrity of our markets, and preventing individual 
rights from being trampled.
    6. In your own words, please describe the agency's current 
missions, major programs, and major operational objectives. I believe 
the agency's mission is to improve the safety, security and efficiency 
of aviation and commercial space transportation.
    Its major programs include air traffic management, regulation and 
certification, civil aviation security, airports, acquisition and 
aviation research.
    In addition to safety, security and efficiency, its major 
operational objectives should include being responsive to the dynamic 
nature of the country's transportation needs.
    7. In reference to question number six, what forces are likely to 
result in changes to the mission of this agency over the coming five 
years. I do not believe the FAA's mission should change. However, there 
are a number of factors that may change the way the Agency operates. 
For example, the aviation industry is in the process of transitioning 
from ground based navigation to satellite navigation. This could have a 
profound impact on future air traffic management.
    8. In further reference to questions six, what are the likely 
outside forces, which may prevent the agency from accomplishing its 
mission? What do you believe to be the top three challenges facing the 
board/commission and why? I am concerned about the erosion of the FAA's 
authority over all aspects of aviation. I am also concerned about 
international aviation regulations developed by countries or regions 
that view the United States as a competitor.
    I believe the top challenges facing the MAC include, facilitating 
the modernization of the Air Traffic Control system, helping the FAA 
finds ways to attract and retain qualified personnel, and overseeing 
the reorganization of FAA operations to promote safety and efficiency.
    9. In further reference to question number six, what factors in 
your opinion have kept the board/commission from achieving its missions 
over the past several years? Because the MAC has yet to begin its work, 
I do not believe this question is applicable.
    10. Who are the stakeholders in the work of this agency? All 
citizens of the United States have a significant interest in a strong 
national air transportation system. As a result, all citizens are 
stakeholders. Among those stakeholders most directly impacted by the 
services of the FAA are the traveling public, the military, shippers, 
pilots, aircraft owners, airlines, airports, manufacturers, fixed base 
operators, companies that utilize general aviation to meet their 
transportation needs, and businesses that service the aviation 
industry.
    11. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question number ten? If 
confirmed, I believe it will be my responsibility to represent to the 
best of my ability the best interests of all of the stakeholders.
    12. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? I believe good 
communication between supervisors and employees is critical element in 
a positive working relationship. At the General Aviation Manufacturers 
Association we have weekly staff meetings, quarterly performance 
reviews, and an ``open door'' policy to facilitate communication within 
the trade association.
    To date, no employee complaint has ever been brought against me.
    13. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with Committees of 
Congress? If yes, please describe. As an employee of the General 
Aviation Manufacturers Association I have lobbied Congress on a wide 
variety of aviation matters. My lobbying efforts have included 
testifying before the relevant committees of jurisdiction, personal 
meetings with Senators and Representatives and their staffs, and 
facilitating communication between the members of the association and 
their elected representatives.
    14. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your board/commission 
comply with the spirit of the laws passed by Congress. It is my 
understanding the MAC will not have the authority to promulgate 
regulations. However, I would hope to work with Members of Congress and 
their staffs to make sure MAC recommendations are consistent with the 
spirit of the laws passed by Congress.
    15. In the areas under the board/commission jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views. I would hope Congress would consider any 
legislation necessary to implement recommendations that the MAC 
endorses to improve safety and/or efficiency.
    16. Please discuss your views on the appropriate relationship 
between a voting member of an independent board or commission and the 
wishes of a particular president. I believe an independent board member 
should strive to act in the best interest of the stakeholders. At times 
the board member may agree with a policy position of a particular 
president, at times he or she might not.

    The Chairman. Thank you, Mr. Bolen.
    Mr. Boyer.

 STATEMENT OF PHILIP B. BOYER, PRESIDENT, AIRCRAFT OWNERS AND 
               PILOTS ASSOCIATION, FREDERICK, MD

    Mr. Boyer. Thank you, Mr. Chairman, I am very honored to be 
here regarding my nomination to MAC. I think most of you, Mr. 
Chairman, Senator Hollings, Senator Rockefeller, know me as the 
representative of the people who buy and fly the planes that 
Mr. Bolen was talking about manufacturing. In my written 
statement I outlined some of the challenges I think that are 
ahead for the FAA, and the ones that you outlined who have an 
efficient and business-like organization are very important.
    Perhaps I had a midlife crisis 10 years ago, but I have not 
always been in this aviation career business. My background 
really is 32 years in another industry that this Committee 
oversees, and that is the broadcasting industry. Most of my 
life I was a businessman with the American Broadcasting 
Company, rising to the rank of senior vice president, and 
managing some of its large organizations. I think that 
background is important as we look to not micromanage through 
this council to help guide and oversee some of the innovate 
things that need to be done within the agency in a more rapid 
pace, and the implementation of this council itself is a good 
example.
    At ABC I was in charge of lots of people and negotiated 
union contracts, and one of the things I am most proud of was 
the implementation of technology, which I think is one of the 
challenges facing the FAA today. Also, my last few years at ABC 
I was very involved in the international activities of the 
company, and that is important as we look at the globalization 
of aviation and the many harmonization of rules we have to do.
    Those of you on the Committee know that the last 10 years I 
have represented the owners and operators of general aviation 
aircraft, myself having been one all through my 32-year 
broadcasting career, but mostly as a recreational pilot, and 
now the last 10 years having spent about 4,000 hours in the sky 
doing business flying. It is certainly a big honor, and I feel 
probably there is no greater honor for somebody in the private 
sector, whether in aviation or in business, to be able to serve 
the Government in this position, and I look forward to your 
consideration of my nomination.
    Thank you.
    [The prepared statement and biographical information of Mr. 
Boyer follow:]

 Prepared Statement of Philip B. Boyer, President, Aircraft Owners and 
                   Pilots Association, Frederick, MD
Mr. Chairman and members of the Committee:

    I am Phil Boyer, and am profoundly honored to appear here today 
regarding my nomination for the FAA Management Advisory Council.
    I do not have a lengthy statement, but in the interest of 
indicating how much I welcome the opportunity to serve on this Council 
I do want to highlight a few areas of my background and of course 
answer your questions.
    I am a 6,000-hour pilot and have flown extensively throughout the 
United States and other parts of the world. What makes my experience 
somewhat unique is that I am not a paid-professional pilot, but 
represent the majority of this nation's pilots who fly for business and 
pleasure. More than a third of my hours were gained in flying general 
aviation aircraft for recreation, and the remainder in executing the 
duties associated with my decade long position as president of the 
Aircraft Owners and Pilots Association. With over 360,000 member/
pilots, I aggressively travel to communicate and visit as many of our 
members as possible across the nation, and often internationally, in 
order to learn and act on their concerns.
    I also am President of the AOPA Air Safety Foundation (ASF), 
serving not just AOPA members, but all pilots. The Foundation is an 
effective partner with the FAA for improved general aviation safety, 
education and training. More than 200 free safety seminars are held 
annually in conjunction with the Agency's Safety Program Office. In 
addition, I also have the honor of leading the 52 nations comprising 
the International Council of Aircraft Owners and Pilots Associations, 
(IAOPA).
    There are two important reasons why I wish to serve the American 
public on this prestigious Council:
    First, I will represent the views of the general aviation community 
to an advisory council where airlines, military aviation, airports, 
manufacturers, unions and many other stakeholders will express their 
concerns over FAA performance and productivity. After all, general 
aviation comprises 75% of all U.S. pilots, 59% of annual flight hours, 
and 96% of U.S. civilian aircraft.
    Secondly, I submit the issues at hand are issues of FAA management, 
planning, budgeting, cost-effectiveness and employee productivity. Many 
who rise to leading positions in Washington, DC are from backgrounds in 
politics or public administration. However, my background is in 
business, specifically management, planning, budgeting, employee 
motivation and the adaptation of new technology solutions.
    Let me offer my view on the FAA's challenges. Many critics today 
are concerned the FAA may fall from being one of America's most admired 
federal agencies. Since its formation in 1958 the aviation world has 
looked at the FAA for leadership in the field of certification, air 
traffic efficiency, airports, and safety.
    But the root problem today, as for many organizations, is the FAA's 
inability to manage change and meet challenge through a confident, 
organization-wide culture of leadership and control, solid planning, 
energizing and directing employees, and motivating and managing for 
results.
    Today I come before you as the head of a worldwide group of 
aviation associations. But, what I also offer the MAC is my prior 
experience. For over 32 years I was in the broadcasting industry with 
27 years of executive management, a majority with the American 
Broadcasting Company. These included positions as vice-president and 
general manager of ABC's two largest owned-and-operated television 
broadcasting operations (Chicago and New York), plus more recent years 
as senior vice-president for development at the ABC/Capital Cities 
corporate parent in New York City.
    In that latter capacity, I headed ABC's investigation and 
application of new, untried and emerging technologies in electronic 
communications and information distribution, including international 
satellite operations. I also handled ABC's international business 
opportunities, launching new businesses in Europe and Asia while 
developing novel new information products for the domestic market.
    Looking back over my 10-year tenure with AOPA, I offer documented 
success in building the organization to becoming ranked among America's 
100 largest membership organizations, in large part due to such 
technological and management modernization.
    One of FAA's many challenges is the inability to rapidly adopt and 
deploy the same such new technology and methods that have faced those 
of us in business. Now, 2lst Century computerization, space-based 
navigation flexibility, distributed air traffic control solutions, 
unique airport design, and other methods are essential for us to be 
able to face the growing American appetite for transportation by air.
    The FAA's performance in technology solutions since 1980 is not one 
dotted with huge successes. Clearly, this proud agency can use the 
advice and counsel of some of us who have succeeded in the 
technological and managerial revolution.
    My philosophy is one of empowerment--strong management and 
oversight, surely, but the development and directing of people through 
coaching, monitoring, goal setting, guiding of tactics, and achieving 
of plans. The FAA workforce is heavily unionized, and now a growing 
professional corps is unionizing unit by unit. My past experience in 
the heavily unionized environment of broadcasting, with its technology 
based work rules, will be extremely helpful.
    Congressional action in 1996 gave the FAA the personnel and 
acquisition reforms to assist in change. We must continue to grasp this 
opportunity, and the opportunities and resources granted under recent 
funding legislation. Beyond the FAA's ample new resources, we must now 
help it find the tools and methods to convert potential into results--
results you and the American people demand.
    I am not blind to the massive task at hand. I do not think the 
Management Advisory Council will solve all FAA problems. I only know 
this is an unprecedented opportunity: For the first time, methods and, 
strategies successful in service- and technology-oriented enterprises 
can officially find an ear at this critical federal agency.
    These advisors with me here today have valuable insights to help 
FAA more confidently adopt new approaches and untried solutions. The 
Council's potential is great, simply because its mandate is for fresh 
input to an agency that must now step out aggressively to meet the 
demands of the future with, at least, the methods of today.
    Despite my experience in business and management, I come to you 
without commercial interest, representing only the valid interests of 
Americans who are pilots and aircraft owners, a constituency that needs 
and supports a better-functioning FAA. Moreover, my attention to safety 
issues is paramount, and not only because AOPA is the only membership 
organization under consideration that has its own separate foundation--
the AOPA Air Safety Foundation--devoted solely to improving aviation 
safety. The Foundation has worked in partnership with the FAA for years 
in this cause, and celebrates many successes in supporting FAA programs 
while knowing the agencies limitations as well.
    I personally feel there can be no higher privilege for an 
individual from the private business and aviation sectors than to 
assist the Federal Aviation Administration in an advisory capacity. 
Thank you for the consideration of my nomination, and it would be my 
pleasure to answer any questions you might have.
                      a. biographical information
    1. Name: (Include any former names or nick names used.) Philip 
Boyajian Boyer.
    2. Position to which nominated: FAA Management Advisory Committee.
    3. Date of nomination: April 14, 2000.
    4. Address: (List current place of residence and office addresses.) 
Residence: 9000 Mountainberry Court, Frederick, MD 21702. Office: 421 
Aviation Way, Frederick, MD 21701.
    5. Date and place of birth: Portland, OR, December 13, 1940.
    6. Marital status: (Include maiden name of wife or husband's name.) 
Married--Lois Henderson Boyer.
    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.) Tammy Lynn Chambers, 36 years; Terri Lynn 
Bohman, 33 years; Thomas Boyajian Boyer, 29 years.
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received and date degree granted.)

1954-1958--Grant High School, Portland, OR--attended all four years at 
    this HS, and graduated in the Spring of 1958.
1958-1960 (Fall Semester)--Lewis & Clark College, Portland, OR. 
    Completed first two years of bachelor degree, then left during Fall 
    semester for a job opportunity in Eugene, OR.
1961-1965--University of Oregon, Eugene, OR. Completed the equivalent 
    of Junior year of work towards bachelor degree, while working full 
    time.
1966-1967--California State University, Sacramento, CA. Finished all 
    undergraduate work and graduated in 1967.

    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.)

1957-58--Radio Station KPDQ, Portland, OR--Part time announcer.
1958-60--KPTV, Portland, OR--Part time announcer/various.
1960-65--KEZI-TV, Eugene, OR--Announcer/director--Production Mgr.
1965-72--KCRA-TV, Sacramento, CA--Announcer/director--Program Dir.
1972-74--KNBC-TV, Burbank, CA--Program Director.
1974-77--ABC-TV, New York, VP Programming, Owned TV Stations.
1977-79--WLS-TV, Chicago, IL--VP-General Manager.
1979-81--WABC-TV, New York--VP-General Manager.
1981-85--ABC-TV, New York--VP-General Manager, Owned TV Stations.
1985-90--ABC Video Enterprises, NY--Sr. VP-Product Development.
1990-Present--Aircraft Owners & Pilots Association--President.
Radio Station KERG, Eugene, OR--Part-time work, 1962-1965; Part-time 
    associate professor, California State University-Sacramento 1967-
    1971.

    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.) None.
    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.) Boyer Air, 
Inc., President of Sub S corporation owning single aircraft for 
leasing--100% ownership, 1982-1986; AOPA President and Board member--No 
ownership position, but influence over decisions; Chairman of AOPA 
Insurance Agency, 1997-Present--No ownership position, but influence 
over decisions; Aircraft Owners & Pilots Association (AOPA)--President 
and member of Board 10/90-Present; AOPA Air Safety Foundation--
President and member of Board 6/91 to present; RTCA Policy Board--
Member--1998 to present.
    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.) Member, Frederick County ``Advance Team'' 
(promotion of economic development for area) 1994-present; Member, 
Board of Trustees, Daniel Webster College, Nashua, NH--1996 to present; 
Member, Board of Directors, Aviation Explorer Scouts, 1994 to present; 
President, Be-A-Pilot (industry organization to promote learning to 
fly, 1996 to present; Member, President's Council, Embry Riddle 
Aeronautical University, 1997 to present; Board of Directors and 
Member, Seaplane Pilots Association.
    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate. None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years. Member, Republican Party.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. None.
    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.) 
None.
    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.). See Attachment A.*
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files.
---------------------------------------------------------------------------
    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated. See Attachment B.*
    17. Selection:
    (a) Do you know why you were chosen for this nomination by the 
President?
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment?
    My belief is I was chosen to serve due to my position as the head 
of the largest and most influential civil aviation organization in the 
world. As president of the Aircraft Owners and Pilots Association, I 
represent over 350,000 pilots in the United States and over 400,000 
worldwide. I am a 5,500-hour pilot with instrument and multiengine 
rating who has been flying all types of general aviation aircraft, from 
single engine to jets. For over 32 years, I have operated a variety of 
aircraft in all phases of the air traffic control system for both 
business and pleasure. My past flying experience has included much of 
North America and familiarity with Europe and other countries having 
personally operated aircraft in those areas. I spend much of my time 
travelling across the country representing general aviation pilots and 
meeting with our members. This continues to give me, personally, and 
the association direct feedback from the general aviation users of the 
FAA services. General aviation pilots make up 59% of all hours flown by 
pilots in the United States. In addition, over the past ten years I 
have routinely worked with the FAA Administrator and members of 
Congress on various regulatory and legislative issues. Prior to this 
position, I was in senior management positions with one of the nation's 
largest communications corporations: American Broadcasting Companies. 
In addition to management duties in large ventures, I was deployed to 
work in both the international arena and with new technologies, 
impacting the base business. Management skills built over the years 
include research, communications, profit and loss responsibility, 
starting new, untried ventures, and management of people.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? No.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. Only continuing in my current 
position as AOPA President and AOPA's affiliated organizations.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? See #2.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election whichever is applicable? Yes.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers. None.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated? None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. See Attachment 
B.*
---------------------------------------------------------------------------
    * The information referred to was not available.
---------------------------------------------------------------------------
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.) Non-
applicable.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a compliant to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details? 1981--Lawsuit 
in New York City--WABC-TV, where the company I ran was involved in a 
talent contract dispute. I was NOT named as a defendant, but as manager 
of the TV station was deposed and worked to achieve an out of court 
settlement. 1987--Divorce in the State of Illinois.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. None.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines set by Congressional Committees for information? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted Committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. Please describe how your previous professional experience and 
education qualifies you for the position for which you have been 
nominated. See A 17.
    2. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills? I do not have direct experience with 
airline operations, from an air carrier industry perspective. Since I 
have not been employed in that industry, I must rely on my interface 
with those in that business. Service on numerous committees and broad 
aviation coalitions continues to provide me insights into this aspect 
of the air transportation environment.
    3. Why do you wish to serve in the position for which you have been 
nominated? The council needs a representative for those who operate 
light aircraft. While it is appropriate for a representative of the 
airline pilots to be appointed to the council, it is also very 
important to have someone who speaks for general aviation pilots and 
owners. The National Civil Aviation Review Commission is widely viewed 
as a failure due to a lack of general aviation pilot representation. 
75% of those operating over 96% of the aircraft in the air traffic 
control system are general aviation pilots. It is important that these 
people have a voice on the council. In addition, the costs associated 
with general aviation operations are directly borne by the individual 
owner or operator; unlike the air carrier industry where the passenger 
bears the greatest degree of expense.
    4. What goals have you established for your first two years in this 
position, if confirmed? The first step must be to see that the 
provisions of AIR-21 are implemented. The Administration must fully 
utilize the personnel and procurement reform power given to it by the 
Congress in 1996. The council should monitor the progress of the Cost 
Accounting System so all users of the aviation system have a clear idea 
of what their money is being spent on. The FAA consistently talks about 
operating in a businesslike fashion. My background in both the 
communications and aviation industries has given me outstanding 
perspectives on unions, budgeting, and timeliness of projects, etc. The 
cost of flying is important to general aviation pilots. Aviation is 
unique in that it is the only industry in which the customer is forced 
to pay the cost of manufacturing flaws. The Administration must take a 
hard look at this segment of the aviation community to determine how 
all processes affect their safe operations.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when should society's 
problems be left to the private sector, and what standards should be 
used to determine when a government program is no longer necessary. 
Aviation is unique within the government, as there are no corresponding 
entities at the state or local level. In addition almost all aviation 
services are, by their nature, a monopoly not subject to the natural 
efficiencies of market forces. Whether an individual uses the aviation 
system directly or not, the entire nation benefits from our safe and 
efficient national airspace system.
    The United States government has a unique mission with aviation. 
50% of all the traffic in the world takes place in these 50 states, in 
any given hour. The country operates under this huge demand with one of 
the safest and most efficient systems of anyplace in the world.
    Some nations have chosen, to varying degrees, to commercialize air 
traffic control services. However the overwhelming reason for that 
decision has been access to capital markets, not a primary issue in 
this country. While it is important to look at all forms of operations 
around the world, one should be very wary of creating situations where 
safety and public confidence can be compromised by attempts to 
commercialize what will always be a monopoly service. In the United 
Kingdom, for example, we are already beginning to see a backlash debate 
about privatization in another mode of transportation--railroads. That 
having been said, there are elements within the FAA mission that could 
be handled by the private sector more efficiently without compromising 
safety. One of the goals of the Commission should be to identify those 
areas and encourage the Administrator to implement our recommendations.
    6. In your own words, please describe the agency's current 
missions, major programs, and major operational objectives. The FAA's 
mission includes providing a safe, efficient and secure air traffic 
control system. In addition, the agency is the sole regulatory body for 
aviation in areas as diverse as aircraft construction and maintenance 
to the training standards and certification of pilots and mechanics--
including their physical and mental well being.
    Toward those ends the agency is in a constant state of evolution. 
It is constantly modernizing its air traffic control system, 
establishing and revising safety standards for aircraft and pilots and 
researching cutting edge technologies to improve aviation safety.
    7. In reference to question number six, what forces are likely to 
result in changes to the mission of this agency over the coming five 
years. It is unlikely the overarching safety mission of the agency will 
change. Rapidly changing technology should dramatically change the 
agency's method and cost of operations in the air traffic arena in the 
coming years. As rapidly as the personal computer has entered the work 
and home marketplaces in the last decade, the challenge of implementing 
micro-processor and satellite technology can have a major impact on 
efficiency of air carrier and general aviation traffic services.
    8. In further reference to question number six, what are the likely 
outside forces which may prevent the agency from accomplishing its 
mission? What do you believe to be the top three challenges facing the 
board/commission and why? The agency may be its own worst enemy. Can it 
manage and implement the technological growth necessary in the coming 
years? The track record has not been outstanding in this area. Huge 
challenges lie ahead in designing and carrying out major programs. The 
projected growth in commercial air traffic could compromise efficient 
running of the nation's air traffic control system. Three other 
challenges face the commission is modernizing the air traffic control 
system to handle the projected increase in commercial traffic including 
a sufficient number of runways. A related issue has to be controlling 
operational costs. Operational costs of the system continue to outstrip 
the systems annual growth. At some point the general taxpayer will 
become weary of paying these uncontrolled costs despite the inherent 
public benefit the air traffic control system brings all citizens. 
Finally, inherent in all these issues is the debate on the structure of 
the air traffic control system.
    9. In further reference to question number six, what factors in 
your opinion have kept the board/commission from achieving its missions 
over the past several years? The board/commission has not yet been 
formed; therefore this is the greatest factor to its being able to 
achieve its missions over the past several years. Congress set the 
legislation in place for this Commission in 1996.
    10. Who are the stakeholders in the work of this agency? The 
American public as a whole is the largest stakeholder in the work of 
the Federal Aviation Administration. Whether one actually flies on the 
airlines, or in general aviation, a vital air transportation system 
benefits everyone, from deliveries of products and services by air to 
vital defense purposes. The next most often cited stakeholders would be 
those who travel on any form of air transportation. They expect the 
government to maintain and oversee an efficient and safe system.
    Directly influenced by the agency, and therefore stakeholders who 
are most often affected by its authority are the companies, government 
agencies and individuals who do business or operate under FAA 
jurisdiction. The most common are the Dept. of Defense, airline 
industry, cargo carriers, aircraft and avionics manufacturers, charter 
companies, corporate aviation, individual owners, flight schools, all 
pilots, mechanics, and educational institutions. The stakeholders cover 
a broad spectrum, and point to the nature of the FAA being a 
``classic'' government agency.
    11. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question number ten. 
While in my position as head of the Aircraft Owners and Pilots 
Association, I primarily represent those who operate general aviation 
airplanes; it is necessary that I maintain a focus on the entire scope 
of the Agency, and its stakeholders. To that end my personal decision-
making keeps in mind the broad mission and service of the FAA, not 
merely the narrow, albeit important one I represent. Experience has 
shown that when one takes into consideration the overall picture, and 
the needs of all users, ultimately the correct decisions will be found 
for individual constituencies.
    12. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? Empowerment is the 
best way to describe my personal philosophy for supervisor/employee 
relationships, and this is the supervisory model I follow. Giving 
employees the incentive to think and work creative ideas, unhampered by 
the ``politics'' of the workplace most often produces the best result 
for both the employee and the company/agency/etc. Not all employees can 
perform by purely being ``empowered''--therefore, I find it the role of 
the supervisor to provide the necessary coaching, assistance with 
tactics, goal setting and personal review often necessary. The degree 
of this assistance depends on the skill level and initiative of the 
employee. From my standpoint in observing the last decade, too few 
people have this philosophy. To increase productivity, change the 
``culture,'' and more rapidly implement new technology, this has to 
change.
    No, I have not had any formal employee complaints brought against 
me.
    13. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with Committees of 
Congress? If yes, please describe. My organization, AOPA has an 
excellent working relationship with Congress. Because of our technical 
background and participation in working groups, we are always pleased 
to provide a pilot's perspective on general aviation issues. We are 
often the first group Congress calls upon when a crisis has developed 
or in the aftermath of an accident.
    I have been president of AOPA since 1991, and during that time I 
have met personally with dozens of Senators and Congressmen, many of 
whom were Committee and Subcommittee Chairmen and ranking members. I 
have also testified numerous times before the House Transportation & 
Infrastructure Committee and the Senate Commerce, Science and 
Transportation Committee on issues such as FAA reform, budget and 
authorization requests, personnel and procurement reform, navigational 
equipment needs, airspace modernization, and aviation safety.
    14. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your board/commission 
comply with the spirit of the laws passed by Congress. The Council was 
an innovation developed by Congress in order to make the FAA a more 
effective agency. In 1996 AOPA supported the creation of the Council 
because of my confidence the Council would improve the FAA by giving 
the agency access to the management expertise of its customers in the 
aviation community. I take very seriously the responsibilities Congress 
set forth in creating the Council, and will honor congressional intent 
to the best of my abilities. I work closely with other organizations in 
the aviation community through many venues, and will continue to do so 
as part of my responsibility as a Council member to ensure that our 
recommendations comply with law. I also look forward to continuing to 
work closely with this Committee to make sure the advice provided by 
the Council agrees with the letter and the spirit of the laws 
established by Congress.
    15. In the areas under the board/commission jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views. Just weeks ago, the President signed into 
law comprehensive legislation, developed by this Committee, addressing 
many problems and issues at the FAA. I commend the Committee for this 
tremendous accomplishment. By giving highest priority to modernization 
and airport infrastructure, the legislation restores the true purpose 
of the Airport and Airways Trust Fund. It also addresses many 
additional policy issues of great importance to the aviation community. 
Before further legislative action is taken, I believe Congress should 
use its oversight authority to ensure the FAA fully implements all of 
the policy initiatives included in this important legislation. Congress 
can also help by beginning a thorough review of the rising operations 
costs at the FAA, which are certain to be a focal point of future 
policy initiatives.
    16. Please discuss your views on the appropriate relationship 
between a voting member of an independent board or commission and the 
wishes of a particular president. I believe it is important that voting 
members of an independent board or council act in the best interests of 
those they represent. I will carefully consider all wishes of a 
particular president, but in the end I must act in the best interests 
of general aviation.

    The Chairman. Thank you, Mr. Boyer. Before we turn to Ms. 
Branson, I believe Senator Hollings would like to say a word.
    Senator Hollings. Well, I just wanted to join in the 
comments of our colleague from Texas, Senator Hutchison.
    Mr. Chairman, I like trial lawyers. They work for a living. 
In fact, they do not get paid until they win, rather than that 
other crowd that sits and watches the clock. Otherwise, Ms. 
Branson is not only the head of the trial lawyers there in 
Texas but she is an outstanding civic worker. She presently 
serves as president of the Dallas Women's Foundation. She has 
been on the National Committee for the Prevention of Child 
Abuse, the Texas Judicial Council, she was Chair of the Select 
Committee on Rate and Policy Reform Legislation for insurance 
in the State of Texas, and presently she serves on the 
Securities Investor Protection Corporation.
    I think it is noteworthy that she and perhaps, I could be 
mistaken, Kendall Wilson, are the only two passengers. The rest 
of these folks are up in the cockpit, and I think in all 
respects Mr. Baker, the tremendous surge of passengers is not 
due to service, it is due to the economy, because I have been 
flying since 1978 and even before, and that is why we got this 
particular management council, to tell you the truth, because 
the greatest issue of complaint, other than education, to us 
here in the national Congress has been the diminution of 
aircraft service, and I hope you folks will be looking at that.
    But I want to welcome my friend Ms. Branson, and we would 
be delighted to hear from her.
    Thank you, Mr. Chairman.
    The Chairman. Senator Rockefeller.
    Senator Rockefeller. Ditto.
    [Laughter.]
    The Chairman. Ms. Branson, welcome.

 STATEMENT OF DEBORAH DUDLEY BRANSON, ATTORNEY, LAW OFFICES OF 
               FRANK L. BRANSON, P.C., DALLAS, TX

    Ms. Branson. Thank you very much, Mr. Chairman.
    Thank you, Senator Hollings, Senator Rockefeller, and 
Senator Hutchison. I appreciate your remarks very much.
    Mr. Chairman, my name is Debbie Dudley Branson, and I am 
delighted to be here today. I am honored by this nomination to 
the MAC. By way of personal introduction I am a lawyer and 
practice in Dallas with my husband, Frank Branson, who is here.
    The Chairman. Welcome, Mr. Branson.
    Ms. Branson. There are 10 lawyers in our firm, and we 
represent catastrophically injured individuals and their 
families. I grew up in Arkansas and am of the fourth continuous 
generation of lawyers in my family. I am proud to say that my 
children are the fifth.
    I am very pleased to have your consideration for one of the 
MAC positions. Part of the statutory mandate governing the work 
of the MAC is to ensure the protection of the public interest. 
I believe that diverse perspectives are necessary when 
attempting to balance the interests of the public and the 
businesses who are the providers of services, but I firmly 
believe that public safety must be the paramount concern.
    As a lawyer with a firm which has handled several aircraft 
litigation cases, I have seen the devastation which can result 
when air transportation goes awry. With your consent, I will 
have the opportunity and the responsibility to speak out and 
express concerns of air traveling Americans in this regard.
    After 20 years of law practice and travels to many corners 
of the world, I appreciate more and more the fact that 
Americans are truly good people who deserve the best and safest 
system of air travel we can provide.
    The statute which created the MAC includes specific 
congressional mandates which are to be accomplished at the 
outset of our formation. A basic understanding of the issues 
will be required, as well as the ability to listen to and sort 
out all affected parties' concerns, the need to balance 
competing interests, the capacity to formulate an independent 
position, and the dedication to work toward sensible solutions.
    I believe all of these skills are important components in 
the overall goal of making our air transportation safer and 
more efficient. I pledge that I will bring my training, my 
history of meeting or exceeding organizational goals, and my 
intense desire for improvement of the FAA to bear as I work 
with other MAC members to do the job Congress has set out for 
us to do.
    Thank you, sir, and I would be delighted to answer any 
other questions.
    [The prepared statement and biographical information of Ms. 
Branson follow:]

        Prepared Statement of Deborah Dudley Branson, Attorney, 
           Law Offices of Frank L. Branson, P.C., Dallas, TX
    My name is Debbie Dudley Branson and I am delighted to be here 
today. I am honored by the President's nomination to the Federal 
Aviation Advisory Council.
    By way of personal introduction, I am a lawyer and practice in 
Dallas with my husband. Their are 10 lawyers in our firm and we 
represent catastrophically injured individuals and their families. I 
grew up in Arkansas and am of the fourth continuous generation of 
lawyers in my family. I am proud to say that my two children are the 
fifth.
    I am very pleased to have your consideration for one of the MAC 
positions. Part of the statutory mandate governing the work of the MAC 
is to insure the protection of the public interest. Diverse 
perspectives are truly necessary when attempting to balance the 
interests of the public and the businesses who are the providers of 
services, but I firmly believe that public safety must be the paramount 
concern.
    As a lawyer with a firm which has handled several aircraft 
litigation cases, I have seen the devastation which can result when air 
transportation goes awry. With your consent, I will have the 
opportunity and the responsibility to speak up and express the concerns 
of air traveling Americans in this regard. After 20 years of law 
practice and travels to many corners of the world, I appreciate more 
and more the fact that Americans are truly good people who deserve the 
best and safest system of air travel we can provide.
    The statute which created the MAC includes specific Congressional 
mandates which are to be accomplished at the outset of our formation. A 
basic understanding of the issues will be required, as well as the 
ability to listen to and sort out all affected parties' concerns, the 
need to balance competing interests, the capacity to formulate an 
independent position, and the dedication to work toward sensible 
solutions. I believe all of these skills are important components in 
the overall goal of making our air transportation safer and more 
efficient. I pledge that I will bring my training, my history of 
meeting or exceeding goals, and my intense desire for improvement of 
the FAA to bear as I work with other MAC members to do the job Congress 
has set out for us to do.
                       a. biogaphical information
    1. Name: Deborah Dudley Branson; Former names: Deborah D. Dust, 
Deborah D. McGowan; Nickname: Debbie.
    2. Position to which nominated: Federal Aviation Management 
Advisory Council.
    3. Date of nomination: March 31, 2000.
    4. Address: (List current place of residence and office addresses.) 
Home address: 6920 Turtle Creek Boulevard, Dallas, TX 75205; Office 
address: Highland Park Place, 4514 Cole Avenue, Suite 1800, Dallas, TX 
75205.
    5. Date and place of birth: January 17, 1955, Jonesboro, Arkansas.
    6. Marital status: (Include maiden name of wife or husband's name) 
Married, Frank L. Branson, III.
    7. Names and ages of children: (Include stepchildren and children 
from previous marriages) Jennifer Ann Branson--27; Frank L. Branson, 
IV--25.
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received and date degree granted) Pocahontas 
High School; Arkansas State University, BSE, 1977; University of 
Arkansas, JD, 1980; University of Texas at Dallas, M.S., 1993.
    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment)

Law Offices of Frank L. Branson, P.C., Attorney, Dallas, TX, 1983-
    present
Arnold, Lavender, Rochelle, Barnette & Franks, Texarkana, TX, 1980-1983
Jones and Segers, Law Clerk, Fayetteville, AR, 1979-1980
University of Arkansas, Legal Methods Instructor, Teaching Assistant, 
    Fayetteville, AR, 1979-80
University of Arkansas, Law Library, Fayetteville, AR, 1978-1979
City of Fayetteville, Municipal Swimming Pool, 1973-1979
Citizens Bank of Jonesboro, Central Communications, 1977

    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or position with Federal, State, or 
local governments, other than those listed above.) Securities Inventory 
Protection Corporation-Vice-chair, 1995-present; Select Committee on 
Rate and Policy Form Regulation, Chair, 1994; Texas Judicial Council, 
1992-1997.
    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.)

Law Offices of Frank L. Branson, P.C.--Attorney--1983-present
Texas Trial Lawyers Association--President, 2000
Treasurer, Executive Committee, 1996-98
Board of Directors, 1994-present
Securities Investor Protection Corporation, Vice-Chair, Board of 
    Trustees, 1995-present
Dallas Women's Foundation, President, 1999, Board of Directors, 1994-
    present
Planned Parenthood, Secretary, 1998-99, Board of Directors, 1995-
    present
National Committee for the Prevention of Child Abuse, Board of 
    Directors, 1993-96
Democratic National Committee, Managing Trustee, 1992-93; 1996-97

    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.) Dallas Women's Foundation, Daughters of American 
Revolution, Dallas Symphony Orchestra League, Dallas Museum of Art, 
P.E.O., Contact 214, Aids Interfaith Network, National Committee to 
Prevent Child Abuse, Artreach Auxiliary, .Junior League of Dallas, 
Highland Park Presbyterian Church, Leadership America, Leadership 
Dallas, Planned Parenthood, Texas Trial Lawyers Association. Arkansas 
Trial Lawyers Association, Association of Trial Lawyers of America, 
American Bar Association, Dallas Bar Association, Dallas Women Lawyers 
Association, 112th American Inn of Court, College of the State Bar of 
Texas, American Society of Writers on Legal Subjects, Emily's List, 
Democratic National Committee, Democratic Senatorial Campaign 
Committee, Democratic Congressional Campaign Committee, League of Women 
Voters, Dallas Democratic Forum, Dallas County Democratic Party.
    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate. None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years. No offices held. Have raised money for many Democratic 
candidates and causes.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Extensive contributions 
to Democratic candidates and organizations. Please see attached list.*
---------------------------------------------------------------------------
    * The information referred to was not available.
---------------------------------------------------------------------------
    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.) 
Leadership America--1997; Leadership Dallas--1994; 1996 Women in 
Leadership Conference, Honorary Chair; Who's Who Among Rising Young 
Americans; Who's Who Among Notable American Women; Nominee for Laurel 
Award.
    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.) Co-author of ``Documenting the Demand,'' Litigation, Vol. 14, 
No. 2 (1988); ``Innovative Techniques for Trial,'' TRIAL Magazine, 
February, 1988; Review of, Products Liability by M. Stuart Madden for 
TRIAL Magazine, March, 1989; Commentary for Visual Evidence, August, 
1990; ``Successful Voir Dire,'' TRIAL Magazine, February, 1992; 
``Generating the Best From Your Expert Witness,'' Trial Practice 
Manual, Spring, 1992; ``Voir Dire Examination,'' 4 Products Liability 
Law Journal 109 (Feb. 1993); ``Volunteer Liability,'' Vol. 68, No. 1 
DallaCite (1993); ``Demonstrative Evidence.'' TRIAL Magazine, August, 
1995. Editor of the Texas Trial Lawyers Association Forum from 1991-
1994.
    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated. None.
    17. Selection:
    (a) Do you know why you were chosen for this nomination by the 
President? No.
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment? Legal 
training, aircraft litigation and leadership skills.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business association or business organizations if you 
are confirmed by the Senate? No, not required.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. Will continue to practice law.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? Will continue to practice law.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers. Paid salary by law firm.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None of which I am 
aware.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated? None of which I am aware.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. Have participated 
in ATLA's Women's Lobby Days on various issues involving women and 
consumer protection laws.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.) 
Depends on specific situations perceived to be a conflict.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. Complaint dismissed. See attached Background Application for 
State of Texas and correspondence.*
---------------------------------------------------------------------------
    * The information referred to was not available.
---------------------------------------------------------------------------
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No, was 
interviewed by FBI in 1997. General subject matter was fundraising 
calls from White House. My recollection includes questions and answers 
regarding:

  <bullet> whether I had received any fundraising calls from White 
        House and I have not.
  <bullet> whether I have had principals in home for fundraisers and I 
        have.
  <bullet> whether I have ever talked with principals by telephone and 
        I have. Have known Clintons for long time. Grew up in Arkansas.

    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? if so, provide details? Not to my 
knowledge.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines set by Congressional Committees for information? Yes, to the 
best of my ability.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes, to the best of my ability.
    3. Will you cooperate in providing the Committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the Committee? Yes, to 
the best of my ability.
    4. Please explain how you will review regulations issued by your 
department/agency, and work closely with Congress, to ensure that such 
regulations comply with the spirit of the laws passed by Congress. 
Purpose of Federal Aviation Management Advisory Council is to function 
as oversight resource rather than as regulatory agency. Council may 
submit comments, recommended modifications and dissenting views to 
Administration regarding regulatory matters--would anticipate doing so 
when appropriate.
    5. Describe your department/agency's current mission, major 
programs, and major operational objectives. Agency has not been 
operational to date. Purpose defined by statute.
    6. Are you willing to appear and testify before any duly 
constituted Committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. How have your previous professional experience and education 
qualified you for the position for which you have been nominated. 
Trained to ask questions, advocate positions and find resolutions to 
problems. Understand the value of diverse perspectives when balancing 
interests of consumers and businesses.
    2. Why do you wish to serve in the position for which you have been 
nominated? Primarily to voice consumer positions with regard to airline 
safety. General public should be among those represented with aviation 
interests.
    3. What goals have you established for your first two years in this 
position, if confirmed? To meet statutory mandates:

          1) review rulemaking cost-benefit analysis process; develop 
        recommendations to improve analysis; and ensure protection of 
        public interest.
          2) review process regarding advisory circulars and service 
        bulletins.

    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills? None other than acquiring substantive 
information regarding industry.
    5. Please discuss your philosophical views on the role of 
govermnent. Include a discussion of when you believe the government 
should involve itself in the private sector, when should society's 
problems be left to the private sector, and what standards should be 
used to determine when a government program is no longer necessary. 
Believe that government has duty to be involved in issues of public 
safety.
    6. In your own words, please describe the agency's current 
missions, major programs, and major operational objectives. Agency 
created to provide oversight of Federal Aviation Administration.
    7. In reference to question number six, what forces are likely to 
result in changes to the mission of this agency over the coming five 
years. Unable to determine at this point based on information 
available.
    8. In further reference to question number six, what are the likely 
outside forces which may prevent the agency from accomplishing its 
mission? What do you believe to be the top three challenges facing the 
department/agency and why? Unable to determine at this point based on 
information available.
    9. In further reference to question number six, what factors in 
your opinion have kept the department/agency from achieving its 
missions over the past several years? Council is newly created--not 
applicable.
    10. Who are the stakeholders in the work of this agency? Airline 
industry and general public.
    11. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question number ten. To 
balance interests of both with regard to oversight of FAA positions.
    12. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices similar to those practiced in the private sector.
    a) What do you believe are your responsibilities, if confirmed, to 
ensure that your agency has proper management and accounting controls? 
Advice and counsel.
    b) What experience do you have in managing a large organization? 
Not relevant to this position necessarily, but have served in 
leadership capacity in law firm and other organizations--all involving 
oversight, at minimum, of administrative functions.
    13. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals.
    a) Please discuss what you believe to be the benefits of 
identifying performance goals and reporting on your progress in 
achieving those goals. Accountability.
    b) What steps should Congress consider taking when an agency fails 
to achieve its performance goals? Should these steps include the 
elimination, privatization, downsizing or consolidation of departments 
and/or programs? Depends on agency and particular goals.
    c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed? Compliance with statutory 
mandates.
    14. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? Philosophy is very 
simple: Respect employees and recognize value of work. Have never had 
any difficulties with an employee.
    15. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with Committees of 
Congress? If yes, please describe. No working relationship to date.
    16. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the inspector General of your 
department/agency. Unknown--not familiar with structure of Agency.
    17. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your department/
agency comply with the spirit of the laws passed by Congress. With 
oversight capacity conferred by statute.
    18. In the areas under the department/agency's jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views. Has been specifically stated by statute.
    19. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending based on 
national priorities determined in an open fashion on a set of 
established criteria? if not, please state why. If yes, please state 
what steps you intend to take and a time frame for their 
implementation. No direct control of developing and implementing such a 
system.

    The Chairman. Thank you very much.
    Mr. Crowley.

STATEMENT OF GEOFFREY T. CROWLEY, CHAIRMAN, PRESIDENT AND CEO, 
              AIR WISCONSIN AIRLINES, APPLETON, WI

    Mr. Crowley. Thank you, Mr. Chairman. I am recovering from 
a cold, but hopefully you can understand me well. I appreciate 
the opportunity to be here, and your consideration of my 
nomination to the MAC. My name is Geoffrey Crowley. I am 
President and Chairman and CEO of Air Wisconsin Airlines 
Corporation.
    Air Wisconsin is a large independent regional airline that 
operates as United Express. We operate 23 regional jets and 21 
modern high speed turboprop aircraft to 42 cities in 21 States. 
We are the primary feeder of customers to United Airlines' two 
largest hubs in Chicago and Denver.
    Air Wisconsin is one of over 95 regional airlines that 
operate almost 2,200 aircraft and provide service to over 735 
airports throughout North America. Sixty-nine percent of these 
airports depend exclusively on regional airlines for their 
access to the national transportation system. One out of every 
eight domestic passengers fly on regional aircraft. We are an 
integral part of the air transportation network, with service 
to almost three times the number of airports that the major 
carriers serve.
    We are similar to the major carriers in many ways, as we 
both operate under the same Federal aviation regulations. 
However, our needs are often quite different than our major 
counterparts. I am pleased to have been recommended to the 
President to represent the regional sector of our industry.
    I have been in the aviation industry my entire life. After 
beginning as a consultant to airports and States for airport 
work, I have worked for six airlines. I have worked for almost 
every kind of airline, including two start-ups, a regional, a 
national, a major, and a niche carrier.
    I have had positions in finance operation, marketing, 
sales, and customer service that have helped prepare me for my 
current CEO position. I am a former chairman of the Regional 
Airline Association.
    The growth of our industry has been impressive over the 
past 20 years. Even more impressive is that while we have grown 
at such a rapid rate, we still have been able to improve upon 
our outstanding record of safe operations. Unfortunately, the 
growth of the infrastructure to handle this additional traffic 
has not kept up with the industry. We are facing severe 
restraints in our ability to meet the demands of the traveling 
public. We are in desperate need of new runways, terminal 
facilities, and more air traffic handling capability.
    This Committee is to be commended to have the foresight to 
bring together a group of people such as are before you today 
to assist the Administrator by providing feedback to the agency 
with respect to the challenges facing the FAA today. We are all 
stakeholders in the FAA as it affects every aspect of our 
lives. I hope that we as a council can bring new insight to the 
Administrator, and assist the agency in tackling the difficult 
challenges that face us in the future.
    I thank you again for the opportunity to be here today, and 
will take any questions.
    [The prepared statement and biographical information of Mr. 
Crowley follow:]

Prepared Statement of Geoffrey T. Crowley, Chairman, President and CEO, 
                  Air Wisconsin Airlines, Appleton, WI
    Good morning Mr. Chairman, my name is Geoffrey Crowley and I am 
President and CEO of Air Wisconsin Airlines Corporation. Air Wisconsin 
is a large independent regional airline that does business as United 
Express. We operate 23 regional jets and 21 modern high-speed turboprop 
aircraft to 42 cities in 21 states. We are the primary feeder of 
customers to United Airlines' two largest hubs of Chicago and Denver.
    Air Wisconsin is one of over 95 regional airlines that operate 
almost 2200 aircraft and provide service to over 735 airports 
throughout North America. Sixty-nine percent of these airports depend 
exclusively on regional airlines for their access to the national 
transportation system. One out of every eight domestic passengers fly 
on regional aircraft. We are an integral part of the air transportation 
network with service to almost three times the number of airports that 
the major carriers serve. We are similar to the major carriers in many 
ways as we both operate under the same Federal Aviation Regulations; 
however, our needs are often quite different than our major 
counterparts. I am pleased to have been recommended to the President to 
represent the regional sector of our industry.
    I have been in the aviation industry since beginning my college 
education at Purdue in 1970. I worked at NASA's Langley Research Center 
after my freshman year and have been around airports or airplanes ever 
since. I have been a consultant to airports, regional airport boards 
and States developing Master Plans and Aviation System Plans. I have 
worked for six airlines since leaving the consulting industry. I have 
worked for almost every kind of airline, including two start-ups, a 
regional, a national, a major and a niche carrier. I have had positions 
in finance, operations, marketing, sales and customer service that have 
helped prepare me for my current CEO position. I believe I will bring 
to the Council a broad background and real-life insight into the 
challenges faced by the many different kinds of airlines that operate 
within our national network today.
    The growth of our industry has been impressive over the past 20 
years. Even more impressive is that while we have grown at such a rapid 
rate, we have still been able to improve upon our outstanding record of 
safe operations. Unfortunately, the growth of the infrastructure to 
handle this additional traffic has not kept up with the industry. We 
are facing severe restraints in our ability to meet the demands of the 
traveling public. We are in desperate need of new runways, new terminal 
facilities and more air traffic handling capability.
    Congress is to be commended to have the foresight to bring together 
a group of people such as are before you today to assist the 
Administrator by providing feedback to the Agency with respect to the 
challenges facing the FAA today. We are all stakeholders in the FAA as 
it affects every aspect of our lives. I hope that we as a Council can 
bring new insight to the Administrator and assist the agency in 
tackling the difficult challenges it faces in the future.
    I thank you for the opportunity to be here today.
                      a. biographical information
    1. Name: (Include any former names or nick names used.) Geoffrey T. 
Crowley.
    2. Position to which nominated: Federal Aviation Administration 
Management Advisory Council.
    3. Date of nomination: March 30, 2000.
    4. Address: (List current place of residence and office addresses.) 
Home: 7 Bracken Court, Appleton, Wisconsin 54911; Office: Air Wisconsin 
Airlines Corporation, W6390 Challenger Drive #203, Appleton, Wisconsin 
54914.
    5. Date and place of birth: October 8, 1952, St. Catherines, 
Ontario, Canada.
    6. Marital status: (Include maiden name of wife or husband's name.) 
Married, Linda Anne (Buckelew) Crowley.
    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.) All Crowley; Elizabeth Victoria, 22; Sarah 
Catherine, 20; Amanda Christine, 13; Samantha Lynn, 10.
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received and date degree granted.) Bennett High 
School, Buffalo, New York, (9/66-9/70); Purdue University, West 
Lafayette, Indiana, B. S. Engineering (Transportation), (9/70-5/74); 
Xavier University (Ohio), M. B. A. (1/75-8/77).
    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.)

Landrum & Brown, Transportation Consulting Division of Booz, Allen & 
    Hamilton, Cincinnati, Ohio; 5/74-8/77, Aviation Consultant
Texas International Airlines, Houston, Texas; 8/77-11/80, Financial 
    Analyst, Manager of Budgets, Manager of Customer Service Quality 
    Assurance, Shift Manager Operations, Director Customer Service 
    Quality Assurance.
People Express Airlines, Newark, New Jersey; 11/80-1/85, General 
    Manager.
Presidential Airways, Washington, D.C.; 1/85-1/89, Senior Vice 
    President Marketing and Planning.
The Trump Shuttle, New York, New York; 1/89-8/91, Vice President, 
    Marketing, Sales & Service.
Northwest Airlines, St. Paul, Minnesota; 8/91-1/93, Vice President 
    Marketing Alliances.
CJT, Inc., Burnsville, Minnesota; 1/93-12/93, Chairman, President & 
    CEO.
Air Wisconsin Airlines Corporation, Appleton, Wisconsin; 12/93-present, 
    Chairman, President & CEO

    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.) Engineering co-op 
student at NASA, Langley Research Center, Hampton, Virginia (Summer, 
1971).
    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.) In addition to 
officer positions listed in #9; Board member of Presidential Airways 
(1985-9), Hawaiian Airlines (1992), CJT, Inc (1993), and Air Wisconsin 
Airlines Corporation (1993-present).
    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.) Wings Club (Governor 1994-7), Regional Airline 
Association (Board Member 1994-7, Chairman 1996-7), Fox Valley Chamber 
of Commerce and Industry (Board Member 1997-present), Purdue Alumni 
Association, John Purdue Club.
    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate. None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years. None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. U.S. Representative Jay 
Johnson (8/98: $500.00), WI State Senator Clausing (1/00: $1000), WI 
State Senator Drzewiecki (1/00: $1000).
    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.) 
None.
    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.) None.
    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated. Attached testimony before the Senate Finance Committee, 
February 4, 1997.*
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files.
---------------------------------------------------------------------------
    17. Selection:
    (a) Do you know why you were chosen for this nomination by the 
President? Recommended by the Regional Airline Association.
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment? I have 
been in the aviation industry for my entire career. I began working 
with airports and governmental agencies in the preparation of Airport 
Master Plans, Aviation System Plans and Environmental Impact Assessment 
Reports. I have worked in many different areas within the airline 
management structure for different airlines with different roles in the 
national aviation system; a major airline (Northwest), a regional 
feeder (Air Wisconsin), a regional independent (Presidential) and a 
niche airline (Trump Shuttle). I have participated in two pure startup 
airlines (People Express, Presidential) and two new certifications of 
airlines that were in operation under a different operating certificate 
(Trump Shuttle and Air Wisconsin) as well as having worked for mature 
airlines (Texas International and Northwest). I led the team that 
developed the first significant international airline marketing 
alliance (Northwest-KLM) and have had a major impact on the evolution 
of the relationship between the major carriers and their independent 
regional feeders. In summary, I believe I understand the industry, the 
interrelationship among the regulatory agencies, the airlines and the 
airports and can bring ``real-world'' perspective to the Management 
Advisory Council.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? Not applicable.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. Not applicable.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? Not applicable.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? Not Applicable
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers. Not applicable.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. Not applicable.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated? None that I can recall.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. I have met with 
Federal and State legislators and/or their staffs on several occasions 
to discuss various issues that may affect the aviation industry or Air 
Wisconsin and to share with them either my, or the Regional Airline 
Association's views on those issues.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.) I will 
seek guidance from the designated agency ethics officer and the Office 
of Government Ethics and follow whatever recommendations they may have.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a compliant to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details? Not personally, 
however, companies where I have been an officer have been involved in 
normal commercial litigation and administrative proceedings, most of 
which I would not be aware.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. No further information.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines set by Congressional Committees for information? To the best 
of the Council's ability.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? To the best of the Council's 
ability.
    3. Will you cooperate in providing the Committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the Committee? To the 
best of the Council's ability.
    4. Are you willing to appear and testify before any duly 
constituted Committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. Please describe how your previous professional experience and 
education qualifies you for the position for which you have been 
nominated. I have over 26 years in the aviation industry, over 22 years 
with airlines with different missions and of different sizes. I am 
currently CEO of a major regional carrier that interfaces with the FAA 
every day from a regulatory viewpoint as well as in day-to-day 
operations. I believe I understand the role of the FAA in our industry, 
ensuring the safety of the national airspace network, through the 
economic and efficient processing of aircraft through the airspace, the 
monitoring of the participants in the aviation industry to ensure their 
compliance with the regulations as written and developed by the FAA and 
conducting research and development to continually improve the 
efficiency of the national aviation system. I intend to bring to the 
council the perspective of one of the ``users'' of the system.
    2. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills? Not applicable.
    3. Why do you wish to serve in the position for which you have been 
nominated? To help what I believe already is the safest aviation 
network in the world prepare itself for the expected growth in the 
future.
    4. What goals have you established for your first two years in this 
position, if confirmed? First, to understand the challenges faced by 
the FAA, offer the airline industry's perception of those challenges 
and advise the Administrator on which projects we believe will reap the 
most significant benefits in the shortest time period. Second, use the 
Council as a means to discuss with other Council members and the 
Administrator some of the challenges facing regional airlines today. As 
part of the discussion, examine how the interface with the FAA occurs 
on an ongoing basis and share thoughts and ideas on how the FAA could 
function differently (if necessary) to meet its goals in a more 
economic and efficient manner.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when should society's 
problems be left to the private sector, and what standards should be 
used to determine when a government program is no longer necessary. I 
believe the role of government is to ensure that the entire country 
functions in a manner conducive to promote freedom, safety and 
opportunity for its citizens. To that end, government should become 
involved in an entity when the actions of that entity would result in 
an infringement of the rights of other individuals or entities. The 
involvement initially should be the enforcement of existing laws or 
regulations and only extend to a monitoring or regulatory role if a 
consistent infringement of rights continues. In addition, there are 
basic needs desired by citizens that cross political boundaries or 
require nationwide coordination that is best handled by a government or 
quasi-government organization. The obvious example of a basic need is 
transportation, which incorporates issues of defense as well as the 
needs of its citizens. The capital necessary for the undertaking of a 
national program such as a transportation system (e.g. the interstate 
highways or air traffic control system) may also require the Federal 
government to participate in the funding. This may be necessary as the 
users alone cannot afford to fund on a usage basis and the systems 
themselves may have national value that is more important than just 
day-to-day activity (e.g. defense). The management of such a major 
system or function can be operated by the government or contracted out 
if the function can be performed more economically and more efficiently 
and protection from disruption can be assured. I believe that society's 
challenges need to be identified by the population, which is best 
accomplished through the government/political process. The ultimate and 
ongoing resolution of these challenges should be done in the most 
economic and efficient manner, be it through a public or private 
organization. I believe that basic needs of the population such as 
education and defense are likely to always be government sponsored to 
ensure availability to all. A government program would no longer be 
necessary if the objectives of the program are being met through 
natural economic forces or is being accomplished by a local public or 
private organization that is closer to the end user of the program. If 
a program instituted by the government matures to the point that its 
goals can be met through a private effort that would be more efficient 
and economic and those impacted by the program receive equal or better 
results, then the government should consider contracting out or 
eliminating the program.
    6. In your own words, please describe the agency's current 
missions, major programs, and major operational objectives. The FAA's 
mission is to develop, maintain and continually improve the air 
transportation network in a safe, efficient, economic and 
environmentally sound manner. In this role, the FAA must have 
sufficient resources to manage the day to day movement of aircraft 
throughout the national air traffic control system. It must be able to 
certificate and monitor the participants in the system, such as 
airlines, manufacturers, airports, contract maintenance providers etc. 
Additionally, it should lead or manage research to improve the 
infrastructure and strive to make the system safer, more efficient and 
economic.
    7. In reference to question number six, what forces are likely to 
result in changes to the mission of this agency over the coming five 
years. The mission is not likely to change, but I believe meeting the 
mission will become increasingly more challenging with the growth of 
the industry and the changes in technology.
    8. In further reference to question number six, what are the likely 
outside forces which may prevent the agency from accomplishing its 
mission? What do you believe to be the top three challenges facing the 
board/commission and why? The tremendous growth in air transportation 
has stressed the system to the point that it is the limiting factor to 
continued growth. The need to fix the current system while still 
continuing to operate at peak capacity is a significant challenge. The 
improvements in technology that are evident throughout our society need 
to be embraced in the aviation infrastructure as it has been in the 
private sector of the industry. Finally, the labor force needed to 
manage the network needs to be working in a positive environment that 
allows each individual to realize their maximum potential. Therefore 
the emphasis needs to be on upgrading the technology with which we move 
aircraft throughout the network, taking advantage of technology that is 
currently being developed in the industry and on modern aircraft, and 
improving the environment for the labor force.
    9. In further reference to question number six, what factors in 
your opinion have kept the board/commission from achieving its missions 
over the past several years? I have no specific knowledge as to why the 
system has not been developing as fast as it should. It appears that we 
are not spending the money available to the agency to fund improvements 
in the system and the acquisition of new technology has not met 
expectations in performance, timing or cost which would imply a 
deficiency in the procurement process. All of the above has created 
stress on the people who we are dependent upon to make the system work.
    10. Who are the stakeholders in the work of this agency? Includes 
but is not limited to the traveling customers, airlines, general 
aviation, military, air cargo, aircraft manufacturers, aircraft 
suppliers, aircraft overhaul companies, pilots, mechanics and other 
employees of all of the above. In addition, the Federal government who 
is responsible for the funding of the agency.
    11. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question number ten. I 
anticipate that I will be representing the interests of several of 
these stakeholders including airlines, traveling customers, employees, 
manufacturers and suppliers.
    12. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? I believe the 
supervisor is responsible for creating an environment that allows an 
employee to reach his/her maximum potential. To do this, a supervisor 
has to provide proper training, sufficient resources and supportive 
guidance in order for the employee to successfully function 
independently. No.
    13. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with Committees of 
Congress? If yes, please describe. Have no relationship except having 
testified in front of the Senate Finance Committee in 1997.
    14. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your board/commission 
comply with the spirit of the laws passed by Congress. Not applicable 
as I believe our mandate is limited to advisory only.
    15. In the areas under the board/commission jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views. Not applicable
    16. Please discuss your views on the appropriate relationship 
between a voting member of an independent board or commission and the 
wishes of a particular president. The Council members have been 
selected based upon their experience in some aspect of the industry for 
which the FAA has responsibility. Their influence should be limited to 
those areas in which they have experience and not reflect the influence 
of outside agencies.

    The Chairman. Thank you, Mr. Crowley.
    Mr. Davis, welcome.

STATEMENT OF ROBERT A. DAVIS, RETIRED CORPORATE VICE PRESIDENT 
              OF ENGINEERING, THE BOEING COMPANY, 
                          SEATTLE, WA

    Mr. Davis. Thank you, Mr. Chairman.
    My name is Bob Davis, and I am an engineer by both formal 
training and experience. After I graduated from university I 
joined the structure staff of the Boeing Transport Division in 
1958, and I worked on initially the 707 and KC 135 jet 
transports.
    I have participated in all the original Boeing commercial 
jet airplane programs, and this has included new design 
technology, FAA and foreign certification, continued 
airworthiness, and accident investigation. I became Vice 
President of Engineering for the Commercial Airplane Group in 
1991, and Corporate Vice President of Engineering in 1994. I 
retired last year, February 1, after 41 years of service.
    I am presently the President of the International 
Federation of Airworthiness, which is headquartered in the U.K. 
I am also on the NASA Advisory Committee, the National Research 
Council Aerospace Science and Engineering Board, and I am also 
a member of the General Motors Science Advisory Committee.
    If I am confirmed, I believe that my background and 
experience would be an asset for advice and counsel to the FAA 
Administrator, and I appreciate the opportunity to be here 
today.
    Thank you.
    [The prepared statement and biographical information of Mr. 
Davis follow:]

Prepared Statement of Robert A. Davis, Retired Corporate Vice President 
            of Engineering, The Boeing Company, Seattle, WA
    My name is Bob Davis and I am an engineer by both formal education 
and experience. After graduation, I joined the Structures Staff of the 
Boeing Transport division in 1958, and initially worked on the 707 and 
KC-135 jet transports. I have participated in all of the original 
Boeing commercial jet airplane programs. This has included new design; 
technology; FAA and foreign certification; continued airworthiness; and 
accident investigation. I became Vice President of Engineering for the 
Commercial Airplane Group in 1991 and Corporate Vice President of 
Engineering in 1994. I retired February 1, 1999 after 41 years of 
Boeing service.
    I am presently President of the International Federation of 
Airworthiness headquartered in the UK. I am also on the NASA Advisory 
Committee and the National Research Council Aerospace Science and 
Engineering Board. I am a member of the General Motors Science Advisory 
Committee.
    I believe my background and experience would be an asset for advice 
and counsel to the FAA.
                      a. biographical information
    1. Name: (Include any former names or nick names used.) Robert 
Archer Davis--``Bob Davis.''
    2. Position to which nominated: FAA Management Advisory Committee.
    3. Date of nomination: March 30, 2000.
    4. Address: (List current place of residence and office addresses.) 
9131 Great Blue Heron Lane, Blaine, WA 98230; The Boeing Company, P.O. 
Box 3707--M/C 10-24, Seattle, WA 98124-2207. Fed Ex Address: The Boeing 
Company, 7755 East Marginal Way S., Seattle, WA 98108.
    5. Date and place of birth: November 27, 1933. Nelson, British 
Columbia, Canada--(Naturalized Citizenship: 11/19/62).
    6. Marital status: (Include maiden name of wife or husband's name.) 
Wife: Claribel NMN White Davis.
    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.) Robert Archer Davis Jr.--Age 39, Julie Ann 
Miller--Age 37.
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received and date degree granted.) May 1952-May 
1957--University of British Columbia--BASc--Degree Received: June 1957; 
January 1959-June 1964--University of Washington--MS--Degree Received: 
June 1964.
    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.)

May 1957-March 1958--Kaiser Aluminum, Tacoma, WA
March 1958-February 1999--The Boeing Company
1957-1960, Research and Development Engineer
1960-1964, Lead Engineer
1964-1971, Manager--Structures/Materials
1971-1974, Assistant Chief Engineer, Structures
1974-1979, Chief Engineer--Structures
1979-1984, Chief Engineer--Technology--757
1984-1989, Chief Project Engineer, 747
1989-1991, Director of Engineering, 747/767
1991-1994, Vice President, Commercial Airplane Engineering
1994-1999, Corporate Vice President of Engineering

    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.) NASA Advisory 
Committee; National Civil Aviation Review Commission tasked by U.S. 
Congress to recommend safety and finance process improvements for FAA 
operation.
    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.) None.
    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.)

Member, NASA Advisory Committee
Member, General Motors Science Advisory Committee
Member, National Research Council Aerospace Science and Engineering 
    Board
Fellow, Royal Aeronautical Society
Fellow, American Institute of Aeronautics and Astronautics
Member, Society of Automotive Engineers (SAE)
Member, National Aeronautics Association (NAE)
1998, Board Member, Francois-Xavier Bagnoud Prize Board
1997-1998, Member, National Research Council Board on Manufacturing and 
    Engineering Design
1996, Chairman, World Aviation Congress
1995-1998. Boeing Governing Board Member for the Leaders for 
    Manufacturing Programs at MIT
1995, Member of the Board of Visitors of the College of Engineering, 
    University of California, Davis
1995, Board Member, Aerospace Industry Manufacturing Seminar (AIMS)
1994-1995, Executive Committee Member. Aerospace Industries Association 
    Civil Aviation Council; Chairman of the Civil Aviation Council
1994-1995, Member, Advisory Committee on ``Reinventing R&D,'' Council 
    on Competitiveness
1994-1997, Member, Stanford University, School of Engineering, Advisory 
    Council
1993, Member of Department of Materials Science and Engineering 
    Advisory Board, Carnegie Mellon University
1992, Member, NASA Aeronautics Advisory Board
1992, Member, Advisory Panel, Aviation R&D Advisory Panel, Science, 
    Education and Transportation Program, Office of Technology 
    Assessment

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate. None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years. None.
    Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. None.
    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.)

Royal Aeronautical Society, Society Gold Medal 1997
Francois-Xavier Bagnoud Aerospace Prize
American Institute of Aeronautics and Astronautics/Society of 
    Automotive Engineers, William Littlewood Memorial Lecture
National Aeronautics Association, Aviation Industry Leadership Award 
    for his visionary leadership as the reinventor of the Boeing 747-
    400
Institution of Engineers, Australia. L. P. Coombes Lecture
American Welding Society, Dr. Rene Wassermand Award for development of 
    aluminum brazed titanium honeycomb structures for supersonic 
    transport application

    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.)

``Stress-Corrosion Cracking Investigation of Two Low Alloy, High 
    Strength Steels,'' CORROSION, Vol. 19, No. 2, February, 1963.
``Measuring Stress in Steel Parts by X-Ray Diffraction,'' METAL 
    PROGRESS, Vol. 84, No. 1, July, 1963.
``Stress Corrosion Cracking Study of Several High Strength Steels,'' 
    CORROSION, Vol. 20, No. 3, March, 1964.
``Designing for Fracture Toughness,'' MATERIALS IN DESIGN ENGINEERING, 
    Vol. 62, No. 5, p. 91, November 1965.
``High Efficiency Materials,'' SPACE/AERONAUTICS, Vol. 48, No. 2, p. 
    64, July 1967.
``Aluminum Brazed Titanium Structure--A New System,'' THE WELDING 
    JOURNAL, October 1973.
``Airplane Noise Attenuation,'' ENVIRONMENTAL CHALLENGES AND SOLUTIONS, 
    Seattle Northwest Metals and Minerals Conference, April 1974.
``A View of Boeing-Lehigh Activities and Some Consequences,'' LINEAR 
    FRACTURE MECHANICS, p. 41, Sil, Sei, and Erdogan, 1975.
``Fuel Conservation Now,'' FLIGHT SAFETY FOUNDATION, 33rd International 
    Air Safety Seminar, Christchurch, New Zealand, September 1980.
``Development & Certification of the Boeing 757,'' CANADIAN AERONAUTICS 
    AND SPACE INSTITUTE, April 1984, Cold Lake, Alberta, Canada.
``747 Modernization,'' INTERNATIONAL CONGRESS OF THE AERONAUTICAL 
    SCIENCES, September 1986, London, England.
``Boeing Airplane Development--Past, Present and Future,'' L. P. 
    COOMBES LECTURE, Conference on Aircraft Damage Assessment and 
    Repair, Melbourne, Australia, August 26, 1991
``High Speed Civil Transport,'' SAE Aerospace Technology Panel Address, 
    Long Beach, California, September 24, 1991.
``Accident Data: The Boeing Perspective,'' and ``The Data Speaks,'' 
    INTERNATIONAL FEDERATION OF AIRWORTHINESS, 21st Annual General 
    Meeting and Conference. Auckland, New Zealand, October 20-23, 1991.
``Challenges and Changes of Commercial Programs in the Aerospace 
    Industry,'' SAE Aerospace Technology Panel Address, Anaheim, 
    California, October 6, 1992.
``The Supersonic Challenge,'' INTERNATIONAL SYMPOSIUM ON JAPAN'S 
    NATIONAL PROJECT FOR A SUPER/HYPER-SONIC TRANSPORT PROPULSION 
    SYSTEM, Tokyo, Japan, October 28, 1992.
``Executive Perspectives on Change'' RTCA--AIRPLANES, AIRPORTS AND 
    PROCEDURES--CHANGING THE WAY WE DO BUSINESS, Phoenix, Arizona, 
    November 16-18, 1992.
``Air Transport for the 21st Century'' AIAA--PUGET SOUND ENGINEERING 
    COUNCIL, ENGINEERS WEEK, Seattle, Washington, February 20, 1993.
``Preparing for the 21st Century,'' GUEST EDITORIAL--SAE AEROSPACE 
    ENGINEERING MAGAZINE, January 1993 Issue.
``From Physics to Customers: The Jet Age Phase II,'' THE ROYAL SOCIETY/
    THE ROYAL ACADEMY OF ENGINEERING, London, England, June 24, 1993.
Address to GLOBAL NAVCOM '93, Seattle, Washington, June 29, 1993.
``Human Factors in the Global Marketplace,'' HUMAN FACTORS AND 
    ERGONOMICS SOCIETY ANNUAL MEETING, Seattle, Washington, October 12, 
    1993.
Address to AEROSPACE INDUSTRY MANUFACTURING SEMINAR, Seattle, 
    Washington, October 27, 1993.
``The Commercial Airplane Marketplace and Aeronautical Research and 
    Technology,'' to NASA/APEC Roundtable, Seattle, Washington, 
    November 17, 1993.
``The More Things Change . . . ,'' to INFLIGHT FOOD SERVICES 
    ASSOCIATION, San Diego, California. April 25, 1994.
``Manufacturers Respond to the Airlines,'' AIAA/AIA GLOBAL AIR AND 
    SPACE, 1994 CONFERENCE, as a Panel Member, Washington D.C., May 5, 
    1994.
``Engineering Education Needs,'' AMERICAN SOCIETY FOR ENGINEERING 
    EDUCATION--1995 ENGINEERING DEANS' INSTITUTE, Tucson, Arizona, 
    April 9-12, 1995.
``Technology in Commercial Airplane Design''--William Littlewood 
    Lecture, 1995 AMERICAN INSTITUTE OF AERONAUTICS AND ASTRONAUTICS 
    GLOBAL AIR & SPACE CONFERENCE, Arlington, Virginia, May 3, 1995.
``Jet Transport Design Progress-- 1954 to the Future,'' INTERNATIONAL 
    AEROSPACE CONGRESS, Sydney, Australia, February 25, 1997.

    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated. Included.*
---------------------------------------------------------------------------
    * The information referred to was not available.
---------------------------------------------------------------------------
    17. Selection:
    (a) Do you know why you were chosen for this nomination by the 
President? Background experience and reputation.
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment? My 
experience in working on aircraft design and technology; working with 
airlines and airports, and working with FAA and foreign certification 
agencies.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? I have retired from Boeing, but still 
maintain professional contact and will continue with NASA, National 
Research Council, General Motors and International Federation of 
Airworthiness.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. See 1, above.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? See 1 above.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? See 1 above.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers. I have retired from Boeing and I will continue to 
receive my pension and deferred compensation as described in section G. 
I also have a $1 per year contract that allows me to use Boeing travel 
services for my pro bono activities.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. The MAC position will 
draw on my experience at Boeing to reflect that experience and 
background in advising the FAA Administrator. I see no conflict of 
interest in that role.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated? None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. None.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.) Please 
see General Counsel's opinion letter.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a compliant to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. None.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines set by Congressional Committees for information? Not 
applicable.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Not Applicable.
    3. Will you cooperate in providing the Committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the Committee? Not 
applicable in view of the advisory role of the position.
    4. Are you willing to appear and testify before any duly 
constituted Committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. Please describe how your previous professional experience and 
education qualifies you for the position for which you have been 
nominated. I believe my professional background in the commercial 
aircraft manufacturing arena will be a helpful complement to the 
backgrounds of other members of the MAC from the air carrier, pilot, 
and general aviation communities. FAA plays a major role in the 
regulation and certification of aircraft and their components, and the 
expertise I have gained in this field should assist me in offering 
constructive advice to the agency in this critical area of its work.
    2. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills? In general, I believe I possess the types 
of skills needed to perform as a member of the MAC. If confirmed, 
though, it will be useful to increase my knowledge of some of the 
internal processes/requirements associated with the executive branch, 
in general, and with the FAA.
    3. Why do you wish to serve in the position for which you have been 
nominated? With my years of experience in aviation, I believe I can 
make a meaningful contribution to the FAA's efforts to continue to 
improve the safety of our air transportation system. Several years ago, 
Boeing undertook a study which strongly showed the need for additional 
improvements in the aircraft accident rate given the tremendous 
increases in air traffic we will see in the United States and 
internationally in the coming years. I would like to be a part of that 
ongoing effort. I also want to see the FAA maintain its international 
leadership role.
    4. What goals have you established for your first two years in this 
position, if confirmed? My goals are relatively simple for the early 
years of the MAC. First, I would like to see that our early work 
establish the priority we place on aviation safety. Second, I believe 
it is also important that the MAC, while remaining an independent 
source of advise to the FAA Administrator, be viewed within the FAA as 
a constructive ally in the search for improvements and change. I feel 
strongly that more can be accomplished in partnership than through an 
adversarial relationship.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when should society's 
problems be left to the private sector, and what standards should be 
used to determine when a government program is no longer necessary. 
With respect to our air transportation system, I believe it is 
appropriate for the Federal Government to establish and enforce safety 
and air traffic regulatory standards. Not only does this preempt the 
need for state regulation in these areas, which could significantly 
hinder innovations in aviation, but it provides for the protection of 
the American traveling public. Although the framework of FAA's aviation 
safety regulations is generally comprehensive, there are times 
nevertheless when it is appropriate for the Federal Government to 
facilitate but not regulate change. This has occurred in recent years 
through an enhanced partnership of industry with the FAA in which 
efforts have been undertaken to define priorities for addressing safety 
issues as well as the means for doing so. Through working in a 
cooperative way to respond to safety matters, it can be possible to 
achieve voluntary improvements in air safety faster than what might be 
the case if it were necessary to resort to the regulatory process. Even 
in these cases, though, if the pace of voluntary compliance is not 
sufficiently quick or broadly-enough based throughout industry, there 
may be a need for the FAA to initiate a regulatory solution. Insofar as 
the standards to be used to determine when a government program is no 
longer necessary, I would use a straightforward, commonsense approach 
by asking, first, if there is a continuing public interest need for 
Federal involvement in this area, and, second, whether this particular 
program has been demonstrated to be an effective means of responding to 
that identified need.
    6. In your own words, please describe the agency's current 
missions, major programs, and major operational objectives. The FAA's 
overall mission is to provide for the safety of our air transportation 
system. To accomplish that objective, the FAA exercises regulatory 
authority over virtually all aspects of that system--the people who 
maintain or fly the aircraft, the safety and security of the aircraft 
and the airlines that fly them, and the safety and efficiency of the 
air routes flown by civil and military users. The FAA also has 
responsibility for operating the air traffic control system and for 
installing, maintaining, and modernizing the equipment that the air 
traffic control system relies upon. In addition, the FAA is now 
responsible for commercial space transportation. FAA programs 
associated with these activities are largely broken down into lines of 
business within the agency that correspond to these major functions: 
regulation and certification; commercial space transportation; civil 
aviation security; and air traffic services.
    Additionally, the FAA needs to lead the continuing evolution of a 
global ATC system.
    7. In reference to question number six, what forces are likely to 
result in changes to the mission of this agency over the coming five 
years. The mission will remain the same, but technology, cost pressure, 
traffic growth and global interactions will cause changes in methods of 
management and operation.
    8. In further reference to question number six, what are the likely 
outside forces which may prevent the agency from accomplishing its 
mission? What do you believe to be the top three challenges facing the 
board/commission and why? Public perception on safety in the forces of 
Washington D.C.
    9. In further reference to question number six, what factors in 
your opinion have kept the board/commission from achieving its missions 
over the past several years? I believe three of the top challenges 
facing the FAA (and the aviation industry) in the coming years are (1) 
continuing to reduce an already low aircraft accident rate; (2) meeting 
the challenges of dramatic increases in aircraft operations; and (3) 
maintaining the international preeminence of the FAA and the U.S. 
aerospace industry. All of these challenges are difficult, but 
achievable with the dedication of enough talent, resources, and 
commitment to meet them. What poses great difficulty in continuing to 
lower today's accident rate is that virtually all of the easy, ``big 
bang for the bucks'' steps that we know about have already been taken. 
Accidents today are so random and comprise such few instances that 
safety improvements which can be made are typically of a nature that 
may achieve only small, incremental changes, and, even then, at 
sometimes great cost. Yet there is a need for FAA and industry to work 
collectively to continue to drive down the accident rate, since all 
evidence points to significant growth in air traffic into the 
foreseeable future. With today's accident rate, that significantly 
greater traffic will result in unacceptably greater numbers of 
accidents in the U.S. and worldwide. The increased amounts of traffic 
that we will see (and are already experiencing) place a great demand on 
our nation's air traffic control system, which is aging and already 
straining under today's level of traffic. There must remain a strong 
focus on, and commitment to, timely modernization of that system if we 
are to avoid the gridlock foreseen by the National Civil Aviation 
Review Commission. With regard to FAA/U.S. preeminence in aviation, we 
have seen strong inroads made by other countries--particularly the 
Europeans--to assume the role of world leaders in this vital segment of 
the economy. U.S. aerospace has long been the jewel in the crown of our 
export market, and efforts to topple the U.S. dominance in aviation 
potentially threaten the vitality of our economy. The FAA must continue 
to be provided with the tools and resources necessary for it to assert 
world leadership in aviation. I am hopeful that recent changes in 
budgeting for the FAA will help generate the resources the agency needs 
to do so.
    10. Who are the stakeholders in the work of this agency? In light 
of the breadth of the FAA's work, there are many stakeholders in the 
agency's work, foremost among them the American traveling public. Other 
stakeholders include parties such as the Congress, FAA employees, 
airlines, private and commercial pilots, flight attendants, mechanics, 
aircraft and aircraft component manufacturers, and air traffic control 
suppliers/manufacturers.
    11. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question number ten. I 
believe that, as a member of the MAC if I am confirmed, I should serve 
in an objective capacity listening to, and fairly balancing the 
interests of, all stakeholders of the FAA.
    12. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? Not applicable.
    13. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with Committees of 
Congress? If yes, please describe. I have had limited experience 
working with the Congress. I have occasionally been called upon to 
brief committee staff on Boeing-related issues.
    14. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your board/commission 
comply with the spirit of the laws passed by Congress. Not applicable.
    15. In the areas under the board/commission jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views. I believe it is important that Congress 
continue to ensure that adequate resources are made available to the 
FAA in its Operations budget. This is a crucial aspect of the FAA's 
ability to fulfill its vital safety functions. I would also encourage 
the Congress to continue looking at the issue of air traffic control 
reform.
    16. Please discuss your views on the appropriate relationship 
between a voting member of an independent board or commission and the 
wishes of a particular president. Not applicable.

    The Chairman. Thank you.
    Mr. Wilson.

  STATEMENT OF KENDALL W. WILSON, PRESIDENT, FIRST FINANCIAL 
              MANAGEMENT SERVICES, WASHINGTON, DC

    Mr. Wilson. Good morning. Thank you. I am accompanied this 
morning by my wife, Vickie, a psychiatric social worker, who 
keeps me in line.
    The Chairman. Welcome.
    Mr. Wilson. Senator Hollings, if I may add, before my 
remarks, that you are quite right, I do spend more time as a 
passenger, but years ago I did spend several hundred hours in 
the front seat of an airplane, so I have a little bit of deep 
experience, deep in my past, that is, in being in the front 
seat.
    Thank you, Mr. Chairman and members of the Committee, for 
the opportunity to address you today on the subject of the FAA 
Management Advisory Council, or MAC. I am pleased to be 
considered by this Committee for confirmation as a member of 
the MAC, and I believe that I bring an important set of 
experiences and skills to this body.
    There is, as you know, a plethora of growing pains in 
aviation today. Much of this, fortunately, is due to our robust 
economy and the large role that aviation plays in it. How the 
Federal Government conducts its affairs as an integral 
operating piece of the aviation system will have a major impact 
on whether aviation assists in the growth of the economy, as it 
has in the past, or whether it begins to act as a drag and 
limits the ability of the economy and the Nation to expand.
    Many of the key resources in aviation are becoming 
critically scarce, and many systems and subsystems are at or 
beyond their design capacity. Interestingly, political, 
environmental, financing and managerial problems as often or 
more often stand in the way of system improvement than does the 
fundamental ability of aviation to pay for the improvements 
needed. I believe the MAC will have an important role in 
working through the highest levels of issues impeding progress 
in aviation with the industry and with the FAA Administrator.
    I am optimistic that the very backgrounds of fellow 
nominees will enable the MAC to sort through these issues, and 
that the MAC will be successful not just because its members' 
experience spans a broad part of aviation commerce, but because 
there is some broad consensus and much goodwill among them. I 
look forward to working with this talented group of people.
    Thank you.
    [The prepared statement and biographical information of Mr. 
Wilson follow:]

  Prepared Statement of Kendall W. Wilson, President, First Financial 
                  Management Services, Washington, DC
    Thank you, Mr. Chairman, for the opportunity to address you and the 
Committee today on the subject of the Federal Aviation Administration, 
Management Advisory Council, or ``MAC.'' I am pleased to be considered 
by this Committee for confirmation as a member of the MAC, and I 
believe that I bring an important set of experiences and skills to this 
body.
    There is, as you know, a plethora of growing pains in aviation 
today. Much of this (fortunately) is due to our robust economy and the 
large role that aviation plays in it. How the Federal government 
conducts its affairs as an integral, operating piece of the aviation 
system will have a major impact on whether aviation assists in the 
growth of the economy (as it has in the past), or whether it begins to 
act as a drag, and limits the ability of the economy and the Nation to 
expand.
    Many of the key resources in aviation are becoming critically 
scarce and many systems and sub-systems are at or beyond their design 
capacity. Interestingly, political, environmental, financing and 
managerial problems as often, or more often, stand in the way of system 
improvement than does the fundamental ability of aviation to pay for 
the improvements needed.
    I believe the MAC will have an important role in working through 
the highest levels of issues impeding progress in aviation with the 
industry and with the FAA Administrator. I am optimistic that the 
varied backgrounds of fellow nominees will enable the MAC to sort 
through these issues, and that the MAC will be successful not just 
because its members' experiences span a very broad part of aviation 
commerce, but because there is some broad consensus and much good will 
among them. I look forward to working with this talented group of 
people.
                      a. biographical information
    1. Name: Kendall Wyman Wilson--``Ken.''
    2. Position to which nominated: Federal Aviation Administration, 
Management Advisory Council.
    3. Date of Nomination: March 30, 2000.
    4. Address: Residence: 5040 Millwood Lane, Washington, DC 20016; 
Office: Suite 300, 5301 Wisconsin Ave., NW, Washington, DC 20015.
    5. Date and place of birth: May 20, 1945, Chicago, IL
    6. Marital Status: Married McCuaig.
    7. Names and ages of children: Hugh K. Wilson--30; Thomas W. 
Wilson--25; Alexandra C. Wilson--23.
    8. Education: High School: St. Albans School 1959-1963; College: 
Princeton University 1963-1967 Bachelor of Science in Engineering; 
Graduate: Massachusetts Institute of Technology 1968-1971, Master of 
Science, Transportation Systems; Master of Science, Management.
    9. Employment record:

Pratt & Whitney Aircraft, Analytical Engineer, 1967-68, E. Hartford, CT
U.S. Navy, Engineering Duty Officer, 1971-74, Carderock, MD
U.S. Dept. of Transportation, Program Coordinator, 1974-77, Washington, 
    DC
U.S. Dept. of Energy (U.S. ERDA), Asst. to Director, Ofc. of Transp. 
    Pgms. 1977-79
    U.S. Dept. of Energy, Resource Manager, Commercialization, Electric 
Vehicles, 1979-81
    1st Financial Management Services, Inc. (Venture Technology, Inc.), 
President, 1981-99

    10. Government experience: None other than in ``9'' above.
    11. Business relationships: As in ``9'' above plus: Trustee, Wendt 
Center for Loss and Healing; Trustee, Free the Children Trust.
    12. Memberships: As in ``11'' above plus: Society of Automotive 
Engineers, Metropolitan Club of Washington, Chevy Chase Club Newcomen 
Society in North America (historical), Princeton Clubs of New York and 
Washington.
    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate. D.C. Republican 
Committee.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the past 10 
years. D.C. Republican Committee, Dole for President.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years


Citizens for Norton                                     $500
Schwartz for Mayor                                      500
Grainger for Congress                                   500
Friends of Conrad Burns                                 500
Rick Hill for Congress                                  500
Elizabeth Dole for President                            1000
George W. Bush for President                            1000
The WISH List (PAC)                                     1000
Friends of Dylan Glenn                                  500
Tom Campbell for Senate                                 1000
DC Republican Committee                                 550
 

    The above list is complete for mid-1998 through 4/11/2000. 1 do not 
have detailed records prior to the start of that period; however, I do 
recall making gifts of $500 or more to the following: George W. Bush 
for Governor, Bob Dole for President, Campaign America, Tom Campbell 
for Congress, The WISH List, Snowe for Senate, Warner for Senate, 
Republican National Committee.
    14. Honors and awards: None.
    15. Published writings: Co-author, ``Transportation and the Urban 
Environment,'' U.S. DOT, 1978.
    16. Speeches: None.
    17. Selection:
    (a) Do you know why you were chosen for this nomination by the 
President?
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment?
    I believe that the combination of governmental and private sector 
business experience, together with my educational background, give me 
an unusual set of tools to bring to the FAA Management Advisory 
Council. The areas of relevancy include: corporate and non-profit board 
experience, capital formation, fiscal management, engineering, and 
policy development.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations or Business organizations if you 
are confirmed by the Senate? Not applicable.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. Not applicable.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with you previous employer, business firm, association or 
organization? Not applicable.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government Service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes, although 
as of this writing, I have not been informed of my term.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensations 
agreements, and other continuing dealings with business associates, 
clients or customers. None other than investments.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None.
    3. Describe any business relationship dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated? None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. None.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. Please refer to Deputy General Counsel's opinion letter.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or law enforcement authority for violation of any 
Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? Yes. In the mid-1980's I was an officer 
of a small business that, as plaintiff, successfully sued for contract 
damages in Federal court in Chicago.
    4. Have you ever been convicted (including any pleas of guilty or 
nolo contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. None.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines set by Congressional Committees for information? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures. Yes.
    3. Will you cooperate in providing the Committee with the requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted Committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. Please describe how your previous professional experience and 
education qualifies you for the position for which you have been 
nominated. As a former federal government engineer, manager and policy 
analyst, I believe I have the experience to grasp and deal with the 
FAA's major management issues. In addition to that governmental 
experience, I have had private sector management, financial, and 
governance (board) experience that I believe is critical to achieving a 
successful evolution of the FAA to a ``more business-like'' 
organization.
    2. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills? I do not necessarily believe that I am 
missing skills that are required for the overall demands of the 
position; however, I certainly need to learn more about the details of 
FAA management, financing and programs, which can be achieved by FAA 
staff briefings and assistance.
    3. Why do you wish to serve in the position for which you have been 
nominated? I have always had an interest in government policy and 
management as intellectual subjects. In addition, and perhaps more 
importantly, I have a strong belief in the importance of public 
service. Such service has been part of my past and that of my father 
and grandfather.
    4. What goals have you established for your first two years in this 
position? The overall goal of the FAA MAC is certainly to assist the 
agency in evolving into a more fiscally and managerially sound 
organization, perhaps described as a ``more business-like'' enterprise. 
One objective would certainly be to improve the stakeholders' 
perceptions of the agency as a service organization.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when should society's 
problems be left to the private sector, and what standards should be 
used to determine when a government program is no longer necessary. As 
a broad, general matter, I believe that government should allow the 
private sector to operate to serve the public and private needs of the 
citizens, and it should become involved only when there is a compelling 
need. Such need may be regulatory (e.g. setting standards for flight 
operations) and to support a common interest (e.g. defense, police, 
fire protection). The private sector is clearly better in determining 
resource allocation matters, such as who buys/sells what, where it is 
bought/sold, and how much is bought/sold. As for standards for 
eliminating government programs: I believe that programs must meet the 
tests that were met at the time of their establishment and periodic 
review of all programs is appropriate to weed out activities that are 
existing on ``momentum'' only.
    6. In your own words, please describe the agency's current 
missions, major programs, and major operational objectives. While the 
FAA MAC has not previously existed, the FAA's mission is focused upon 
safety, air traffic control, aviation commerce and national defense.
    7. In reference to question number six, what forces are likely to 
result in changes to the mission of this agency over the coming five 
years? Again, while the FAA MAC has not previously existed, the FAA 
itself is faced with issues most of which relate to the growth in air 
commerce over the next five years. It is not clear that the FAA's 
mission itself may be or need to be changed, but rather the manner and 
methods by which the FAA meets the challenges related to this growth. 
Please see the answer to question #9 below for further discussion of 
the areas that present challenge to the FAA in coping with the forces 
of growth.
    8. In further reference to question number six, what are the likely 
outside forces which may prevent the agency from accomplishing its 
mission? What do you believe to be the top three challenges facing the 
board/commission and why? Focusing particularly on the forces and 
challenges that the FAA MAC will face, I believe that many of them are 
internal. For example, can the MAC successfully determine and recommend 
improvements given the largely ``representative'' nature of its 
composition? Some challenges are likely to be external. For example, 
can the FAA MAC, without strong powers, be persuasive enough to move 
governmental and private sector organizations to make change? Or, on a 
specific plane, can the MAC identify and catalyze changes in capital 
formation that may be not only large, but also critical for successful 
long-term delivery of FAA services?
    9. In further reference to question number six, what factors in 
your opinion have kept the board/commission from achieving its missions 
over the past several years? While the FAA MAC has not yet been formed, 
the FAA itself has been challenged by the explosive growth in air 
commerce. Modernization of equipment, staffing, capitalization, and 
management practices all present large challenges to the FAA. I believe 
that the MAC can be a helpful adjunct in meeting the demands that these 
hurdles present.
    10. What are the stakeholders in the work of this agency? Federal, 
state and local governments and their operating affiliates; Aviation 
industry: all types of aircraft operators and manufacturers; 
Manufacturers and technology development entities of all air and land 
based elements; Employees and employee organizations; International and 
multinational organizations; System users: military, general aviation, 
passengers, and shippers.
    11. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question number ten? I 
would like the relationship to be cordial, but independent.
    12. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? First two parts: Not 
applicable. I do not anticipate that as a MAC member I will have any 
supervisory responsibility. Third part: No.
    13. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with Committees of 
Congress? First part: None. Second part: No.
    14. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your board/commission 
comply with the spirit of the laws passed by Congress. While the FAA 
MAC does not have regulatory authority, it does have the responsibility 
to review the rulemaking cost benefit analysis process and make 
recommendations to improve that analysis. I foresee the MAC members 
being available for informal contact with the Committee and its staff, 
as well as the formal reporting established in the enabling 
legislation. Also, the MAC is comprised of a diverse set of aviation 
interests that will provide ready flow of ideas and information from 
outside stakeholders.
    15. In the areas under the board/commission jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views. Emphasizing my personal views: I believe 
that there are two areas of potential need for legislative remedy:

        (a) Internally to the MAC: While I hope that the MAC will 
        operate effectively, as amended by the 2000 reauthorization, I 
        am unclear on how the Air Traffic Service Subcommittee will 
        relate to the MAC itself.
        (b) External to the MAC: See the response to Question 8 above. 
        How effective will the MAC be with only the statutory powers of 
        comment, recommendation and dissent?

    16. Please discuss your views on the appropriate relationship 
between a voting member of an independent board or commission and the 
wishes of a particular president. In the question, I assume the word 
``president'' refers to the President of the United States and not 
simply the head of the board/commission. If so, the appropriate 
relationship, particularly for a term appointee, is to listen to and to 
evaluate carefully the President's views, but to vote based upon what 
he/she feels is correct.

    The Chairman. Thank you very much, Mr. Wilson.
    Mr. Boyer, you may have noted that in the last FAA 
reauthorization we just increased the passenger facility 
charges again, and now corporate aircraft still continue to fly 
around, use the air traffic control system, and pay nothing. Do 
you think that is a good thing to happen, Mr. Boyer?
    Mr. Boyer. It is something that I think we will be debating 
over the coming period of time that you and I have talked about 
in the past, and that certainly comes up each and every year 
the administration----
    The Chairman. Mr. Boyer, I am asking for your view on 
whether there should be any fees imposed on corporate 
aircraft--I am talking about corporate aircraft--for use of the 
air traffic control system. I am not asking whether we are 
going to debate it or not. I want to know your opinion.
    Mr. Boyer. I believe that at the present time paying 
through the fuel tax is the best method for paying for access 
for general aviation aircraft.
    The Chairman. So corporate aircraft in America who are 
using more and more of the air traffic control system, which 
contributes significantly to the overburdening of the air 
traffic control system, should pay no additional fees, with the 
exception of a fuel tax which basically everybody pays?
    Mr. Boyer. That is correct. The airlines do not pay the 
fuel tax.
    The Chairman. If you believe that, Mr. Boyer, I strongly 
question your qualifications to serve on this Committee.
    Mr. Babbitt, do you have any view on that?
    Captain Babbitt: Yes, sir, Mr. Chairman. I have advocated 
in the past that we find a balanced way. The system supports a 
great deal of traffic everywhere, and I do recognize that in a 
747 400 passengers versus a Cessna Citation, for example, 
somewhere we ought to be able to balance the user fee to have 
the appropriate paying.
    I am not certain if the PFCs, which if I understand it 
correctly, and there may have been modifications made in the 
last revision, are supposed to be directed more to the actual 
terminal facilities as opposed to the airways and traffic 
system, but I think that there should be a way, perhaps beyond 
that, to balance some of the fees so that everyone pays a fair 
share.
    The Chairman. In other words, Captain Babbitt, we have a 
situation now where lower and middle income Americans, who are 
generally the people who fly, every time they take off, every 
time they land, they pay an additional fee every time that 
plane takes off and lands. A corporate jet, according to Mr. 
Boyer, who by the way are the wealthiest people in America, 
obviously the wealthiest \1/2\-percent, should pay nothing, but 
the average citizen who is on an airliner pays, and we have 
just increased it again.
    Mr. Baker, do you have a view on that?
    Mr. Baker. Mr. Chairman, we are quite sensitive to all of 
the fees that our customers ultimately pay, whether they be 
ticket taxes or PFC's. I believe that anyone who consumes a 
resource such as air traffic control ought to pay their fair 
share. The big debate is how do you decide what that fair share 
is for each of the aviation users.
    The Chairman. Would one of the ways to do that be based on 
their use of the air traffic control system? As Captain Babbitt 
just pointed out, you have got a 747 with 400 passengers. Each 
of those people are paying a tax every time that plane takes 
off and lands, and yet the corporate jet is using the same air 
space, the same time of the controller, and basically is paying 
nothing. Do you think that maybe a good formula for that would 
be based on how much use of the air traffic control system that 
corporate jet makes?
    Mr. Baker. I believe ultimately that ought to be the 
standard.
    The Chairman. So Mr. Boyer, when I advocated such a payment 
of that by corporate jets, your organization immediately 
alerted every aircraft owner in America alleging that I was 
going to levy some tax on them. It was unfair, it was 
inaccurate, and it is sort of the classic example of the way 
lobbyists in this town will distort their position and frighten 
their members, because that was clearly not what I wanted to 
do.
    I wanted to get at, which we should get at, the wealthiest 
people in America who are flying corporate jets around this 
country and not paying an extra penny for doing so, while 
average citizens, average middle income, lower income American 
citizens are paying, again, an increase in their cost of air 
tickets, while your fat cat friends pay nothing. That is a 
disgrace, and I would be glad to hear a response from you.
    Mr. Boyer. Well, Mr. Chairman, I think we should 
characterize general aviation as more than just the fat cats 
with corporate jets.
    The Chairman. What you opposed, Mr. Boyer, was my proposal 
to have corporate jets pay user fees.
    Mr. Boyer. I was concerned about the constituency I 
represented, which was basically single-engine and twin-engine 
light general aviation airplanes and, as I recall--as you said, 
you had a healthy debate with several people here. As I recall, 
later in that year we did carve out what you termed in your 
legislation sport aviation, which we termed that kind of--you 
exempted those groups of people, and at that time we came to 
agreement on that.
    The Chairman. I do not think so, according to your 
statement. Mr. Boyer noted the Senator may intend to exempt all 
general aviation and believe such an exemption is included in 
his proposal. ``I gather it is for this reason you believe we 
were lying about your position on user fees. If so, you are 
mistaken. General aviation would be subject to substantial new 
user fees under this proposal,'' Mr. Boyer said--a total 
distortion of my position.
    Ms. Branson, what is your aviation experience?
    Ms. Branson. Senator, my aviation experience is obviously 
different from the other members who are sitting, or the other 
prospective members who sit here. My experience has been in 
representing the victims of airline crash cases.
    The Chairman. When did you do that?
    Ms. Branson. Over the course of probably the last--I am 
guessing, about 10 years.
    The Chairman. Over the last 10 years?
    Ms. Branson. Maybe it is 13 or 14 years. Probably the last 
10 years.
    The Chairman. And you were directly involved in these 
cases?
    Ms. Branson. I was.
    The Chairman. What did you do in these cases?
    Ms. Branson. My practice is a little different. Again, I do 
a lot of strategic work on cases, I do a lot of witness 
preparation, I do a lot of jury work, so it depends on the 
stage of the case where I am involved in these particular 
cases. I know I worked a lot with witnesses, took statements. 
We did settlement brochures and preparations and helped involve 
the witnesses in getting ready for those experiences.
    The Chairman. Which case?
    Ms. Branson. The Delta crash case, for instance.
    The Chairman. Which Delta crash?
    Ms. Branson. I believe the number was 1140. It was the 
Delta crash case in Dallas. We had several clients from that 
crash.
    The Chairman. When was that?
    Ms. Branson. Mr. Chairman, I believe that was the late 
eighties, but I am telling you that from memory.
    The Chairman. Maybe for the record you could submit your 
involvement in these aviation cases. Were you ever at trial 
with them?
    Ms. Branson. None of those cases went to trial.
    The Chairman. Perhaps you could submit for the record your 
involvement in those cases, Ms. Branson.
    Ms. Branson. I would be delighted to.
    The Chairman. Senator Hollings.
    Senator Hollings. Well, right to the point, Mr. Chairman. I 
feel that I am more than qualified to serve on this Management 
Advisory Council, and I have never sued an airline or ever 
flown a plane. I think that the major concerns that we had were 
the matter of service, and the matter of cost. I would agree 
with the distinguished chairman relative to the corporate jet 
being charged a fee, but I did not mind that fee going up from 
$3 to $4.50.
    The extra dollar and a half was nothing compared to paying 
$700 for a round trip from Washington to Charleston, South 
Carolina and back. I watched this develop, and we were told at 
the time of the hearings, ``Don't worry, don't worry, we are 
going to take care of the small and medium-sized towns of 
America,'' and that is exactly what they did not do.
    In essence, what has taken over, the long hauls are the 
most economical, and so you find 85 percent of America 
subsidizing the other 15 percent flying from Washington to Las 
Vegas and Los Angeles, and the long hauls, and just a ticket up 
to Charlotte, North Carolina to make a connection to come to 
Charleston is over $300 to $400. It is a matter of my USAir has 
got about 80 percent control. We have got these hub monopolies. 
It is not the passenger facilities charge, it is the 
monopolistic control of these hubs, and they can put it to you, 
and that is all you can do.
    You can fly from Charleston to Miami through Atlanta. It is 
the same way with Delta, and people take a car from Greenville 
and Columbia and drive all the way to Charlotte, rather than 
try to pay for that small connection, so you folks on the 
Management Advisory should look at that, because if we ever get 
the opportunity, that is what came out in this 2-year 
gymnastics that we had to try to get this bill and specifically 
get your Management Advisory Council instituted.
    I agree with the closing comment of Mr. Wilson that you 
have a talented group here, and I have for the record. I was 
trying to do a little homework, Ms. Branson, but you 
represented Delta Airlines in the 1985 crash, Egypt Airlines in 
1999, and American Airlines in the 1999 crash in Little Rock. 
You represented Southwest Airlines in recent litigation over 
Love Field in Dallas, and you are about to disqualify in my 
mind, because you are leaving from the passenger, and there is 
going to be total airline, aircraft, air manufacture and 
everything else but a passenger. We got down to one passenger, 
and you.
    I hope all of you will be looking at it from the standpoint 
of the hub monopolistic control on the one hand, safety first 
before even that, but otherwise, what ultimately is the cost? I 
have a ticket right now, $279 to Frankfurt, Germany and back. 
If I go coach class with my wife, I get a Government rate, but 
my wife pays $700 and lots of times more, and you can get out 
there and the plane can be canceled if they do not have it 
filled up or otherwise. I do not know how they work.
    I am not just critical of USAir. It happens with all of the 
airlines. But in any event, I do think we do have an 
outstanding group here, and I am ready to vote for their 
confirmation.
    The Chairman. Thank you. Senator Hollings, my point is that 
we have just asked average citizens to pay an additional dollar 
and a half per ticket every time a plane takes off and lands. 
Meanwhile, on the same runway, takes off a corporate jet, some 
of the wealthiest people in America, who pay nothing.
    I do not argue with Senator Hollings' statement that--and I 
think it is correct about the high cost of airline tickets, but 
for us to ask average citizens to bear the cost--and those who 
are very wealthy in America that have corporate jets is a 
classic example of what the problems of this town are--because 
they have the clout and the average citizens do not, it is a 
classic example of the need for campaign finance reform.
    Senator Hollings. I vote aye on that.
    The Chairman. I thank the witnesses. I thank you for your 
willingness to serve. Ms. Branson, I would like to have for the 
record--I was glad that Senator Hollings would brief us on your 
experience, and would appreciate that to be submitted to the 
Committee.
    [The information referred to follows:]

  Debbie Dudley Branson's Response to Supplemental Question Posed by 
                            Hon. John McCain
    Pursuant to Chairman McCain's request, what follows is a listing of 
the litigation involving air travel in which our firm has been 
involved:
Pending Cases
Nancy Chu v. American Airlines, Inc. (AAA 1420)
Filed July 13, 1999 in Little Rock Arkansas, Eastern District/Western 
    Division
Cause #LR-C-99-495
Petition signed by Debbie D. Branson

    I have had many contacts with the client, with various witnesses 
and have been involved in the preparation for the court-ordered 
settlement conference. The settlement conference is scheduled for May 
23 in Little Rock and I will participate directly.
    The joint discovery regarding liability is being managed by Lead 
Counsel for the Plaintiff's Steering Committee as is typical in multi-
district litigation.
Resolved cases:
Doris Nix v. Delta, Inc. (Delta 1141)
Filed September 25, 1989 in 74th Judicial District Court, McLennan 
    County, Texas
Cause #89-3147-3
Settlement: 4/90 in the amount of $1,800,000

Edmon Fadal, Jr. v. Delta Airlines (Delta 1141)
Filed April 11, 1990 in 74th Judicial District Court, McLennan County, 
    Texas
Cause #89-2027-3
Settlement: 5/90 in the amount of $6,000,000

Helen Bare v. Delta Airlines (Delta 1141)
Filed July 24, 1990 in 95th Judicial District Court, Dallas County, 
    Texas
Cause #88-15161-D
Settlement: 8/90 in the amount of $2,600,000

Alicia Hayes v. Delta Airlines (Delta 1141)
Filed September 9, 1988 in 298th Judicial District Court, Dallas 
    County, Texas
Cause #88-11664
Settlement: $275,000

Pendleton Waugh v. Delta Airlines (Delta 1141)
Filed September 20, 1988 in 95th Judicial District Court, Dallas 
    County, Texas
Cause #88-12108
Settlement: $250,000

    Cockpit resource mismanagement was the basis of liability in the 
Delta cases. Case preparation involved a basic understanding of the 
following areas relating to the aviation industry:

<bullet> Steps involved in take-off, their practical functions and what 
    happened when proper procedures were not followed.

  <bullet> Command authority.
  <bullet> Sterile cockpit policy.
  <bullet> Use of checklists.
  <bullet> Failure to set aircraft flaps and slats in proper take-off 
        configuration.
  <bullet> Warning devices.
  <bullet> Cockpit voice recorders.
  <bullet> Lack of aileron control.
  <bullet> Use of full power upon activation of stick shaker.
  <bullet> Handling a compressor stall.

<bullet> FAA and Delta Safety Rules

  <bullet> Monthly flight standards line check reports.
  <bullet> Delta training program.
  <bullet> Delta maintenance program.
  <bullet> FAA safety audits.

    With regard to the cases against Delta Airlines, I participated in 
the work leading up to the settlement conferences as I indicated in my 
testimony before the Committee. Each of the cases was settled without 
trial. Had the cases been tried, I would have been directly responsible 
for portions of the trial work involved. Without retrieving the closed 
files and in relying on memory, my work included:

          1) Preparing witnesses for video testimony;
          2) Conducting several video interviews;
          3) May have directed community attitudinal survey regarding 
        range of damages;
          4) Preparing for depositions;
          5) Participating in strategy for settlement meetings;
          6) Participating in settlement conferences.

Myrna Golman v. Continental Airlines (CE 2574)
Filed October 11, 1991 in Judicial District Court, Harris County, Texas
Cause #9152669
Settlement: 4/92 in the amount of $3,000,000

    Improper maintenance/inspection procedures was the basis of 
liability in the Continental flight. Case preparation involved a basic 
understanding of the following areas relating to the aviation industry:

  <bullet> Horizontal stabilizer's leading edge.
  <bullet> Cockpit voice recorder.
  <bullet> Flight data recorder.
  <bullet> Flutter and structural integrity.
  <bullet> Aerodynamic loads.
  <bullet> FAA rules and regulations regarding inspections.

    My participation in the Continental case would have been very 
similar.

Keven Ferren v. The Cessna Aircraft Co.
Filed October 22, 1993 in 348th Judicial District Court, Tarrant 
    County, Texas
Cause #348-150843-93
Settlement: 4/94 in the amount of $500,000

    I don't believe I had any involvement in the Ferren case.
    To properly put this litigation and my involvement in perspective, 
it should be understood that our firm uses a trial team approach. 
Several people are involved in the preparation and trial of a lawsuit--
with each supplying particular expertise and/or experience. As noted on 
my CV, I focus on litigation strategy including the use of focus 
groups, attitudinal surveys, voir dire, witness preparation, argument 
and jury debriefing. We believe this approach increases the value of 
our representation to the clients we serve.
    In addition, I feel it is important to note that litigation is 
certainly one of the ways available to mandate increased safety. 
Further, I, as a lawyer involved in this litigation, offer a unique 
perspective, on a very real and human level, as to why increased safety 
is so important. It seems to me to be a common sense conclusion that it 
would be preferable to analyze changes to effect safety before 
devastation occurs, rather than after.
Lawsuits to be filed:
Karla Koen v. American Airlines, Inc. (AA 1420)
Samia Abdalla v. Egypt Air #990

    The Chairman. I thank you. This hearing is adjourned.
    [Whereupon, at 10:15 a.m., the Committee adjourned.]
                            A P P E N D I X

      Response to Written Questions Submitted by Hon. John McCain 
                             to Phil Boyer
Question. In your press release following the confirmation hearing for 
the Management Advisory Council nominations, you again misrepresented 
my position. Not once did you mention that my proposal is to impose 
user fees merely on corporate aircraft use of the air traffic control 
system, not its use by the entire general aviation population. Isn't it 
unfair and misleading at best to characterize the proposal as ``General 
Aviation user fees?'' What will you do to correct this 
misrepresentation in your contacts with AOPA members?

Answer. I regret the Chairman feels as though I have misrepresented his 
position. Our press release simply and briefly reiterated my position 
regarding user fees. The Chairman is well aware that AOPA primarily 
represents piston powered, propeller-driven aircraft and 25 percent of 
the piston powered fleet, comprising almost 54,000 aircraft, are 
classified by the official FAA registry as corporate aircraft. As I 
attempted to explain at the Hearing those who own corporate jets are 
only a small-subset of the AOPA membership and this group of companies, 
flight departments and manufacturers are the core of completely 
different associations in Washington, D.C. However, corporate aviation 
is part of the general aviation community and I will never play a part 
in any strategy designed to ``divide and conquer'' our community. AOPA 
opposes all aviation user fees including general aviation user fees.

Question. In your remarks at the nomination hearing, you stated that 
``. . . at the present time paying through the fuel tax is the best 
method for paying for access for general aviation aircraft.'' Given 
that fees for other sectors of aviation have gone up recently-including 
those charged the traveling public, which will pay for a hike in the 
passenger facility charge--do you believe that fuel taxes should be 
increased for corporate aircraft to reflect more accurately the 
corporate jets' use of the air traffic control system?

Answer. Congress, under heavy protest from the air transport industry, 
chose to increase airline taxes in 1997 despite warnings that such an 
increase, coupled with increased passenger demand, would once again 
trigger unspent balances in the Aviation Trust Fund. To suggest other 
segments of aviation should therefore also pay more is proving ``two 
wrongs make a right.''
    Even with passage of AIR-21 there is still over a $9.4 billion 
balance in the aviation trust fund. Those taxes were collected to run 
and improve the nation's air transportation system and until they are 
spent I do not feel there is any justification for increasing any 
excise taxes, including those paid by segments of general aviation. As 
you know, the Passenger Facility Charge (PFC) allows airports with 
commercial traffic to raise funds for targeted improvements. PFC 
revenues are not deposited into the trust fund and the airports taking 
advantage of those fees and the associated projects rarely, if ever, 
benefit general aviation. Similar to the tax increase of 1997, I do not 
think an increase in PFC's should be linked with the general aviation 
tax burden. In this regard AOPA, under my leadership, never felt PFC's 
were our issue. Therefore, we have never supported, commented on, been 
against legislation relative to their establishment, or increases.

Question. In your remarks at the nomination hearing, you stated that we 
came to agreement when an FAA reform bill approved by the Commerce 
Committee several years ago exempted recreational aviation (in contrast 
to corporate aviation) from the payment of proposed air traffic control 
user fees. If that is the case, I would appreciate your restating this 
position for the record, specifically your support for legislation 
exempting recreational aircraft from such user fees.

Answer. AOPA never came to agreement with the authors of S.1239 on the 
subject of user fees. Although I expressed my concerns to the Committee 
about the user fee approach throughout the legislative process, on 
November 8, 1995, in a letter to Commerce Committee Chairman Larry 
Pressler I stated:
    ``As the Senate Commerce Committee prepares to mark up legislation 
to reform the Federal Aviation Administration we want to re-emphasize 
our opposition to the substantial new user fees which would be imposed 
on the aviation industry under the reform legislation by Senators 
McCain, Ford and Hollings. . . . No segment of the aviation industry is 
exempt from the new training, licensing and regulatory fees imposed 
under the bill and this is the area which will have the greatest impact 
on our members . . . In fairness to the sponsors of the bill, the 
latest version of S.1239 offers an exemption from ATC user fees for 
``sport and recreation aircraft.'' But since 60 percent or more of our 
members use general aviation aircraft for business purposes some or all 
of the time, this exemption apparently would not apply to them.''
    There is no official FAA or DOT designation for ``sport and 
recreation aircraft,'' and the fear has been without using legal and 
technical designators, the legislation could be deemed to apply to the 
majority of general aviation operations. I learned through experience 
the importance of terminology and definitions in legislation. Just a 
few years ago, AOPA was assured the ``foreign overflight fee'' would 
not be levied on general aviation. However, when the FAA began to 
implement the fee they found they were unable to exempt general 
aviation because of the way the provision was drafted.

Question. How will you hold the FAA Administrator accountable for 
setting goals, and for meeting these goals?

Answer. The MAC's responsibility is to provide advice and counsel to 
the Administrator on issues affecting management, policy, funding, and 
regulatory matters. I would recommend the Council:

        1. Establish a strong communications network with the 
        Administrator;
        2. Review management plans when presented; monitor on a 
        quarterly basis;
        3. Review goals when presented; monitor on a quarterly basis;
        4. LProvide constructive feedback on plans, goals and 
        objectives on an ongoing basis;
        5. Revise plans and goals, if needed, annually.

Question. As you know, the law enables the Management Advisory Council 
to oversee FAA spending matters. The recently enacted FAA 
reauthorization bill significantly boosted FAA spending on airport 
grants. As a member of the Management Advisory Council, do you believe 
that it is important that the FAA establish and follow criteria for 
allocating discretionary grants according to safety and efficiency 
priorities?

Answer. I am both appreciative and grateful Congress has seen the need 
for significant increases in FAA's airport funding programs. However, 
the issue is often as much about getting the maximum return on the 
federal investment as it is the amount of money or formulas. The FAA 
already works from a priority system when issuing grants under the 
discretionary part of the Airport Improvement Program (AIP), albeit 
somewhat complex in nature. The existing system applies the national 
priority system developed by FAA and folds in a local or regional 
priority system as developed by state aviation organizations and local 
airports. The primary focus is on airport safety, security, and 
preserving/increasing airport capacity.
    While there have been boosted levels of funding in the AIP program, 
certain changes in formulas such as the doubling of airport 
entitlements and increases in state apportionment, will cause the 
discretionary funding level to increase at a much reduced rate.
    Additionally, when the FAA does apply the priority system--which 
may need to be reviewed to ensure the focus is appropriate--they also 
need to ensure the protection of the federal investment through 
enhanced and improved compliance oversight activities.

Question. Knowing what you do about the FAA today, what change would 
have to take place in the coming year for you to claim success as a 
member of the Management Advisory Council?

Answer. I believe FAA needs a clearer strategic path to solving present 
and anticipated airline and air traffic delays that are so important to 
the American traveling public. To accomplish this, FAA must use 
available technology in the safest and most cost effective way, devote 
targeted human resources towards the solutions to these problems, and 
articulate the Agency's progress to the MAC, Congress and the air 
transportation industry and passengers on a regular basis.

Question. The legislation that established the Management Advisory 
Council addressed certain duties specifically, such as reviewing the 
FAA rulemaking cost-benefit analysis and reviewing the agency's process 
for issuing Advisory Circulars. How do you expect the Council will 
decide what other issues to comment on, among the issues that fall 
within the category of management policy, spending, funding and 
regulatory matters before the Administrator?

Answer. Administrator Garvey has achieved a great deal of success at 
FAA through her use of consensus building with the aviation users. I 
have spent significant time at meetings such as the RTCA, internal FAA 
meetings, and industry coalitions, working through a variety of options 
and specific needs with a membership similar to the MAC to reach 
meaningful compromise on critical issues. I am confident Administrator 
Garvey will employ a similar consensus building process that should 
serve the MAC well.

Question. There have been many calls for privatizing FAA's air traffic 
control services and other countries, including NAVCANADA, have 
privatized. Such steps are controversial and should not be taken 
without considerable debate. However, given FAA's rising operations 
costs, what are your views on contracting out some FAA operations such 
as control towers. Oceanic services, or maintenance activities?

Answer. I think it is important to keep an open mind in hearing about 
the operational and safety benefits of different organizational 
structures. But, in my opinion, any air traffic control operations 
considered for contracting out would probably be limited to functions 
not directly tied into the huge and interlocking national air traffic 
control system. Certainly taxpayers deserve to have governmental costs 
minimized where possible. For example, the organization I head was 
supportive of contracting out level one towers. We have monitored the 
implementation of this program and found it is cost effective and 
safety has not been compromised. In general aviation there is no reason 
why certain services, for example developing instrument approaches, 
could not be handled more quickly and cheaply through contracts with 
the private sector.
    To date, history has shown there are many countries that have 
chosen to commercialize aspects of air traffic control. However, only 
one nation, Canada, has actually privatized its system. Even in that 
instance, critics say such a not-for-profit organization is not truly 
privatized. However, DOT Inspector General Ken Mead recently told the 
Senate Budget Committee, ``The experiences of NAV CANADA and other 
countries are instructive, but it is difficult to use their experiences 
as a conclusive point of reference because our air traffic control 
system is so much larger, diverse and complex.''

Question. I recognize that each of you was nominated to serve on the 
Management Advisory Council in part to share your unique perspective as 
the result of your employment in or around a certain sector of the 
aviation industry. Nevertheless, do you anticipate any circumstances in 
which you would have to recuse yourself from commenting on a particular 
FAA action because of a potential conflict? If so, please give me an 
example.

Answer. The size and diversity of the MAC membership provides for a 
wide range of backgrounds and opinions. At the present time I see no 
reason why my affiliations with AOPA or general aviation would cause me 
to recuse myself. I am sure the group itself is astute enough to demand 
such action, internally, should such a need arise.

Question. Can we expect you to take an active role in oversight of the 
FAA's management of and modernization of the air traffic control 
system, at least until the members of the Air Traffic Services 
Subcommittee are appointed?

Answer. Yes, if the MAC is granted that responsibility. Both AOPA and 
I, personally, have taken an active role over the past decade in 
assisting the FAA in all facets of air traffic control management and 
modernization. I have personally served on the MITRE Aviation Committee 
and as a member of the Administrator's internal management group on 
runway incursions. I would be pleased to extend my ongoing work in 
these areas to my service on the MAC.

Question. GAO and others have identified major shortcomings in several 
areas, including financial management, air traffic control 
modernization, safety oversight, and security of computers and 
facilities. How would you prioritize the issues on which the Council 
should focus its attention?

Answer. The safety and efficiency priorities should come before these, 
and many of the modernization and certification reform initiatives go 
hand in hand with safety and efficiency. Security seems to be a black 
hole in that there is never enough security to guarantee safety. 
Therefore, expenditure in this area must be carefully evaluated for 
real-world effectiveness and strike an appropriate balance with 
efficiency. In the area of financial management, there seems to be 
several key problems I experience in my work: 1) the program office 
people don't always get clear guidance from FAA upper management; 2) 
program office people do a poor job justifying their funding needs and 
identifying the true repercussions of partial funding; 3) many 
government policies and procedures prevent FAA from being more 
efficient and, therefore, need reform; and 4) FAA upper management 
doesn't always do the best job in communicating their needs to 
Congress.

Question. FAA's culture has been found to be a contributor to the 
problems with acquiring modernization systems on time, within budget, 
and that meet performance parameters. What ideas would you offer to 
create incentives to change FAA's culture?

Answer. FAA must operate with a business-like approach, with rewards 
for performance and accountability. That is possible within the 
government pay system. Two FAA programs that have adopted such a new 
approach successfully are theY2K initiative and Free Flight Phase One. 
In both instances, one ``owner'' was named and made totally responsible 
for the program. Y2K has already proven to be a success, and Free 
Flight Phase One is on track and will provide tangible benefits to the 
travelling public in the near future.

Question. FAA and many users have long called for allowing the agency 
greater flexibility in managing its operations and the National 
Airspace System. Acquisition and Personnel reforms were initial 
attempts at giving FAA this flexibility. How well do you feel the 
agency has done thus far in managing its reform efforts? What 
additional actions should be taken?

Answer. In February 1994, AOPA identified personnel and acquisition 
reforms as top priorities for successfully reforming the FAA. I was 
among the strongest supporters of the legislative provision that made 
it possible. However, I have been sorely disappointed by the FAA's slow 
and timid implementation of these powerful tools. While some progress 
has been made, the FAA is still a long way from realizing the kind of 
change that we had hoped for. In addition, there continues to be a lack 
of accountability that undermines the agency's effectiveness.

Question. What is your understanding as to the time commitment that 
will be required of members of the MAC? Do you have a sense as to how 
often the MAC will meet?

Answer. According to the FAA Reauthorization Act of 1996 (PL104-264), 
the MAC will meet on a regular and periodic basis, or at the call of 
the chairman or the Administrator. It is my sense that the MAC will 
meet on a quarterly basis, and perhaps more frequently if a situation 
arises that warrants extra meetings.

Question. Many observers agree that labor is the biggest cost driver at 
the FAA. Negotiations are underway with the FAA and a few of its 
employees' unions. Given your professional experience, how would you 
advise the Administrator to take a hard line, financially speaking, in 
these negotiations?

Answer. Many businesses, including aviation, are faced with union 
contract negotiations on an ongoing basis. There are companies and 
organizations which track and benchmark proper salary levels for 
specific skill sets. There is no reason why FAA management should not 
take advantage of this research in its negotiations. I would advise the 
Administrator to make use of these benchmark studies and other data in 
comparable fields. We are at a stage where technological change within 
aviation, just as it was when I worked in the TV industry, will require 
new ``work rules'' to increase productivity. In addition to changes in 
compensation, changing duties and work rules must be reflected and 
built into the contracts.

Question. Experienced observers have commented consistently on the 
negative consequences of the increasing number of non weather-related 
delays in the system. What recommendations for short-term improvements 
will you advance as a member of the Management Advisory Council?

Answer. Access to information is the key to access to the system. In 
other words, the FAA needs a central system database that is easily 
accessible by controllers, Flight Service Stations (FSS), and users. 
This system should be Internet based and should contain notices to 
airmen (NOTAM) information, Special Use Airspace (SUA) status 
information, sector demand/congestion information, etc. The current 
airspace structure is inefficient in part because users and service 
providers are not always able to take advantage of available airspace. 
Under utilization of airspace is a huge impediment to efficiency.
    I would recommend the accelerated implementation of more low 
altitude Area Navigation (RNAV) procedures to improve access. It would 
only require minor procedural changes and ATC software enhancements to 
make this kind of routing more common.
    I would also recommend the development of ``routes'' through 
existing SUA. For example, the Air Force and the FAA have just signed a 
Memorandum of Understanding that establishes a schedule for use of the 
Buckeye Military Operations Area (MOA) near Cincinnati Ohio. There will 
be two new Departure Procedures that cut through the MOA that will 
increase Air Traffic Control's ability to provide more efficient 
service to airports in the Cincinnati area. More cooperative efforts 
like this are needed.
    There also needs to be more user collaboration in the design of 
terminal airspace. Terminal airspace design by the user group process 
can expedite the design process and lead to improved airspace design 
which will lead to better access and efficiency.

Question. Modernizing the National Airspace System has not kept pace 
with the demand for air travel and FAA has a poor track record of 
managing the acquisition of major systems. Most believed that major 
problems were behind us and FAA talks of embracing a ``build a little, 
test a little'' philosophy. But now, two key systems, STARS and WAAS, 
are experiencing problems. What can the FAA do differently to speed up 
the modernization effort?

Answer. First, I would argue that neither STARS or WAAS are using the 
``build a little, test a little'' approach. Unfortunately, they are 
both being developed under the ``big bang'' approach in which they are 
trying to make the system operate perfectly before it is deployed. The 
FAA must involve system users in decisions early in the process. They 
need to insist on spiral development (build a little, test a little) 
with incremental milestones and specific pass/fail criteria at each 
milestone, and to establish realistic performance requirements based on 
experience. For example, 99.9999999% integrity is impractical if not 
impossible to achieve or at least prove and probably doesn't exist in 
any system design we are using today. Additionally, the FAA should 
focus implementation of proven systems to speed up modernization. For 
example, the Operational and Supportability Implementation System 
(OASIS) is a system to modernize flight service stations that has 
essentially been ``approved'' by the users and the flight service 
specialists, but for many valid and invalid reasons the FAA has been 
slow in deployment.

Question. Many believe that a root cause of FAA's problems in 
modernizing the National Airspace System is a lack of technical 
expertise. It is also believed that a small cadre of people with 
expertise could have a major impact. What is your view? How can the FAA 
enhance its overall expertise level?

Answer. The FAA has lost a lot of expertise to private industry due in 
part to pay scale, but mostly due to frustration with government 
process and bureaucracy. FAA has expertise in certain areas, but still 
does not fully understand airline or general aviation needs. FAA should 
do more to take full advantage of personnel reforms granted by 
Congress.
    The National Civil Aviation Review Commission and others have 
projected that there will be gridlock in the skies within the next few 
years if dramatic steps are not taken to improve the air traffic 
control system. Do you agree with this assessment? Please elaborate.
    As you may recall, the NCARC report included a graph which 
demonstrated that, given no changes to the air traffic control system, 
a rapid increase in airline delays will occur. The trend is startling 
when displayed alone, and it is the NCARC's principal reason for 
recommending radical, expensive changes. Unfortunately, this graph does 
not tell the whole story. The MITRE Corporation has identified ways in 
which currently available technology can dramatically reduce delays at 
relatively little cost and with little development or implementation 
time. The airlines acknowledge the utility of these programs for 
reducing projected delays--a fact the NCARC left out of its report. If 
the NCARC had seriously considered these alternatives, which are 
already beginning to be implemented, it might have come to a very 
different conclusion.

Question. Members of the Council represent disparate views. Recognizing 
this, how will members achieve consensus so that the advice given to 
the Administrator is in the best interest of aviation?

Answer. This question mirrors the question, and therefore my answer to 
Question 3.
    Administrator Garvey has achieved a great deal of success at FAA 
through her use of consensus building with the aviation users. I have 
spent significant time at meetings such as the RTCA, internal FAA 
meetings, and industry coalitions, working through a variety of options 
and specific needs with a membership similar to the MAC to reach 
meaningful compromise on critical issues. I am confident Administrator 
Garvey will employ a similar consensus building process that should 
serve the MAC well.

Question. FAA's operations costs have risen from $3.8 Billion in 1990 
to nearly $6 billion in FY 2000 and these figures continue to rise. By 
FY 2003, FAA projects its operations account will grow to over $7 
billion. These costs are made up primarily of salaries which are 
expected to increase further as FAA continues to negotiate new pay 
agreements with its various workforces. What should be done to control 
these costs?

Answer. We now have a very labor-intensive system, and so it is true 
those operations costs are rising steadily and are expected to increase 
further. This is due in large part to the increased use of air 
transport, which is also growing steadily. But by no means is the 
growth in air traffic proportionate to the growth in operations costs. 
These costs can and must be controlled in the future. Already, there 
are a substantial number of technological improvements that have been 
tested and can now be funded through AIR-21 that, if implemented, would 
reduce controller workload and thus increase productivity. My 
experience in the television business, which experienced a similar 
modernization with a labor-intensive workforce, suggests operations 
costs can be controlled and productivity increased while still 
enhancing safety.

Question. Currently, airlines pay for air traffic control services 
through the ticket and fuel taxes. Many other countries have 
transitioned to user fees. What are your views on user fees? How 
quickly can the U.S. move toward user fees for domestic air traffic 
control services? How should general aviation and smaller airlines be 
handled in such a regime?

Answer. The MAC and the Air Traffic Control Subcommittee will debate 
this issue, so all members must keep an open mind. However, for years, 
the organization I lead has opposed user fees as a primary revenue 
source for the FAA, even if general aviation were completely exempt 
from the fees. Under a user fee system, the revenues collected would go 
directly to the FAA, diminishing the participation of Congress in 
oversight of the FAA's budget. I feel that congressional oversight is 
vital in the successful operation of the FAA, and should be maximized 
not reduced through user fees. Also, user fee collection itself would 
add a huge new cost burden to the FAA because setting up a system of 
tracking and collecting fees for each service provided by FAA would be 
enormously expensive. At our request, the House Treasury Appropriations 
Subcommittee requested detailed information from the Internal Revenue 
Service (IRS) as to the exact costs of administering the current 
aviation excise tax system. I think the information provided by IRS is 
significant and cautionary in terms of establishing a fee based 
collection system. As you may know, Internal Revenue Code sections 4261 
and 4271 impose the taxes on air transportation. In FY96, less than 24 
full time equivalents (employees), costing the Internal Revenue Service 
approximately $1.7 million, certified collections of aviation 
transportation taxes. That's over $5.5 billion raised with $1.7 
million!
    I think any new funding system that replaces the excise taxes 
should not exceed this $1.7 million collection cost. However, I can say 
with confidence that user fees wouldn't come close. In fact, when the 
FAA first tried to implement the $75 million in user fees on foreign 
aircraft that fly over U.S-controlled territory, the agency said it 
would require $1 million a year alone to collect. Imagine translating 
that $75 million to $8 billion or more--the amount needed for a 100% 
user fee-funded system, and you get $160 million in collection costs, 
which is 100 times the cost of collecting the excise taxes. In Europe, 
simple user fees based on weight and mileage are charged on en route 
traffic. Yet even these relatively easy-to-calculate fees can cause 
six-month delays in billing.
    Additionally, the General Accounting Office reviewed the entire 
user fee issue several years ago (GAO/AIMD-98-11) and concluded: 
``Increased reliance on fee collections as an agency's primary source 
of funding has implications for federal budgeting and management that 
may call for a reexamination of the basic principles as well as the 
actual practices underlying the treatment of fees. Offsetting can 
inhibit congressional tradeoffs based on the relative merits of 
programs and can obscure the amount of spending for fee reliant 
agencies.''

Question. The recently enacted FAA reauthorization bill established a 
pilot program that would allow the industry to cost-share with the FAA 
on discrete air traffic modernization projects. Do you think this 
program will help bring good technologies on-line more quickly?

Answer. Yes. Furthermore, it may provide the basis for technological 
innovation on both a national and worldwide basis. However, a balance 
must be struck to ensure modernization occurs in all communities, not 
just the communities with the resources to take advantage of this 
program.

Question. The U.S. air transportation system has an excellent safety 
record but more needs to be done. The key to improving safety while 
accommodating increased demand is being proactive. FAA must be 
proactive. How can FAA be more proactive in identifying safety concerns 
before they result in accidents?

Answer. The FAA is being very proactive in the General Aviation (GA) 
arena. Just recently, the FAA announced a supplement guide to the FAA 
Airworthiness Directives (AD) Policy Handbook, which was developed with 
the considerable input from AOPA. This supplement allows the various 
aircraft and pilot organizations/clubs (who represent the real users) 
the opportunity to provide the FAA with meaningful engineering and risk 
assessment data on airworthiness concerns not available under the 
current FAA policy of AD issuance. This ``AD Coordination Process,'' as 
allowed by this supplement guide, will provide the FAA with a 
significantly higher degree of airworthiness data and technical 
expertise currently unavailable within the FAA. The current excellent 
level of safety of the GA fleet is expected to be maintained and 
improved even further as the average age of the GA fleet slowly 
increases over the next few years through this new User-FAA 
collaboration.
    One of the biggest safety issues to receive much attention is 
runway incursions. The Air Safety Foundation has advocated for changes 
to procedures that could reduce runway incursions for the last 5 years 
with little change in FAA policy. In fact, there have been 4 or 5 
runway incursion managers within the last 3 years! Each time a new one 
comes in, they start to create an ``action plan.'' Obviously, FAA 
should take industry consensus recommendations and move forward with 
them rather than spending years developing an ``action plan.''
    As mentioned above, use comparative risk analysis instead of 
holistic safety analysis.
    Stop with the 99.9999999%-type certification requirements for 
avionics/ground system certification when pilot and aircraft 
performance is less than 99.9%. Then, quit worrying about protecting 
negligent pilots from themselves.
    Approve the use (or at least not prohibit the use) of new 
uncertified technology for use in aircraft. Examples: withhold 
information from pilots using uncertified equipment for fear they will 
intentionally misuse it, e.g. approach procedures in Global Positioning 
Sysytem/moving maps (GPS) for situational awareness restrict non-
precision approaches for VFR GPSs and precision approaches (localizer-
type) for IFR GPSs), the provision of high resolution weather graphics 
to cockpit for hazardous weather avoidance, the uplink of ATC radar-
derived traffic information to aircraft for enhanced see and avoid 
(known as Traffic Information Services-Broadcast), etc.

Question. If confirmed, is there a particular FAA function or activity 
that you will focus your attention on?

Answer. While there are a myriad of issues to be addressed by the MAC--
the one overriding issue no one can lose focus on is SAFETY.
                                 ______
                                 
 Response to Written Follow-up Questions Submitted by Hon. John McCain 
                            to Philip Boyer
Question. In your response to my post-hearing question regarding my 
position on user fees, you imply that you did not misrepresent my 
position on user fees. But the AOPA press release is misleading on its 
face. It says, ``McCain pushed the user fees proposal.'' Nowhere does 
it clarify that I was not referring to the vast majority of AOPA 
members, who do not own corporate jets. This is obviously critical to 
our exchange at the hearing and left many of your members with the 
clear impression that I want to impose air traffic control (ATC) user 
fees on piston-powered, propeller-driven general aviation (GA) 
aircraft, which has never been the case.
    The AOPA press release also said that I questioned your 
qualifications for the MAC because of AOPA's continued opposition to 
user fees. This is another misrepresentation. As the record indicates, 
I questioned your qualifications because you believe that corporate 
jets should not pay any additional fees for using more and more of the 
ATC system. That fact that soon after the hearing I began receiving 
letters from AOPA members decrying my attempt to impose ATC fees on the 
average GA aircraft is ample evidence that you have kept them in the 
dark as to key aspects of my views.
    These are just two examples of how you continue to misrepresent my 
position on these matters. Others in the aviation community, including 
many who don't support user fees, agree that my position has been 
distorted.
    So I ask once again what will you do to correct the 
misrepresentations of my positions in your contacts with AOPA members?

Answer. Again, I do take very seriously your concern that my press 
statement after the MAC confirmation hearing was somehow misleading. 
After once again carefully reviewing the transcript of our discussion, 
provided by your staff, I still do not believe any such 
misrepresentation took place. You first specifically asked me if 
``corporate aircraft'' should pay user fees. As I explained in my 
previous set of answers, the corporate fleet contains at least 25 
percent (54,000) propeller driven, piston powered aircraft. Those are 
my members and I do not believe they should pay user fees. Later in our 
discussion you asked if ``corporate jets'' should pay user fees. Again, 
as I mentioned in my previous set of answers, those who own corporate 
jets are only a small-subset of the AOPA membership and this group of 
companies, flight departments and manufacturers are the core of 
completely different associations in Washington, D.C. However, 
corporate aviation is part of the general aviation community and I will 
never play a part in any strategy designed to ``divide and conquer'' 
our community.
    No pilot has contacted me personally subsequent to receiving a 
response from your staff indicating I somehow misled them with my press 
statement. Perhaps this May 8th exchange between the editor of Avweb 
and a reader illuminates the general aviation community's feelings on 
this matter:
    ``I called Sen McCain's office to ask about the user-fee thing that 
AVweb reported about this week. You might want to call his office 
directly and clarify his stand because what I got from your report was 
different from what I got when I called his office . . . although maybe 
Boyer and McCain did have the energetic exchange in that meeting :-).
    Scott (from McCain's office) said that the Senator has always been 
against user fees for GA. What they were trying to do was to capture 
the CEO's flying in Lear jets so that they'd pay the same kind of user 
fees that normal transport passengers already pay in the form of 
`facility fees.' The charter jets evidently don't pay those fees now.
    I agreed with his goal, but pointed out the difficulty of designing 
a net to capture these guys but not capture GA pilots. It sounds a lot 
like the dolphin-safe tuna nets that the fishermen are supposed to use 
now.
AVweb responds . . .
    Paul, there's no clash here. Almost everyone who supports fees-for-
service claims that they're opposed to charging those fees to low-end 
GA aircraft . . . but they do want to sock it to the fat-cat corporate 
operators. The problem is: Where do you draw the line, and how can you 
be sure that the line won't be moved? Am I and my Cessna T310R 
considered to be an exempt flib or a sock-it-to-'em business aircraft? 
Is a CitationJet to be charged but a King Air F90 exempt? This is why 
opponents of fees-for-service (like AOPA's Boyer) are dead set against 
allowing this concept to get any foot-in-the-door whatsoever.
    I use the term ``fees-for-service'' rather than ``user fees'' 
because the current fuel taxes are certainly user fees, but unlike 
fees-for-service, they do not threaten safety by providing operators an 
incentive to pass up needed services (e.g., weather briefings from FSS 
or IFR services from ATC).
    Those of Sen. McCain's persuasion argue (with good logic) what 
while an Aeronca pilot might pass up a needed weather briefing if a fee 
was involved, a Gulfstream V pilot clearly would not. The problem, once 
again, is where do you draw the line, and how do you make sure that the 
line doesn't move?''

Question. In response to a post-hearing question regarding our coming 
to an agreement that recreational aircraft should be exempted from ATC 
user fees, you state that AOPA never came to an agreement with the 
authors of S. 1239 on the subject of user fees. At the hearing you 
explicitly said that ``we came to an agreement'' on carving out sport 
and recreational aviation from the imposition of ATC user fees. How 
does that comport with your answer to the post-hearing question? Is 
this a mistruth or did you misstate yourself before the Committee?

Answer. I apologize if my answer was unclear. I was simply trying to 
note that in my letters to the Commerce Committee of November 8, 1995 
and August 2, 1996, AOPA acknowledged the Committee's eventual attempt 
to exempt some elements of general aviation from paying ATC user fees. 
As you see in the next question, clearly I disagreed with the 
Committee's proposed language and indeed the underlying philosophy 
surrounding the need for user fees at all.

Question. In further response to the same question, you state that 
neither the FAA nor DOT have a designation for ``sports and recreation 
aircraft,'' and you feared that the legislation could be deemed to 
apply to the majority of general aviation operations. You also state 
that 60 percent of AOPA members use GA aircraft for business purposes 
at one time or another, so the exemption from ATC fees for recreational 
aircraft might not apply to them. But S.1239, as approved by the 
Commerce Committee, explicitly exempts ``reciprocating piston engine 
aircraft not used to provide air carrier service.'' Unless you are 
telling the Committee that the majority of GA aircraft operators are 
part time ``air carriers,'' which is defined by the FAA and DOT, your 
analysis appears to be off base. If you honestly believed that the 
language was imprecise, but understood the clear intent of the 
supporters of the legislation, why didn't you try to work with the 
authors to craft language that would meet the mutual goal of exempting 
the vast majority of GA operators? Is it really your position that 
precise and accurate language cannot be drafted under any circumstance?

Answer. Senator, I think we need to look at this issue in both general 
and specific terms. Generally, throughout 1995 and 1996 AOPA advocated 
a number of legislative changes to improve FAA efficiency--including 
creation of an advisory group which I am pleased to say became the FAA 
Management Advisory Council. However, we never supported the concept of 
user fees. Our correspondence with the Senate Commerce Committee 
through the summer and fall of 1995 disputed the need for user fees not 
only on general aviation in particular but the need for them at all. 
Other issues aside, with billions of dollars unspent in the Aviation 
Trust Fund and the Congress contemplating broad tax cut legislation we 
simply did not believe increasing aviation taxes passed what we liked 
to call the ``town meeting test.'' That's why AOPA supported the 
alternative approach developed by Senator Stevens.
    Specifically, I do not believe it is fair to categorize our 
opposition to S.1239 as a misunderstanding of the clear intent of the 
supporters of the legislation. We understood its purpose quite well. In 
a November 8, 1995 letter to the Senate Commerce Committee we stated: 
``No segment of the aviation industry is exempt from the new training, 
licensing and regulatory fees imposed under the bill and this is the 
area which will have the greatest impact on our members. These are 
services for which our members already pay substantial sums to 
designated individuals to whom FAA has delegated authority to perform 
services on its behalf. The fees under S.1239 are in addition to the 
amounts our members are already required to pay and they represent a 
tax increase pure and simple.''
    But whether or not the definition of ``sport and recreation 
aircraft'' could have been further refined to definitively protect the 
60 percent of pilots who fly occasionally on business--it wasn't--and 
misses our primary point. S.1239 was never modified to address our main 
concern, the user fee regime and its specific new training, licensing 
and regulatory tax increases on all pilots.

Question. In responding to my post-hearing question regarding what it 
would take for you to claim a successful year as a member of the MAC, 
you said that the FAA needs a clearer strategic path to solving ATC 
delays. Would you please provide details on what you believe this path 
should entail?

Answer. I believe the best course of action would entail initially 
segmenting and prioritizing each type of delay. As a next step we 
should pick off the ``low hanging fruit'' of delay categories that can 
be quickly addressed. In the long term we should then build into 
technology (both new and ongoing) solutions to address the more 
difficult categories on the list. Throughout the process it would be my 
hope we could continue in the industry consensus manner that 
Administrator Garvey has made a mainstay of her management.

Question. One of my post-hearing questions to you concerned the issue 
of contracting out some FAA operations, such as control towers, oceanic 
services or maintenance activities.
    Please comment specifically on the proposals to contract out 
oceanic services or maintenance activities.

Answer. Although we understood the rationale, general aviation was 
vitally concerned when level one towers were made contract facilities. 
We watched the process, monitored our membership's feedback and I am 
pleased to say we saw no significant changes at these facilities. 
However, extension of this program to other types of facilities such as 
approach and departure control or centers does pose concerns to us and 
others in the aviation community.
    As our membership rarely uses oceanic services or interfaces with 
FAA on maintenance issues, I would need to undertake some further 
research in order to comment. However, the balance of aviation 
viewpoints provided by President Clinton's MAC nominees would serve us 
well in this regard. For example, Bob Baker of American Airlines may 
have little personal knowledge concerning the contracting out of level 
one towers, but his expertise on contracting out oceanic services would 
be invaluable.

Question. You responded that there is no reason why certain services 
for GA (such as instrument approaches) could not be handled more 
quickly and cheaply through contracts with the private sector. What 
have you or AOPA done to advance this idea?

Answer. We have strongly advocated contracting out development of 
instrument approaches, particularly GPS approaches, to both FAA and the 
House/Senate Appropriations Committees.

Question. I was not entirely clear on the part of your response that 
said that ATC operations for contracting out would probably be limited 
to functions not directly tied to the huge and interlocking national 
ATC system. Please clarify and elaborate.

Answer. Air traffic control is a national system with no competition. 
Although there are economies of scale in shared services like 
communications, in my opinion these do not lend themselves to outside 
contractors handling only a portion of the task. On the other hand, my 
earlier comments about opportunities were in full consideration of the 
non-interlocking elements of FAA operations that could be candidates 
for contracting out.

Question. Another one of my post-hearing questions concerned major 
shortcomings of the FAA and how you would prioritize the issues on 
which the MAC should focus. You responded by identifying several key 
problems from your point of view. Given the problems you've identified, 
please comment specifically on how you would advise the FAA to fix 
them.

Answer. The position on the Management Advisory Council is advisory in 
nature, acting collectively as a broad based board of directors. We 
were not nominated to manage the agency on a day to day basis offering 
direction on a one-on-one basis to FAA management. This is a more 
appropriate question were I to be nominated as FAA Administrator.

Question. In response to one post-hearing question, you stated that the 
FAA must operate with a business-like approach, then you identified a 
couple of examples where this has happened within the agency. Please 
identify other areas within the FAA where this approach could be 
applied. Other than rewards for performances and accountability, what 
specific aspects of private sector enterprises can be applied to the 
FAA? Can the FAA's culture be changed for the better in other ways?

Answer. Although the private sector operates in a variety of manners, 
all successful management structures have a certain common framework. 
At AOPA performance and accountability operate under the SMACTO 
guidelines: Specific, Measurable, Achievable, Compatible (with the 
mission and responsibility of the manager), Timebound and making a 
specific individual the Owner.

Question. In response to one of my post-hearing questions, you 
indicated that you have been disappointed by the FAA's slow and timid 
implementation of personnel and procurement reform. What must the FAA 
do with these ``powerful tools'' in order to realize the kind of change 
that had been hoped for? Also, what must the FAA do to take more full 
advantage of personnel reform in order to enhance the agency's level of 
technical expertise?

Answer. The House Aviation Subcommittee held a hearing recently on Wide 
Area Augmentation (WAAS) delays and cost overruns. At that time, GAO 
testified that ``software development--the most critical key of FAA 
modernization programs--has been the Achilles' heel of FAA's efforts to 
deliver programs on time and within budget.'' GAO further noted that, 
with respect to WAAS goals, FAA has a lack of in-house technical 
experts, as well as team attention to other important issues such as 
system design.
    I agree with GAO's assessment. I believe that had FAA implemented 
the personnel and procurement reform granted them by Congress, WAAS 
would be delivered on time and without the extraordinary contract burn 
rate (estimated to be about $4 million a month) we are facing now. FAA 
should have hired a team of in-house software developers, and procured 
the tools needed for system design, development, and monitoring.

Question. One of my post-hearing questions asked you whether you agree 
with the assessment that there will be gridlock in the skies within the 
next few years if dramatic steps are not taken to improve the ATC 
system. You response proceeded to criticize the NCARC, but did not 
really address the underlying question. Although MITRE and others have 
concluded that technologies exist that may help in the short run, I am 
not aware of anyone who seriously believes that these technologies will 
solve the problem of how to handle fully the increased ATC load 
projected by every reasonable forecast. Do you, or do you not, believe 
that gridlock will occur without dramatic steps? If not, please explain 
in detail how the technologies to which you refer negate the gridlock 
assessment.

Answer. Yes, I did criticize the National Civil Aviation Review 
Commission's report; they left out critical assessments made by the 
MITRE Corporation, and supported by the airlines, detailing ways in 
which currently available technology can dramatically reduce delays 
without costing billions or incurring cost overruns. In direct response 
to your question though, I do not believe that the gridlock will occur 
in the skies--the FAA will continue to separate and move aircraft--
rather, the ``choke point'' will be the airports. Currently, 
approximately 75 percent of commercial flights operate out of just 30 
airports. While the amount of available airspace surrounding these 
airports is great and capable of supporting more traffic, it is 
unlikely a runway will ever be used by more than one aircraft at any 
given time. We must see a continued dedication to building new runways 
and gates and other infrastructure--FAIR 21 is a move in the right 
direction.

Question. With respect to the FAA's increasing operating costs, you 
responded to a post-hearing question by stating that these costs can 
and must be controlled in the future. You cite your experience in the 
television business and conclude that operations costs can be 
controlled and productivity increased while still enhancing safety. 
Please provide the Committee with specifics in this regard.

Answer. Obviously, as with the most recent controller contract, 
changing work rules to take advantage of technology without 
compromising safety will be vital. For example, 25-35 percent of a 
controller's time is devoted to directing frequency changes. Therefore, 
the CPDLC automating this process frees up controllers for other 
duties. If the aircraft does not change frequencies it will be evident 
on the controller's monitor and can be corrected through follow-up 
voice communication. Hence, safety is maintained while productivity is 
increased.

Question. What will the MAC do (i.e., how will it advise the 
Administrator) if it can not reach consensus on an important issue?

Answer. Just as you do, I would recommend submitting majority and 
minority views to give the Administrator the benefit of all views on 
the matter.
                                 ______
                                 
      Response to Second Written Follow-up Questions Submitted by 
                    Hon. John McCain to Philip Boyer
Question 1. In your response to two sets of post-hearing questions, you 
essentially deny that you misrepresent my views to your members. 
Unfortunately, my previous examples of your misrepresentations did not 
seem to get my point across. Therefore, I will provide a few more 
illustrations. With respect to the continuing misrepresentations of my 
views on ATC user fees, I will quote the AOPA website to demonstrate my 
point: After the MAC nomination hearing on May 5, the AOPA website 
stated:
    In a terse exchange, McCain pushed the user fee proposal. Boyer 
answered that the Aviation trust fund should be funded by the taxes 
that pilots and aircraft owners pay when they purchase aviation fuel.
    McCain then asked MAC nominees representing the airlines and pilot 
unions if they were for user fees. Both supported a ``performance 
based'' system that would charge a user fee every time an aircraft used 
ATC services.
    Because of AOPA's continued opposition to user fees, McCain then 
told Boyer, ``I seriously question your qualifications for this 
council.''
    I am not asking that you or your members agree with me on the issue 
of user fees. My reasonable expectation is that you properly 
characterize my position on important issues like ATC user fees. As 
I've stated before, nowhere does this new release clarify that I was 
referring only to corporate jets. Furthermore, by mentioning a system 
that charges a user fee every time an aircraft uses ATC services, the 
statement wrongly implies that I support user fees on all GA aircraft. 
In the context of my views and the discussion at the hearing, your 
failure to clarify that I do not support ATC user fees for all GA 
aircraft is a critical omission in an important public policy debate. I 
also must clarify, as you should with your members, that I questioned 
your qualifications because you believe that corporate jets should not 
pay an additional fees for use of the ATC system when airline 
passengers have recently had additional fees imposed on them, not 
because of your opposition to ATC user fees for all GA aircraft, as 
implied by the news release.
    Ironically, your response to an initial follow-up question proves 
my point that your members are misled by the type of statements that 
you make. It appears that the AVweb report the reader was referring to 
was based almost entirely upon the AOPA news release quoted above. That 
reader correctly realized that the report needed clarifying after he 
took the time to inquire about my actual position on user fees. The 
reaction of that person is unfortunately typical of far too many in the 
GA community. Since the hearing, I have received many phone calls, 
letters, and e-mails asking me why I want to impose user fees on GA 
aircraft. Most everyone is amazed to learn that I have only been 
concerned with corporate jets.
    I think that it is the responsibility of the head of an 
organization such as AOPA to fully inform its members when it comes to 
an important aviation policy matter. To be a productive participant on 
the MAC, a person must be able to consider even unpopular issues in an 
honest and fair fashion.
    In closing, there is an additional example of your 
misrepresentation that should be noted. As of September 15, the 
following statement appeared on the AOPA website:
    ``Boyer asked [McCain] for a ``timely disposition'' of his 
nomination. Sen. McCain never responded.'' This statement is false on 
its face as well as misleading. In the letter being referred to you 
stated, ``A timely disposition by the Committee on my status will serve 
to end the press speculation, misinformation, and unsolicited AOPA 
member reaction to this situation.'' This is a statement of your 
opinion. Nowhere in your letter is a question or request specifically 
posed to me. Regrettably, this is typical of the way you and AOPA 
portray my actions and positions.
    For the third time, what will you do to correct the 
misrepresentations of my positions in your contacts with members of 
AOPA?

Answer. Mr. Chairman, I regret that you feel that I have misrepresented 
your beliefs on user fees regarding general aviation. I have 
acknowledged publicly and in print that our difference in opinion on 
user fees turns on the understanding of corporate aircraft. It is also 
my understanding that you feel that some segments of general aviation, 
specifically jets registered under corporate papers, do not pay ``their 
fair share.'' You used the term corporate aircraft interchangeably with 
the term corporate jet in the nominations hearing, which is why AOPA's 
news release did not state that you support user fees only for 
corporate jets, rather than for all corporate aircraft.
    It is my understanding that you are advocating user fees primarily 
for corporate entities because you believe that there is a disparity 
between the services received and the taxes paid by these aircraft, 
especially in comparison to commercial airliners. I disagree with you 
on the matter of user fees for any part of the general aviation 
community. General aviation, defined as non-commercial and non-military 
aviation, is comprised of aircraft ranging from one-seat single engine 
piston aircraft to long-range jets. The gamut of general aviation pays 
taxes into the Aviation Trust Fund via a fuel tax of 17.5 cents per 
gallon versus commercial aviation which pay taxes into the Trust Fund 
via a fuel tax of 4.5 cents per gallon and through the collection of an 
8% ticket tax and a segment tax from passengers.
    Neither AOPA nor I misrepresented your statements in the press. 
Corporate aircraft is a broad category. Many members of the Aircraft 
Owners and Pilots Association who fly small piston-engine aircraft for 
personal and business reasons have registered their aircraft under a 
corporate name. In fact, some 25% of U.S. propeller-driven, piston-
powered aircraft (approximately 54,000 small General Aviation aircraft) 
are registered as corporate aircraft. The fact of the matter is that 
general aviation is a varied body politic and I believe that its 
interests are collectively at odds with user fees. So although you may 
believe that one segment of the general aviation community should be 
subject to user fees, as a leader in the general aviation community, I 
respectfully disagree with you.
    In terms of correcting what you regard as a misrepresentation of 
your stance on user fees for general aviation, I feel that I have been 
both specific and fair in representing our individual philosophies. I 
regret that you are unsatisfied with ``the misrepresentations of [your] 
positions in [my] contacts with members of AOPA,'' and remain unsure on 
how to resolve our differences. Perhaps you have some suggestions on 
how we may breach our current impasse. I welcome your suggestions.
    As you noted in the most recent set of questions which I aspire to 
answer definitively, it is my opinion that a timely disposition by the 
Committee on my status will serve to end the press speculation, 
misinformation, and unsolicited pilot reaction to this situation. If 
you do not intend to allow my nomination to move out of the Committee 
as you were recently quoted as saying in Aviation Daily, please do the 
members of AOPA and myself the courtesy of saying so in an official 
response.

Question 2. One of my follow-up post-hearing questions asked how you 
would advise the FAA to fix major shortcomings of the agency that you 
had identified in your answer to one of my original post-hearing 
questions. You stated that the MAC nominees ``were not nominated to 
manage the agency on a day to day basis offering direction on a one-on-
one basis to FAA management.'' My question, however, focused on what 
advice you would give to the FAA to fix problems that you identified 
specifically. That is precisely the type of activity Congress expects 
the members of the MAC to engage in. As stated in the enabling 
legislation, ``With respect to Administration management, policy, 
spending, funding, and regulatory matters effecting the aviation 
industry, the Council may submit comments, recommended modifications, 
and dissenting views'' 49 U.S.C. 106(p) (1) (Emphasis added). 
Therefore, I ask you again, please comment specifically on how you 
would advise the FAA to fix the key problems you identified in a 
response to an initial post-hearing question.

Answer. I appreciate the opportunity to share my advice on how the FAA 
should address its shortcomings. Like the Department of Transportation 
Inspector General Ken Mead, I believe that further modernization and 
subsequent strengthening of the aviation system are dependent upon the 
FAA ``control[ling] its operating costs, do[ing] a better job of 
negotiating contracts for large software intensive efforts that include 
appropriate measures to withhold payments if progress is not 
satisfactory, and implement a sound accounting system.'' I also believe 
that the FAA should continue to move towards full implementation of the 
management reforms that have been granted by Congress. My 
recommendation for the FAA is to continue to work towards 
implementation of these principles. I believe that the Management 
Advisory Committee will be very helpful to the FAA in developing 
strategies to meet these goals, especially those members with corporate 
experience.

Question 3. In response to a follow-up post-hearing question, you 
stated you believe that gridlock will not occur in the skies--rather, 
the ``choke points'' will be the airports. I agree that airport 
infrastructure is a part of the congestion and delay problems. However, 
building runways and airports takes significant amounts of time, and 
space for such development is limited or nonexistent in many areas. As 
the DOT Inspector General recently testified, there are 15 new runways 
either proposed or under construction at the 29 largest airports, most 
of which will not be opened for another three to seven years. 
Furthermore, local communities are primarily responsible for the 
construction of new airports and runways, and they must confront ``not 
in my backyard'' attitudes and environmental restrictions.

<bullet> Do you still maintain that more airport infrastructure and 
currently available technology will fully address the problems 
associated with congested airways in the future? If not, what changes 
to you advocate'?

    Answer. I appreciate the opportunity to address this issue. While 
more airport infrastructure and employment of currently available 
technology are critical to addressing the congested airways, if there 
are no airspace and procedural changes, current and future technologies 
will not be fully utilized. The FAA needs to take a more systematic 
approach to airspace and air traffic management. While the system is 
made up of interdependent elements it often operates as if these 
elements are independent of one another and the result is unforeseen 
congestion and delay. Fundamentally, the National Air Space must be 
more flexible in order to leverage new technologies and improve 
efficiency.
    Increased flexibility will require a combination of procedural 
solutions and automated capabilities. As new technologies provide 
controllers and pilots with enhanced information and capabilities, 
current system restrictions should be eliminated. A redesign of the 
airspace should be completed with emphasis on preparing the airspace 
for the full implementation of Free Flight and advanced navigational 
systems. One of the limiting factors in the NAS today is ground-based 
navigational system (Victor-jet routes and their associated 
infrastructure) which cause constraints to users. More direct routes 
are possible using present-day FMS or GPS systems combined with RNAV 
procedures.
    The following principles should be applied to the NAS airspace 
redesign to support free flight:

  <bullet> airspace design should be flexible and dynamic as it is 
        accommodating dynamic, rather than static, situations. A more 
        flexible system should have greater capability for handling 
        ``unusual situations.''

  <bullet> the goal of the airspace redesign should be to separate 
        aircraft from aircraft rather than separating aircraft from 
        airspace.

    Regarding the Terminal airspace environment: the following 
procedural and airspace changes would leverage new technology to 
improve capacity:

  <bullet> improved precision instrument approach capability. RNAV 
        vertical guidance capability should be utilized as much as 
        possible for qualifying airports. Additional precision 
        approaches at satellite airports in major metropolitan areas 
        would make them more accessible during low instrument weather 
        conditions.

  <bullet> IFR and VFR transition routes in terminal areas. Controller 
        workload often limits access to terminal airspace, especially 
        terminal with Class B airspace. Defined transition routes that 
        are clear of major arrival and departure traffic flows could 
        improve access for transiting flights by reducing controller 
        workload. Transition routes for VFR flights have been 
        implemented successfully in several Class B terminal areas. 
        This technique should be implemented at other locations.

  <bullet> increased use of VFR flyways. VFR flyways and corridors 
        allow non-controlled flights to traverse large, complex 
        terminal areas without having to make lengthy deviations around 
        the Class B airspace. Use of flyways should be expanded to more 
        Class B locations.

  <bullet> increased access to unused terminal airspace as traffic 
        allows: At certain locations large portions of the Class B and 
        C airspace are unused by ATC depending on the runways in use 
        and the direction of the major arrival and departure flows. 
        These locations should be evaluated for procedures that would 
        allow use of this airspace by uncontrolled traffic.

  <bullet> redesign Class B and C airspace to be aligned with arrival/
        departure flows. The current circular-based design of Class B 
        and C airspace is inefficient and portions are underutilized. 
        The airspace should be redesigned based on the major traffic 
        flow patterns, which would provide more efficient utilization 
        and greater access for general aviation.

  <bullet> continue to implement RNAV approaches at general aviation 
        airports and non-hub airports. Additional access to general 
        aviation airports during instrument meteorological conditions 
        provides greater return on investment in aircraft and 
        equipment. Lack of precision and non-precision instrument 
        approach capability hinders access to many general aviation 
        airports and RNAV approaches can provide this access without 
        the expense of installing an ILS.

  <bullet> implement dynamic Class B airspace. ``Flexible'' terminal 
        airspace boundaries would enhance capacity. Dynamic, rather 
        than permanent boundaries could serve the flying community more 
        efficiently. For example, the current DFW Class B airspace 
        configuration which is based upon operations using both a South 
        and North flow. With winds generally from the South and only 
        occasionally (15% of the time) from the North, this results in 
        the unnecessary blocking of airspace. If the boundaries were 
        flexible, more equitable use of the airspace could be realized.

  <bullet> reevaluation of procedures and flows prior to redesign of 
        airspace. Reevaluation of the efficiency of current procedures 
        and their accommodation of current and future traffic could 
        occur.

    In the Enroute Airspace Environment, the following procedural and 
airspace changes would leverage new technology to improve capacity:

  <bullet> development of routes and procedures that support IFR and 
        VFR operations through the NAS. This would include an RNAV 
        waypoint structure to enhance IFR point-to-point navigational 
        capability as traffic conditions allow.

  <bullet> Redesign airspace so all flights are at their optimal 
        altitudes. Through the use of advanced navigational 
        capabilities it will be possible to fly conflict--free 
        optimized routes. Additionally, the implementation of advanced 
        navigational capabilities and new surveillance technologies 
        will facilitate the establishment of a Required Navigational 
        Performance (RNP) air traffic environment and the creation of 
        procedures allowing simultaneous operations (approaches and 
        departures) in constrained environments, such as closely-spaced 
        runways or airports. Traffic flows should be analyzed to how 
        well they will provide benefits and efficiencies to the user as 
        well as reduce controller workload. Procedures should be 
        established for entering and leaving the enroute domain that 
        permit optimized climb and descent trajectories.

  <bullet> reexamine center concept. We could improve efficiency by 
        reducing the number of Air Route Traffic Control Centers. Doing 
        so would improve efficiency by reducing coordination across 
        sector boundaries and it would also reduce the amount of 
        facility ``parochialism'' that exists in today's air traffic 
        system. Many users advocated a reduction in the number or 
        ARTCCs. It should have the secondary effect of reducing the 
        need for static restrictions to manage the coordination.

  <bullet> reexamine sector concept. In addition to reducing the number 
        of centers, a reduction of the number of sectors at upper 
        altitudes is also advised. Sectors might not be needed in their 
        current form as technology changes the way air traffic control 
        is provided. There should be some consideration of flexible 
        sector definitions or flexible ATC parameters. Sectors could be 
        combined or separated and realigned as demand dictates.

<bullet> What constitutes a ``dramatic'' reduction in delays to you?

Answer. There are always going to be ``system'' delays, and with more 
dramatic weather phenomena patterns evolving there will never be a time 
when delays are non-existent. I'd say that the dramatic reduction would 
depend largely on creative strategies of the airlines and their choices 
about the airports and runways they will use along with the 
technologies they support and equip with. Investing in both will 
probably bring delays to a tolerable level, but there are too many 
factors that can create delays to dramatically reduce delays, except an 
economic downturn.
    A dramatic reduction in delays would begin with a halt in the 
increase of delays despite any additional stresses to the system, 
including weather phenomena. Once growth is halted, any measurable 
erosion of delays would be significant. From a passenger perspective, I 
would say that a dramatic reduction of delays would occur when one can 
depart and arrive via air travel on a timely basis for significant 
stretch of time. In sum, there is both the academic version of delay 
reduction and the personal perception of what constitutes a reduction 
in delays.

<bullet> When you say that ``currently available technology can 
dramatically reduce delays,'' what technology are you talking about; 
where is it deployed; where should it be deployed to dramatically 
reduce delays: and under the current FAA structure and given past FAA 
practices, how long will that take?

    Answer. There isn't one specific fix that will fully address the 
congestion problems of the future. It has to be a combination of 
technology enhancements, airspace management and airport pavement. As 
for technology, there are technologies available today that will enable 
pilots and air traffic controllers to utilize available airspace more 
efficiently. The end-state will be a free-flight environment where 
aircraft fly direct routing at any altitude they desire.
    In regard to the ATC technologies currently in development: For 
controllers, the core group of capabilities are currently being 
implemented at key air traffic control facilities in the nation's 
airspace system include the capabilities identified in Free Flight 
Phase One. The tools give controllers better access to information 
about conflict resolution, final approach spacing and balanced runway 
assignments for maximum use of available asphalt and concrete. The FAA 
should continue to field these tools along with next generation 
upgrades that will prepare the ATC infrastructure for increased traffic 
volumes.
    In regard to the technologies for aircraft currently in 
development: Communications: The aviation industry is moving forward 
with avionics that provide more frequencies and will enable air-ground 
communications via text messaging for routine air traffic control 
clearances. These increased communications capabilities will support 
forecast spectrum and communications performance needs established by 
air traffic control. Navigation: The aviation Industry continues to 
transition to an Area Navigation (RNAV) environment. AOPA's continued 
advocacy for the development of the Wide Area Augmentation System 
supports this transition for general aviation and commuter airlines. 
Surveillance: Just this month, the FAA certified a very exciting tool 
for large aircraft: ADS-B. In addition to being a low-cost surveillance 
system in the future, ADS-B enables controllers and pilots to see the 
same tactical traffic picture and work together to efficiently manage 
flow.
    Two of these three enhancements (Navigation and Surveillance) will 
be publicly demonstrated later this month when the Safe Flight 21 
Operational Evaluation (SF21 OpEval) is conducted in Louisville. These 
technologies are available and the FAA needs to respond by 
demonstrating a willingness to move forward quickly. The FAA should 
also established aggressive schedules for the Free Flight Phase one 
programs. Although these technologies are not the complete solution to 
reducing airborne congestion, they offer certifiable, near-term 
improvements.
    Length of time to implementation will be determined by cooperation 
between the FAA and users of the system. Consensus is the key. The FAA 
needs to identify pathways where all aviation users benefit. When there 
is consensus from the major user interests the FAA will find that 
programs can move the fastest and with the least difficulty. System 
design and implementation of the future requires that all users work 
together to keep the FAA moving in the right direction.

<bullet> What specific suggestions do you have to facilitate the 
building of runways?

    Answer. Building runways and airports take significant amounts of 
times. There are a number of steps Congress and the FAA might undertake 
to facilitate increases to available airport capacity and reduction in 
associated delays. The Military Airport Program (MAP) authorized by 
Congress and implemented by the FAA allows federal investments in 
``surplus'' military facilities that have been converted to civil use 
airports. However, a number of airports that could be open for civil 
use and enhanced capacity in delay prone areas of the U.S. have not 
been opened for civilian use but rather will be converted and sold for 
other uses. These included South Weymouth, Massachusetts, Alameda, 
California, Moffett Field, in San Jose, California, and El Toro in 
Orange County, California. These multi-billion dollar federally funded 
facilities are not yet surrounded by residential development and would 
be less likely to create noise impacts on local communities.
    The environmental process should be streamlined. Airport projects 
identified as high priority should be eligible for an expedited review 
and implementation of any mitigation measures.
    Airport sponsors should have additional flexibility in acquiring 
property surrounding the airport for the purpose of creating buffer 
zones.
    A national policy on the use of land planning surrounding airports 
should be developed with the intent of preserving existing open space 
and permitting future growth of the airport when necessary. Again, this 
comes back to the point that impacts on airport capacity and delay have 
a direct impact on the national system of transportation as well as the 
economic health of the nation.
                                 ______
                                 
      Response to Written Questions Submitted by Hon. John McCain 
                           to Deborah Branson

Question 1. How will you hold the FAA Administrator accountable for 
setting goals, and for meeting these goals?

Answer. The MAC will serve much like a corporate board of directors. 
Although the direct powers of the MAC are limited, its members can help 
focus the Administrator's attention on appropriate goals and their 
execution. The Administrator, for instance, is attempting to create an 
organization with performance goals. The MAC might offer input as to 
the goals and a system for follow-up at predetermined intervals, in 
which a comparison is made between the actual performance and the 
goals.

Question 2. As you know, the law enables the Management Advisory 
Council to oversee FAA spending matters. The recently-enacted FAA 
reauthorization bill significantly boosted FAA spending on airport 
grants. As a member of the Management Advisory Council, do you believe 
it is important that the FAA establish and follow criteria for 
allocating discretionary grants according to safety and efficiency 
priorities?

Answer. Yes, I cannot imagine a circumstance in which safety and 
efficiency should not be priorities. The FAA, under the Ford AIR-21 
Bill, will have $3.2 billion dollars to spend on airport projects, not 
including funds generated from the increase from $3.00 to $4.50 for 
passenger facilities charges. With the increase in demand for air 
travel expected to top one billion passengers by 2009, and knowing that 
a corresponding increase in operations will also occur, the MAC must 
make certain that these grants are directed to their highest and best 
use.
    If we do not expand capacity at our nation's airports, we will face 
substantial increases in delays and run the risk of impairing safety. 
It is a risk we cannot afford to take. The MAC must oversee the 
implementation of criteria for airport funding or we will fail in our 
mission to make the FAA more accountable and to make our air 
transportation system ready to meet the impending challenges safely and 
efficiently.

Question 3. Knowing what you do about the FAA today, what change would 
have to take place in the coming year for you to claim success as a 
member of the Management Advisory Council?

Answer. Success within one year of confirmation as a member of the MAC 
would include evidence that the overall capacity of the national 
airport and airway system is being enhanced while maintaining the 
absolute highest standard of safety.

Question 4. The legislation that established the Management Advisory 
Council addressed certain duties specifically, such as reviewing the 
FAA rulemaking cost-benefit analysis and reviewing the agency's process 
for issuing Advisory Circulars. How do you expect the Council will 
decide what other issues to comment on, among the issues that fall 
within the category of management, policy, spending, funding and 
regulatory matters before the Administrator?

Answer. It is difficult to know how these decisions will be made. As a 
general rule, however, boards sort out the most pressing issues to deal 
with first. The statute enumerates specific areas to be addressed and 
those should be among the first group. In addition, the new 
statutorily-mandated COO should work with the MAC to establish 
priorities.
    After that, choices will be dependent on a number of factors which 
may include individual concerns and expertise of the MAC members, who 
is elected Chair, particular circumstances which may arise in the field 
of aviation, specific requests for comment by the Administrator, etc. 
Diligent oversight with regard to each of the categories is called for.

Question 5. There have been many calls for privatizing FAA's air 
traffic control services and other countries, including NAVCANADA, have 
privatized. Such steps are controversial and should not be taken 
without considerable debate. However, given FAA's rising operations 
costs, what are your views on contracting out some FAA operations such 
as additional control towers, oceanic services, or maintenance 
activities?

Answer. I stand by my initial response noting that any decision 
regarding privatization should not be taken without considerable 
research, analysis and debate involving all parties. I, again, want to 
emphasize that safety should be accorded the highest priority when 
evaluating this issue.
    Having said that, further research on this topic has made it clear 
that there have been increased discussions, and some activity, 
regarding the privatization of certain parts of air traffic control 
services. For instance, the operation of all Level One towers are now 
contracted to private companies. They are operated under FAA's 
guidelines--at approximately 50% of the previous cost and with 
comparable safety and efficiency. Although I understand it would be 
very controversial, expansion of this program might be considered.
    Privatization of oceanic services may make sense, too. It involves 
a discrete segment of FAA services (easy to separate from others), so 
there is a potential increase in services and savings in cost to be 
found in an outside contract.
    There are ongoing negotiations between the FAA and PASS, the union 
of maintenance workers, in which contracts for maintenance is an issue. 
Many purchases and/or new equipment leases are being made with 
attendant maintenance agreements--as is typical of the private business 
world. The same sorts of considerations are applicable whether the 
business making the decision is the FAA or a law office. They include 
cost of the agreement versus cost of an employee, whether repairs will 
be guaranteed on a timely basis, the availability of emergency service, 
the cost of continued training, access to parts, etc.

Question 6. I recognize that each of you was nominated to serve on the 
Management Advisory Council in part to share your unique perspective as 
the result of your employment in or around a certain sector of the 
aviation industry. Nevertheless, do you anticipate any circumstances in 
which you would have to recuse yourself from comments on a particular 
FAA action because of a potential conflict? If so, please give me an 
example.

Answer. I do not anticipate any circumstances in which I would have to 
recuse myself from commenting on a particular action because of a 
potential conflict. In the event any conflict, real, apparent, or 
perceived arises, it will be my duty to disclose such and my comments 
as a member of the MAC can be considered within that context. Further, 
to date, there has been no situation involving our firm's aircraft 
litigation in which I would have had a conflict with the FAA, nor am I 
aware of any potential conflict at this time which would mandate 
recusal.

Question 7. Can we expect you to take an active role in oversight of 
the FAA's management of and modernization of the air traffic control 
system, at least until the members of the Air Traffic services 
subcommittee are appointed?

Answer. I would expect to take an active role in the oversight of the 
FAA's management of the modernization of the air traffic control 
system.

Question 8. GAO and others have identified major shortcomings in 
several areas, including financial management, air traffic control 
modernization, safety oversight, and security of computers and 
facilities. How would you prioritize the issues on which the Council 
should focus its attention?

Answer. Generally, I would give first priority to safety issues, but 
each of the issues is important. With regard to each of the areas 
named, it seems to me that the first question should be, ``Will it make 
the system safer?'' and the second one should be, ``Is it a wise 
investment from both cost and efficiency standpoints?''

Question 9. FAA's culture has been found to be a contributor to the 
problems with acquiring modernization system on time, within budget, 
and that meet performance parameters. What ideas would you offer to 
create incentives to change FAA's culture?

Answer. Oversight and accountability with regard to specific tasks and 
overall management should motivate cultural change. There is evidence 
that this is beginning to be the case at the FAA with the institution 
of performance agreements.
    The agency is currently operating pursuant to the terms of a 
strategic plan. There are 32 strategic projects to support the plan, 
defined by the general categories of safety, efficiency and security. 
Each project is regularly assessed and reviewed by the management 
board.
    Two good examples of the success of this strategy are Y2K and the 
Free Flight Program. Each has involved continued attention and 
direction from high-level management, buy-in from the aviation industry 
and adequate funding. Metrics have been created to systematically 
measure performance and there is frequent review.
    I think these are very positive steps toward cultural change at the 
FAA. In addition, procurement and personnel reforms should help. This 
is an incremental process, but it is my belief that the MAC will 
provide additional impetus and oversight to cultural change.

Question 10. FAA and many users have long called for allowing the 
agency greater flexibility in managing its operations and the National 
Airspace System. Acquisition and Personnel reforms were initial 
attempts at giving FAA this flexibility. How well do you feel the 
agency has done thus far in managing its reform efforts? What 
additional actions should be taken?

Answer. Exemption of the FAA from the general procurement rules of the 
U.S. government appears to have been a good decision. Bid time, for 
instance, has been cut in half. The process for procurement has 
changed, too, resulting in a system which continues to improve.
    The FAA's personnel system was also exempted from the Civil Service 
system rules. Employees have recently moved to a core compensation plan 
or pay for performance. Regular salary increases are no longer an 
entitlement and certain positions have been defined by specific skills, 
rather than employees automatically moving to administrative or 
managerial positions through seniority. These sorts of changes should 
help control costs and preserve or add efficiencies as their full 
effects come to be realized.
    The exception to the core compensation plan is with regard to the 
union bargaining units--although they, too, are being moved in that 
direction.
    Both the procurement and personnel changes are an evolving process. 
Although more time is needed to adequately measure the changes, it 
appears that those made, to date, are positive. Continued shifts toward 
a more business-oriented environment, ongoing management of the process 
and more complete cost accounting data are still needed.

Question 11. What is your understanding as to the time commitment that 
will be required of members of the MAC? Do you have a sense as to how 
often the MAC will meet?

Answer. I believe the time required to serve on the MAC will be 
considerable and I am prepared to meet that commitment. Pursuant to 
statute, the Council shall meet on a regular and periodic basis or at 
the call of the Chairman or of the Administrator. There is no way, at 
this point, to anticipate the schedule of the Council other than to 
note there is a good deal of work to be accomplished. I will devote the 
necessary time, energy, and resources required to be a productive 
member of the MAC.

Question 12. Many observers agree that labor is the biggest cost driver 
at the FAA. Negotiations are underway with the FAA and a few of its 
employees' unions. Given your professional experience, how would you 
advise the Administrator to take a hard line, financially speaking, in 
these negotiations?

Answer. A hard line should be taken in the negotiations. When increased 
wages are warranted, higher productivity should he expected. Because of 
the specialized nature of their work, controllers are the personnel 
population with the most leverage in the negotiating process. Other 
contracts call for a firm management position.

Question 13. Experienced observers have commented consistently on the 
negative consequences of the increasing number of non weather-related 
delays in the system. What recommendations for short-term improvements 
will you advance as a member of the Management Advisory Council?

Answer. As a frequent air traveler, I, too, am interested in resolving 
the problems associated with non weather related delays. It is my 
understanding that the FAA and the airlines have increased 
communication and collaboration on a more regular basis. That should be 
one step in the right direction. In addition, the DOT Inspector General 
is looking at how to better define delays, so that a more systematic 
approach can be taken when addressing the problems. I believe that 
further evaluation by the MAC is warranted.

Question 14. Modernizing the National Airspace System has not kept pace 
with the demand for air travel and FAA has a poor track record of 
managing the acquisition of major systems. Most believed that major 
problems were behind us and FAA talks of embracing a ``build a little, 
test a little'' philosophy. But now, two key systems, STARS and WAAS, 
are experiencing problems. What can the FAA do differently to speed up 
the modernization effort?

Answer. With regard to both the STARS and WAAS programs, it appears 
that mistakes were made in terms of not making the controllers and the 
industry part of the decision-making process when designing the 
programs. Buy-in from stakeholders will surely speed up future 
modernization efforts.

Question 15. Many believe that a root cause of FAA's problems in 
modernizing the National Airspace System is a lack of technical 
expertise. It is also believed that a small cadre of people with 
expertise could have a major impact. What is your view? How can FAA 
enhance its overall expertise level?

Answer. If technical expertise is lacking at the FAA, common sense 
dictates that must be changed immediately. Obviously, this requires 
appropriate recruitment and the ability to pay for the expertise, but I 
would find it very difficult to justify not having the appropriate 
expertise for matters involving safety and efficiency. The FAA needs to 
reach out to the private sector for advice and talent in the area of 
emerging technologies and their applications.

Question 16. The National Civil Aviation Review Commission and others 
have projected that there will be gridlock in the skies within the next 
few years if dramatic steps are not taken to improve the air traffic 
control system. Do you agree with this assessment? Please elaborate.

Answer. Again, common sense would lead one to the conclusion that this 
is true. Traffic data and trends reinforce that conclusion. Improvement 
is obviously required--sooner rather than later.

Question 17. Members of the Council represent disparate views. 
Recognizing this, how will members achieve consensus so that the advice 
given to the Administrator is in the best interest of aviation?

Answer. Consensus is most often achieved, in my experience, through a 
process of careful analysis of the facts and competent articulation of 
the arguments for and against any particular action or recommendation. 
Disparate views can be a tremendous asset when offered by intelligent 
and capable professionals. Through advocacy of our respective points of 
view and thoughtful discussion, I would expect that a consensus will 
emerge which will best serve the public interest.

Question 18. FAA's operations costs have risen from $3.8 billion in 
1990 to nearly $6 billion in FY 2000 and these figures continue to 
rise. By FY 2003, FAA projects its operations account will grow to over 
$7 billion. These costs are made up primarily of salaries which are 
expected to increase further as FAA continues to negotiate new pay 
agreements with its various workforces. What should be done to control 
these costs?

Answer. The cost of doing business has risen in many companies with the 
low unemployment rates and the corresponding need to raise salaries 
and/or increase benefits. While operational costs must stay abreast of 
growth, negotiations should focus on productivity through technology 
and cost avoidance.

Question 19. Currently airlines pay for air traffic services through 
the ticket and fuel taxes. Many other countries have transitioned to 
user fees. What are your views on user fees? How quickly can the U.S. 
move toward user fees for domestic air traffic control services? How 
should general aviation and smaller airlines be handled in such a 
regime?

Answer. I believe that there is an argument to be made for making user 
fees the funding source for air traffic services. Before any change is 
made in that regard, however, a more complete cost accounting system 
should be in place. Confidence and credibility in that data will need 
to be established in order to have the necessary buy-in from the 
various groups of users to effectuate any proposed change from a 
political perspective. Users will need to be assured that the fees are 
based on the true costs of services provided, rather than a generally 
controversial rate process.
    In addition, there are many details regarding a formula for the 
imposition of user fees to be considered in order to fairly apply such 
a system. It is my understanding that, very simply stated, the European 
version of user fees is based on miles traveled and aircraft size. Some 
method of capturing the actual services various users enjoy should also 
be factored in. A sensitive balance of the need for an equitable 
funding system, the positions of various segments of the industry and 
the traveling public will be required for there to be a move toward 
user fees. Further, their implementation and/or collection may pose 
challenges.

Question 20. The recently-enacted FAA reauthorization bill established 
a pilot program that would allow the industry to cost-share with the 
FAA on discrete air traffic modernization projects. Do you think this 
program will help bring good technologies on-line more quickly?

Answer. I do believe that a partnership of the FAA and industry to cost 
share on discrete air traffic modernization projects will result in 
more expeditious technological improvements.

Question 21. The U.S. air transportation system has an excellent safety 
record but more needs to be done. The key to improving safety while 
accommodating increased demand is being proactive. FAA must be 
proactive. How can FAA be more proactive in identifying safety concerns 
before they result in accidents?

Answer. Priority should be placed on the air traveler, not the profit 
concerns of the industry. The FAA does, in fact, need to be more 
proactive regarding safety. That was the crux of the National Civil 
Aviation Review Commissions' report on safety in 1997. The public 
rightfully expects a significant reduction in the rate of accidents. It 
is my understanding that the FAA, together with the industry, has 
developed a strategy to reduce the accident rate.
    I also understand that the FAA and the airline industry are working 
with data collected from recorders on routine flights to identify and 
repair potential problems before they result in an accident. This is a 
good example of a safety risk management strategy that should be 
continued. More performance-based measures should be created in order 
to build accountability into the safety systems.

Question 22. If confirmed, is there a particular FAA function or 
activity that you will focus your attention on?

Answer. While I do not want to preclude active participation in any 
matter coming before the MAC, I can say with assurance that safety will 
be my primary focus.

In addition, pursuant to your fax of June 14, 2000, with additional 
post-hearing questions, I submit my answers as follows:

(1) I would like to follow up on a previous question with regard to how 
members of the MAC will achieve consensus to provide advice to the 
Administrator. You responded that consensus is most often achieved in 
your experience through ``careful analysis of the facts and competent 
articulation for and against any particular action or recommendation.'' 
How will the MAC advise the Administrator if it cannot achieve 
consensus on an important issue?
Answer. Section 230(p)(1) of 49 U.S.C. 106(p) specifically states that 
``the Council may submit comments, recommended modifications, and 
dissenting views to the Administrator.'' A majority report, 
concurrences and any dissents are the typical ways in which a 
committee, unable to reach unanimity, would report.
    Having said that, I believe that consensus is achievable. It 
requires work, desire and patience--at a minimum. From there, consensus 
building occurs--and that is a characteristic which has been attributed 
to my work on a number of occasions. Certainly, all the members of the 
MAC will start from the perspective that a more efficient air traffic 
control system and a more effective FAA are desirable. Differences can 
be narrowed and areas of agreement established.

(2) In response to several of my post-hearing questions, you state that 
you do not have enough information, or that additional research and 
analysis is required, for you to be able to respond. Given the 
complexity of the FAA and it operations, as well as that of the entire 
aviation community, what experience or knowledge do you have that will 
allow you to contribute immediately to an advisory committee composed 
of individuals with substantial backgrounds in relevant facets of 
aviation? Will you be able to devote the necessary time, energy, and 
resources that will be required for you to have an adequate level of 
understanding on the many different aviation-related details you would 
face as a member of the MAC? Please explain how you will balance the 
demands of your current work load with the demands of being on the MAC.
Answer. First, I want to be very clear that I will devote the necessary 
time, energy, and resources required to be a productive member of the 
MAC. The balance of various commitments is something I am accustomed to 
achieving.
    With regard to my ability to contribute to the MAC:

  <bullet> I am trained to ask questions, e.g., questions others might 
        not ask because of entrenched positions or loyalties, questions 
        that a typical air traveling passenger might ask if given the 
        opportunity, questions a taxpayer might ask, or questions that 
        one of our aircraft crash clients might have asked. I believe 
        that not knowing all the technical details allows the freedom 
        to ask common-sense questions which, as a general rule, 
        provides valuable insight. I firmly believe that my perspective 
        and training will be an asset to the MAC.

  <bullet> I am also trained to become knowledgeable on focused, 
        technical areas in which I am not an expert. Trial work 
        requires exactly that sort of preparation. As I said 
        previously, I am prepared to invest the time and energy 
        required to become knowledgeable on these issues.

  <bullet> The National Civil Aviation Review Commission, established 
        by Congress to report on the financing of the nation's aviation 
        program and on aviation safety matters, was comprised of 
        persons from all areas of aviation, as well as individuals from 
        related disciplines. I believe the make-up of that committee 
        was of benefit in its work and that the MAC, too, will benefit 
        from having one or more members who represent passenger 
        interests, in addition to industry interests.

  <bullet> I am willing to listen to and learn from all who have 
        knowledge applicable to the work of the MAC.

(3) With regard to the negotiations between the FAA and its employees' 
unions, you state that the U.S. taxpayer interests should be 
considered, but that the bottom line is to achieve a fair contract for 
the FAA and the employees covered by contract.

--Shouldn't the taxpayer be the primary ``client'' of the FAA 
negotiators? If not, who should the FAA be looking out for?

Answer. The taxpayer is, of course, the primary ``client'' in 
negotiations between the FAA and employees' unions. Fairness in 
contract provisions for both parties in negotiations will, inevitably, 
inure to the benefit of taxpayers, including the traveling public, and 
should help achieve greater effectiveness and efficiency in government 
operations.

--I assume that, as an experienced lawyer, you have had some 
familiarity with the strategies and tactics of negotiation. Is there 
anything else at all that comes to mind as to how the FAA may do a 
better job of holding the line financially when it comes to labor 
negotiations that may have a dramatic impact on the agency's operating 
costs?

Answer. I do have experience with the strategies and tactics of 
negotiation. In fact, the vast majority of litigation is resolved 
through exactly that process, rather than trial. In terms of specific 
labor negotiations, however, I would not want to be placed in the 
position of second-guessing those to whom this job has been entrusted 
without the benefit of their knowledge and the history of the labor 
relationship.
    I believe that the collective private sector experience of MAC 
members will provide innovative ideas. Non-economic incentives can 
often play an important role in dealing with employees and their job 
satisfaction.

(4) In response to any questions about a pilot program that would allow 
the industry to cost-share with the FAA on air traffic modernization 
projects, you answered, ``Without knowing specifically what the 
modernization projects include, it is difficult to project success.'' 
In responding to other questions, you also said that you would need to 
do more research and analysis. Please take the opportunity to review 
the criteria for the pilot program from the recently enacted FAA 
reauthorization act (Section 304 of P.L. 106-181) and provide me with 
your thoughts as to whether you believe it may bring good technologies 
on-line more quickly.

    Answer. The pilot program certainly has the potential to bring new 
systems on-line more quickly. Common sense dictates that where 
participating airports and air carriers agree to invest funds in a 
qualifying project with the FAA, there is an opportunity to produce 
technological successes more expeditiously. The pilot program will 
provide good information regarding the accuracy of this premise.
    Mr. Chairman, I would like to emphasize that I have not approached 
this nomination lightly. I consider it to offer a substantial 
responsibility and have honestly approached your inquiries with that in 
mind. My intent has been to avoid drawing conclusions prematurely, not 
to avoid indicating my positions on legitimate issues.
    I have a willingness and desire to offer my time, energy, intellect 
and experience to this unpaid position of public service in an attempt 
to help make air travel a safer, more efficient mode of travel and the 
FAA a better organization. I suggest to you that my service on the MAC 
would provide a fresh perspective not bound by established opinions or 
judgments of those more steeped in aviation matters. I hope that I have 
answered your questions adequately and that you will allow me the 
opportunity to work on these important, substantive issues.

                                <greek-d>

</pre></body></html>
